<html>
<title> - H.R. 4107, ASSISTANCE TO FIREFIGHTERS REAUTHORIZATION ACT OF 2004</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



                 H.R. 4107, ASSISTANCE TO FIREFIGHTERS
                      REAUTHORIZATION ACT OF 2004

=======================================================================

                                HEARING

                               BEFORE THE

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 12, 2004

                               __________

                           Serial No. 108-58

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
93-551                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
RALPH M. HALL, Texas                 BART GORDON, Tennessee
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         LYNN C. WOOLSEY, California
KEN CALVERT, California              NICK LAMPSON, Texas
NICK SMITH, Michigan                 JOHN B. LARSON, Connecticut
ROSCOE G. BARTLETT, Maryland         MARK UDALL, Colorado
VERNON J. EHLERS, Michigan           DAVID WU, Oregon
GIL GUTKNECHT, Minnesota             MICHAEL M. HONDA, California
GEORGE R. NETHERCUTT, JR.,           BRAD MILLER, North Carolina
    Washington                       LINCOLN DAVIS, Tennessee
FRANK D. LUCAS, Oklahoma             SHEILA JACKSON LEE, Texas
JUDY BIGGERT, Illinois               ZOE LOFGREN, California
WAYNE T. GILCHREST, Maryland         BRAD SHERMAN, California
W. TODD AKIN, Missouri               BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         DENNIS MOORE, Kansas
MELISSA A. HART, Pennsylvania        ANTHONY D. WEINER, New York
J. RANDY FORBES, Virginia            JIM MATHESON, Utah
PHIL GINGREY, Georgia                DENNIS A. CARDOZA, California
ROB BISHOP, Utah                     VACANCY
MICHAEL C. BURGESS, Texas            VACANCY
JO BONNER, Alabama                   VACANCY
TOM FEENEY, Florida
RANDY NEUGEBAUER, Texas
VACANCY


                            C O N T E N T S

                              May 12, 2004

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Nick Smith, Member, Committee on 
  Science, U.S. House of Representatives.........................    10
    Written Statement............................................    10

Statement by Representative Bart Gordon, Minority Ranking Member, 
  Committee on Science, U.S. House of Representatives............    11
    Written Statement............................................    12

Statement by Representative Gil Gutknecht, Member, Committee on 
  Science, U.S. House of Representatives.........................    13

Statement by Representative Lynn Woolsey, Member, Committee on 
  Science, U.S. House of Representatives.........................    13

Statement by Representative Lincoln Davis, Member, Committee on 
  Science, U.S. House of Representatives.........................    13

Statement by Representative Dana Rohrabacher, Member, Committee 
  on Science, U.S. House of Representatives......................    14

Prepared Statement by Representative Sherwood L. Boehlert, 
  Chairman, Committee on Science, U.S. House of Representatives..    14

Prepared Statement by Representative Curt Weldon, Member, 
  Committee on Science, U.S. House of Representatives............    15

Prepared Statement by Representative Jerry F. Costello, Member, 
  Committee on Science, U.S. House of Representatives............    18

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Committee on Science, U.S. House of Representatives....    18

                                Panel 1:

The Hon. Bill Pascrell, Jr., Member, U.S. House of 
  Representatives
    Oral Statement...............................................    19
    Written Statement............................................    21

Discussion.......................................................    22

                                Panel 2:

Mr. R. David Paulison, Administrator, United States Fire 
  Administration
    Oral Statement...............................................    27
    Written Statement............................................    29
    Biography....................................................    32

Mr. Andrew T. Mitchell, Deputy Director, Office of Domestic 
  Preparedness, Department of Homeland Security
    Oral Statement...............................................    32
    Written Statement............................................    34
    Biography....................................................    36

Mr. James M. Shannon, President and CEO, National Fire Protection 
  Association
    Oral Statement...............................................    37
    Written Statement............................................    39
    Biography....................................................    41
    Financial Disclosure.........................................    42

Chief Philip C. Stittleburg, Chairman, National Volunteer Fire 
  Council
    Oral Statement...............................................    44
    Written Statement............................................    45
    Biography....................................................    48
    Financial Disclosure.........................................    49

Chief Ernest Mitchell, President, International Association of 
  Fire Chiefs
    Oral Statement...............................................    50
    Written Statement............................................    52
    Biography....................................................    54
    Financial Disclosure.........................................    55

Mr. Kevin B. O'Connor, Assistant to the General President, 
  International Association of Fire Fighters
    Oral Statement...............................................    58
    Written Statement............................................    60
    Biography....................................................    65
    Financial Disclosure.........................................    66

Discussion.......................................................    67

                                Panel 3:

The Hon. Steny H. Hoyer, Member, U.S. House of Representatives 
  from the State of Maryland
    Oral Statement...............................................    72
    Written Statement............................................    75

Discussion.......................................................    76

             Appendix 1: Answers to Post-Hearing Questions

Mr. Andrew Mitchell, Deputy Director, Office of Domestic 
  Preparedness, Department of Homeland Security..................    84

Chief Philip C. Stittleburg, Chairman, National Volunteer Fire 
  Council........................................................    87

Chief Ernest Mitchell, President, International Association of 
  Fire Chiefs....................................................    88

Mr. Kevin B. O'Connor, Assistant to the General President, 
  International Association of Fire Fighters.....................    89

             Appendix 2: Additional Material for the Record

H.R. 4107, Assistance to Firefighters Reauthorization Act of 2004 
  ...............................................................    94

U.S. Department of Homeland Security Views on H.R. 4107, 
  Assistance to Firefighters Reauthorization Act of 2004.........   105

 
   H.R. 4107, ASSISTANCE TO FIREFIGHTERS REAUTHORIZATION ACT OF 2004

                              ----------                              


                        WEDNESDAY, MAY 12, 2004

                  House of Representatives,
                                      Committee on Science,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:09 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Nick Smith 
[Chairman of the Subcommittee on Research] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            HEARING CHARTER

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                 H.R. 4107, Assistance to Firefighters

                      Reauthorization Act of 2004

                        WEDNESDAY, MAY 12, 2004
                         10:00 a.m.-12:00 p.m.
                   2318 RAYBURN HOUSE OFFICE BUILDING

1. Purpose

    On Wednesday, May 12th, 2004, the House Science Committee will hold 
a hearing to examine the Assistance to Firefighters Grant Program and 
to receive testimony on H.R. 4107, the Assistance to Firefighters Grant 
Reauthorization Act of 2004.

2. Witnesses

Panel I

The Honorable Bill Pascrell is the representative from the 8th District 
of New Jersey.

Panel II

Mr. R. David Paulison is Administrator of the United States Fire 
Administration (USFA) within the Department of Homeland Security (DHS) 
Emergency and Preparedness Response directorate. Before being appointed 
as Administrator in 2001, Mr. Paulison was Chief of the Miami-Dade Fire 
Rescue Department.

Mr. Andrew Mitchell is Deputy Director of the Office of Domestic 
Preparedness (ODP) within the DHS Border and Transportation Security 
Directorate. Prior to joining ODP, Mr. Mitchell served as the Chief of 
the National Initiatives Branch in the Bureau of Justice Assistance at 
the Department of Justice.

Mr. James M. Shannon is President and CEO of the National Fire 
Protection Association (NFPA). Mr. Shannon joined NFPA as senior vice 
president and general counsel in 1991. From 1987-1991, he served as 
Attorney General of the Commonwealth of Massachusetts. Prior to that, 
he served for six years as a Member of the U.S. House of 
Representatives.

Chief Philip C. Stittleburg is Chairman of the National Volunteer Fire 
Council (NVFC). He served as the NVFC Foundation President for twelve 
years and is a current member of the NFPA Board of Directors. Chief 
Stittleburg has served as Chief of the LaFarge (WI) Fire Department for 
26 years. He is also legal counsel to the NVFC, the LaFarge Fire 
Department, and the Wisconsin State Firefighters Association.

Chief Ernest Mitchell is President of the International Association of 
Fire Chiefs. Chief Mitchell recently retired as Chief of the Pasadena 
Fire Department. He is also Past President of the Foothill Chiefs, Los 
Angeles Area Fire Chiefs, and League of California Cities Fire Chiefs 
associations.

Mr. Kevin O'Connor is the Assistant to the General President of the 
International Association of Fire Fighters. Previously, Mr. O'Connor 
served concurrently as president of the Maryland State and District of 
Columbia Professional Fire Fighters and the Baltimore County Fire 
Fighters Association, Local 1311.

Panel III

The Honorable Steny Hoyer is the House Minority Whip and representative 
of the 5th District of Maryland.

3. Overarching Questions

    The hearing will address the following overarching questions:

        1.  How do the administration and fire services organizations 
        view H.R. 4107?

        2.  How effective has the Assistance to Firefighters Grant 
        Program (AFGP, also known as the FIRE Act) been at improving 
        the overall level of readiness of fire departments in the 
        United States? What level of need still exists with regard to 
        the ability of fire departments to respond to day-to-day 
        hazards, and in what areas are the gaps the greatest?

        3.  How should the Federal Government balance support for basic 
        first responder needs with support for counter-terrorism 
        preparedness?

        4.  What are the status and outlook for the Fiscal Year (FY) 
        2004 grant process? What major changes, if any, have taken 
        place in the program since ODP assumed responsibility for 
        administering it this year? To what extent are ODP and USFA 
        coordinating to ensure continuity in program administration?

4. Brief Overview

        <bullet>  In 2000, Congress established the AFGP to award 
        grants directly to local fire departments to protect ``the 
        health and safety of the public and firefighting personnel 
        against fire and fire-related hazards, and to provide 
        assistance for fire prevention programs.'' (The current 
        authorization expires at the end of FY 2004.)

        <bullet>  Since 2001, the AFGP has distributed $1.1 billion to 
        nearly 17,000 fire departments around the country. Currently, 
        more than 20,000 departments have applied for the $750 million 
        available for the AFGP in FY 2004.

        <bullet>  From its inception until FY 2003, the AFGP was 
        administered by USFA. For the first time this year, the program 
        is being administered by ODP as a result of language included 
        in the FY 2004 appropriation bill for the Department of 
        Homeland Security. Many in the fire services and Congress have 
        voiced concern that this transfer could shift the focus of the 
        program toward state-administered counter-terrorism assistance 
        and away from providing direct assistance on a competitive 
        basis to fire departments for the purpose of improving basic 
        firefighting capabilities.

        <bullet>  On April 1st 2004, Chairman Boehlert and a bipartisan 
        group of Congressional Fire Services Caucus leaders introduced 
        H.R. 4107, the Assistance to Firefighters Grant Reauthorization 
        Act of 2004. The bill would authorize $900 million per year for 
        the program in fiscal years 2005-2007. While H.R. 4107 
        continues the AFGP mostly unchanged, it does make several 
        programmatic modifications, including:

                <bullet>  Program Location. Transfers authority for 
                administering the AFGP from ODP to USFA.

                <bullet>  EMS Eligibility. Allows volunteer non-profit, 
                non-hospital Emergency Medical Service (EMS) squads not 
                affiliated with fire departments to apply for grants. 
                The bill would set a cap on the amount of funds those 
                entities could collectively receive at four percent of 
                the total appropriation for the program.

                <bullet>  Non-federal Match. Reduces from 30 percent to 
                20 percent the non-federal matching requirement to 
                receive a grant for jurisdictions that serve more than 
                50,000 people.

                <bullet>  Maximum Grant Size. Increases the grant-size 
                cap from $750,000 to $3 million for jurisdictions that 
                serve more than one million people, $2 million for 
                jurisdictions that serve between one million and 
                500,000 people, and $1 million for all other 
                departments.

                <bullet>  Volunteer Non-Discrimination. Specifies that 
                departments that receive funding under this Act cannot 
                discriminate against, or prohibit employees from 
                engaging in, volunteer firefighting activities in 
                another jurisdiction during off-duty hours.

                <bullet>  Peer Review. Codifies USFA's current 
                practices of consulting with fire service organizations 
                in considering criteria changes to the AFGP and 
                appointing fire service personnel to conduct peer-
                review of applications.

        <bullet>  In February, a coalition of fire service groups\1\ 
        submitted to Congress a position paper (or White Paper) on the 
        reauthorization of the AFGP. Many of the provisions in H.R. 
        4107, such as increased maximum grant size and decreased non-
        federal match for larger departments, are similar to or the 
        same as those in the White Paper. The most notable differences 
        are:
---------------------------------------------------------------------------
    \1\ Comprised of the Congressional Fire Services Institute, 
International Association of Arson Investigators, International 
Association of Fire Chiefs, International Association of Fire Fighters, 
International Code Council, International Fire Service Training 
Association, International Society of Fire Service Instructors, 
National Fire Protection Association, National Volunteer Fire Council, 
and North American Fire Training Detectors.

                <bullet>  Program Location. The White Paper requires 
                the Director of DHS to decide which directorate within 
---------------------------------------------------------------------------
                DHS should be responsible for administering the AFGP.

                <bullet>  EMS Eligibility. The White Paper does not 
                address this issue.

                <bullet>  Volunteer Non-Discrimination. The White Paper 
                does not address this issue.

5. Issues

Volunteer Non-Discrimination
    H.R. 4107 includes a provision barring fire departments receiving 
grants under the act from prohibiting their members from volunteering 
in other jurisdictions during off-duty hours. These firefighters, known 
as ``two-hatters,'' are the center of an ongoing issue of contention 
between volunteer fire departments and the International Association of 
Fire Fighters, a career firefighters union. While the prevalence of 
two-hatters is widespread and has been for decades, pressure from IAFF 
locals either to (1) enter into collective bargaining agreements with 
their municipalities prohibiting firefighters from volunteering in 
their off-duty hours; or (2) take internal union actions against 
members that also serve as volunteer firefighters, is a more recent and 
regional practice.
    Despite the infrequent occurrence of such activities, increased 
pressure to do away with two-hatters has potential to substantially 
reduce the readiness of volunteer departments across the country, where 
preparedness is often heavily dependent upon more experienced, full-
time firefighters. In response to these concerns, H.R. 4107 states that 
``A fire department receiving funds provided under this section shall 
not discriminate against, or prohibit its members from engaging in, 
volunteer activities in another jurisdiction during off-duty hours.'' 
The language would not impact IAFF internal policies\2\ or the ability 
of a union local (as opposed to a fire department) to take internal 
action against two-hatter members.
---------------------------------------------------------------------------
    \2\ Currently, Article 15 of the IAFF Constitution prohibits 
members from joining ``rival organizations. . .including volunteer fire 
departments.''
---------------------------------------------------------------------------
    The non-discrimination provision is similar to one that passed last 
year in the SAFER Firefighter Grant Program, which provides funding to 
municipalities to train and hire new firefighters. That bill, which 
came out of the Science Committee, prohibits a department from barring 
firefighters hired using SAFER funds from volunteering.
Location of the AFGP Program within DHS
    The Homeland Security Act of 2002 (P.L. 107-296) designated ODP as 
the principal federal agency responsible for the preparedness of the 
United States for acts of terrorism. Since 2002, ODP has administered a 
number of grant programs that provide funds to states explicitly for 
distribution to first responders for terrorism preparedness. These 
programs include the State Homeland Security Grant Program, the Law 
Enforcement Terrorism Prevention Program, the Citizen Corps Program, 
and the Urban Area Security Initiative Grant Program.
    In an effort to consolidate first responder grant programs, the 
AFGP was transferred to ODP in FY 2004. However, because ODP's mission 
is terrorism preparedness and because the agency does not have 
experience working with fire departments or local jurisdictions, many 
in the fire services community and Congress have voiced concern that 
this shift could be detrimental to the program. H.R. 4107 places 
authority for administering the AFGP at USFA.
Distribution of Grant Funds
    When the fire grant program was created, there was some concern 
that large career departments would get a majority of the funding at 
the expense of smaller departments. To address this, the original 
legislation capped grants to individual departments at $750,000. In 
addition, a 30 percent cost share for departments serving jurisdictions 
with a population of greater than 50,000 was implemented. In part 
because of the lower tax base in rural areas, jurisdictions serving 
less than 50,000 people were required to provide only a 10 percent cost 
share.
    The unintended result of these policies appears to be that career 
departments, which serve approximately 40 percent of the population, 
are actually applying for and receiving a disproportionately lower 
amount of funding than volunteer and combination departments. For 
example, in FY 2003, only 13 percent of applications submitted, and 17 
percent of grants awarded, were from career departments. This issue of 
equity was raised in an Office of Management and Budget Program 
Assessment Rating Tool (PART) review of the AFGP in the 2005 budget, 
which noted that the $750,000 grant cap disadvantages larger 
departments.
    In response to this disparity, H.R. 4107 includes changes to make 
it easier for larger departments to apply for more AFGP funding. The 
non-federal matching requirement for jurisdictions that serve more than 
50,000 people is reduced from 30 percent to 20 percent. Also, the bill 
increases the grant-size cap from $750,000 to $3 million for 
jurisdictions that serve more than one million people, $2 million for 
jurisdictions that serve between one million and 500,000 people, and $1 
million for all other departments.
Program Effectiveness
    While the Assistance to Firefighters Grant Program has received 
nearly universal acclaim from fire departments and fire services 
organizations, reviews from various federal entities have been more 
mixed. A 2003 DHS Inspector General (IG) report stated that ``program 
goals, priorities, and grant criteria (had been) prudently developed.'' 
The report also found that the ``application solicitation is adequate, 
grant process is competitive, and application review is equitable.'' 
The report concluded that the ``AFGP appears to be addressing the basic 
needs and capabilities of the fire service as a whole.'' The report did 
make the following recommendations for ways that the AFGP could be 
strengthened:

        1)  require greater detail to determine a fire department's 
        financial need;

        2)  require applicants to declare other federal funding sources 
        to avoid potential duplication of assistance;

        3)  promote mutual aid and regional approaches to enhance 
        inter-operability;

        4)  improve monitoring of grant recipients to ensure 
        expectations and responsibilities are met;

        5)  developing performance measures to assess the program's 
        long-term effect;

        6)  Use needs assessment findings as an additional tool to 
        define program priorities and eligibility criteria; and

        7)  Clarify the distinction between the Fire Prevention and 
        Safety program and the Fire Prevention program category of the 
        AFGP.

    The overall conclusion of the OMB PART review of the AFGP in the FY 
2005 budget request was more critical. One of the primary criticisms 
raised in the PART assessment was that there were no data to indicate 
that the AFGP had been effective at reducing losses of life and 
property from fires. Another is that there have not been enough 
independent evaluations of the program to evaluate program 
effectiveness and guide improvements.

6. Questions for Witnesses

Questions for Mr. Paulison:

        <bullet>  How effective has the Assistance to Firefighters 
        Grant program been at improving the overall level of readiness 
        of emergency responders in the United States? What needs still 
        exist with regard to the ability of fire departments to respond 
        to day-to-day hazards, and in what areas are the gaps the 
        greatest? How should the Federal Government balance support for 
        basic first responder needs with support for counter-terrorism 
        preparedness?

        <bullet>  Please describe the role that non-government 
        participation has played in administering of the program. 
        Should the role of outside groups and individual firefighters 
        be modified and if so how?

        <bullet>  Please describe the results of the September 2003 
        USFA Inspector General's report on the Assistance to 
        Firefighters Grant Program. What is your reaction to the 
        recommendations of the report and what actions has USFA taken 
        to respond to those recommendations?

Questions for Mr. Mitchell:

        <bullet>  What is the status and outlook for the FY 2004 grant 
        process? What major changes, if any, have taken place in the 
        program since ODP assumed responsibility for administering it 
        this year? To what extent has ODP coordinated with USFA to 
        ensure continuity in program administration?

        <bullet>  What needs still exist with regard to the ability of 
        fire departments to respond to day-to-day hazards, and in what 
        areas are the gaps the greatest? How should the Federal 
        Government balance support for basic first responder needs with 
        support for counter-terrorism preparedness programs?

Questions for Mr. Shannon

        <bullet>  How effective has the Assistance to Firefighters 
        Grant Program been at improving the overall level of readiness 
        of emergency responders in the United States? What did the NFPA 
        study, A Needs Assessment of the U.S. Fire Service, reveal 
        about the ability of fire departments to respond to day-to-day 
        hazards? How should the Federal Government balance support for 
        basic first responder needs with support for counter-terrorism 
        preparedness?

        <bullet>  According to a Program Assessment Rating Tool (PART) 
        evaluation by the Office of Management and Budget, the fire 
        grant program does not address a specific and existing problem, 
        interest or need. What is your response to this conclusion? 
        What measurable evidence is there that the program has improved 
        public safety, and--to the extent more evidence is needed--what 
        metrics should be used to evaluate the success of the program?

        <bullet>  Please provide comments and recommendations on H.R. 
        4107 and how it might be improved, including specific comments 
        on the following important provisions that the Committee and 
        Congress will be discussing.

Questions for Chief Mitchell, Mr. Schaitberger, and Mr. Stittleburg

        <bullet>  How effective has the Assistance to Firefighters 
        Grant Program been at improving the overall level of readiness 
        of emergency responders in the United States? What needs still 
        exist with regard to the ability of fire departments to respond 
        to day-to-day hazards, and in what areas are the gaps the 
        greatest? How should the Federal Government balance support for 
        basic first responder needs with support for counter-terrorism 
        preparedness?

        <bullet>  According to a Program Assessment Rating Tool (PART) 
        evaluation by the Office of Management and Budget, the fire 
        grant program does not address a specific and existing problem, 
        interest or need. What is your response to this conclusion? 
        What measurable evidence is there that the program has improved 
        public safety, and--to the extent more evidence is needed--what 
        metrics should be used to evaluate the success of the program?

        <bullet>  Please provide comments and recommendations on H.R. 
        4107 and how it might be improved, including specific comments 
        on the following important provisions that the Committee and 
        Congress will be discussing.
                Section-by-Section Summary of H.R. 4107
      Assistance to Firefighters Grant Reauthorization Act of 2004

Sec. 1. Short Title.

    ``Assistance to Firefighters Grant Reauthorization Act of 2004''

Sec. 2. Findings.

    Contains 27 Findings describing fire department needs and other 
relevant fire statistics.

Sec. 3. Amendments.

    Amends Section 33 of the Federal Fire Prevention Control act of 
1974 (15 U.S.C. 2229), which authorizes the Assistance to Firefighters 
Grant Program (AFGP), making the following changes:

(1)  Strikes [FEMA] ``Director'' each place it appears and replaces 
with [USFA] ``Administrator''.

(2)  Expands upon authority to make grants to fire departments to also 
include ``volunteer emergency medical service squads''.

(3)  Expands authority to provide assistance for fire prevention 
programs under the program to include assistance for ``firefighter 
safety research and development''

(4)  Expands upon eligible use of grant funds to include emergency 
medical services provided by volunteer EMS squads that are not 
affiliated with a fire department, hospital, or any for-profit entity.

(5)  Amends subsection on Fire prevention programs to--

        (A)  Expand the title to ``Fire prevention and firefighter 
        safety research and development'';

        (B)  Clarify that fire departments cannot apply for grants 
        under this subsection.

        (C)  Expand priority consideration under this subsection to 
        include organizations that focus on prevention of injuries ``to 
        high-risk groups from fire, as well as research programs that 
        demonstrate the potential to improve firefighter safety''

(6)  Amends subsection on matching requirements to

        --  reduce the non-federal match for departments serving 
        jurisdictions of greater than 50,000 people from 30 percent to 
        20 percent; and

        --  clarify the Fire prevention grants shall not have a 
        matching requirement.

(7)  Amends subsection on grant size limitation to provide that--

        (A)  The total amount a grant recipient may receive is 
        increased from $750,000 to

                --  $1,000,000 for departments that serve a 
                jurisdiction with 500,000 people or less;

                --  $2,000,000 for departments that serve a 
                jurisdiction of 500,000 to 1,000,000 people; and

                --  $3,000,000 for departments that serve a 
                jurisdiction with more then 1,000,000 people. The bill 
                also provides that, upon showing sufficient need, a 
                jurisdiction serving a number of people near the 
                threshold may receive funding up to the next higher 
                level.

        (B)  Re-designates subparagraph (B) as subparagraph (C)

        (C)  Provides that ``no single recipient may receive more than 
        one half of one percent of the funds appropriated under this 
        section for a single fiscal year''; and

        (D)  Requires that not more than four percent of the funds 
        appropriated to provide grants may be collectively awarded to 
        volunteer medical service squads.''

(8)  Codifies current grant program practice regarding annual criteria 
development and peer-review process. Also adds at the end the following 
new paragraph on discrimination of volunteer firefighters:

         ``(16) Protection of volunteers from discrimination--A fire 
        department receiving funds provided under this section shall 
        not discriminate against, or prohibit its members from engaging 
        in, volunteer activities in another jurisdiction during off-
        duty hours.''

(9)  Authorizes annual appropriations of $900 million for the program 
through fiscal year 2007.

Sec. 4. Reports.

(a) Study on Need for Federal Assistance to State and Local Communities 
to Fund Firefighting and Emergency Response Activities--Directs the 
Administrator to--

        (1)  reconduct the study required under section 1701(b) of the 
        Floyd D. Spence National Defense Authorization Act for Fiscal 
        Year 2001, in conjunction with the National Fire Protection 
        Association, to----

                (A)  define the current role and activities associated 
                with the fire services;

                (B)  analyze the extent to which grant awards fulfill 
                the goals of applicants; and

                (C)  provide a needs assessment to identify shortfalls;

        (2)  express the needs assessment under subparagraph (A)(iii) 
        on a national and State-by-State basis; and

        (3)  measure the impact the Assistance to Firefighters Grant 
        program under section 33 of the Federal Fire Prevention and 
        Control Act of 1974 has had in meeting the shortfalls 
        identified in the original report conducted under such section 
        1701(b).

(b) Time for Completion of Study; Report--Directs the Administrator to 
complete the study under subsection (a), and submit a report on the 
results of the study to Congress, not later than 18 months after the 
date of the enactment of this Act.

(c) Authorization of Appropriations--Authorized to be appropriated to 
the United States Fire Administration $300,000 for fiscal year 2005 to 
carry out the study required by subsection (a).
    Mr. Smith of Michigan. [Presiding] The Committee on Science 
will come to order. The Chairman is in an emergency session of 
the Intelligence Committee, and so for the time being, I will 
proceed. He expects to be here before the hearing is over.
    Let me just say I would like to thank Chairman Boehlert and 
Mr. Gordon for having this hearing. We are talking about a 
program that has worked very well today, and specifically H.R. 
4107, the Assistance to Firefighters Grant Reauthorization Act 
for 2004. I would like to thank certainly all of the Members 
from both sides of the aisle, as we have tried to have 
legislation that is going to allow this program that we started 
in the year 2000 to continue in the successful way that it has 
continued, and David Paulison is here and Mr. Paulison and your 
staff--we would like to compliment you for allowing us to have 
this bill hearing today because if the program hadn't run 
effectively, if a peer-review hadn't worked efficiently and if 
we weren't able to get this out to what is nearly now 17,000 
fire departments across the country, there wouldn't be the kind 
of support that we are seeing today for the continuation of 
this legislation.
    H.R. 4107 is the product of a collaborative effort between 
fire service organizations and Members of Congress who are all 
highly supportive of firefighters, but sometimes differ in 
their opinions of maybe the best way to proceed to make this 
legislation better and to make sure that it continues from here 
on. This legislation increases the amount to $900 million a 
year. It tries to encourage more participation from some of the 
larger departments by lowering the threshold that those 
departments can contribute and participate in this program, but 
still at the same time gives a reserve opportunity for 
volunteer fire departments across the country to make sure that 
they can participate.
    I would like--without objection, Chairman Boehlert's 
statement will be entered into the record, and if he prefers to 
give it at a later time, he can do that also. But without 
objection, Chairman Boehlert's statement is entered into the 
record, and with that, I will turn the speaker over to Mr. 
Gordon.
    [The prepared statement of Mr. Smith follows:]

            Prepared Statement of Representative Nick Smith

    I'd like to thank Chairman Boehlert for holding this hearing today 
to discuss H.R. 4107, the Assistance to Firefighters Grant 
Reauthorization Act of 2004. I'd also like to thank all of the Members 
from both sides of the aisle who worked so hard to draft H.R. 4107. Mr. 
Chairman, when you and I, along with Curt Weldon, Steny Hoyer, and Bill 
Pascrell drafted the legislation that created the fire grant program 
back in 2000, there was a lot of skepticism about the need for it and 
whether or not it would be effective. In fact, the program has exceeded 
just about all expectations, having already distributed $1.1 billion in 
funding to 17,000 fire departments around the country with another $750 
million slated to go out this year.
    One person who deserves a lot of credit for this is here to 
testify, David Paulison, Administrator of the United States Fire 
Administration. Because of the efforts of Administrator Paulison and 
his staff, grants have been awarded on a competitive basis and 
equipment and training have gotten to the fire departments that need it 
the most. When I talk to firefighters who have been involved with the 
fire grant program, they have nothing but good things to say about USFA 
and the way that the program has been run.
    This year, for the first time, the Office of Domestic Preparedness 
is administering the program. I look forward to hearing from Andrew 
Mitchell later on about how that process is coming because I am 
concerned that in the long run, the focus of the fire grant program 
will shift if it is administered by ODP instead of USFA. H.R. 4107 
transfers the fire grant program back where I think that it belongs, at 
USFA.
    H.R. 4107 is the product of a collaborative effort between fire 
service organizations and Members of Congress who are all highly 
supportive of firefighters, but sometimes differ in their opinions on 
how that support should be expressed. I don't think that anyone got 
everything that they wanted out of this bill but it is good solid 
legislation that will improve first responder capabilities across the 
country, in all types of communities.
    Career departments, which generally protect large communities and 
40 percent of the Nation's population, should receive more than the 17 
percent of the fire grant funding that they received in fiscal year 
2003 under the fire grant program. In H.R. 4107, we address this 
problem by lowering the matching requirement for large departments and 
increasing the maximum grant size.
    Volunteer fire departments are vital in protecting small 
communities, especially in rural areas like my hometown of Addison, 
Michigan. Volunteer firefighters are incredibly selfless, putting their 
lives at risk for no reward greater than the knowledge that they are 
making their community a safer place to live. Many career firefighters 
actually get their start as volunteers, only joining a paid department 
after they have attained a basic level of training and experience. It 
is unconscionable that any volunteer would be told that he or she must 
choose between a job and protecting their friends and neighbors.
    A provision in H.R. 4107 that I'm sure we will be talking about a 
lot today would make fire departments that prohibit employees from 
volunteering ineligible to receive a fire grant. I understand that this 
provision is opposed by the International Association of Fire Fighters 
for a variety of reasons that they will elaborate on in a few minutes. 
This isn't surprising seeing as their own constitution prohibits 
members from volunteering. They figure that if you get rid of all the 
volunteers, municipalities will be forced to hire new union members. 
Maybe this makes sense to union lobbyists in Washington, but it doesn't 
seem fair to the thousands of career firefighters that choose to 
volunteer out of a sense of civic duty. Eliminating volunteer 
firefighters would compromise safety in thousands of communities across 
the country like my own that simply do not have the resources to 
maintain anything but a volunteer or combination fire department.
    I'd like to thank all of the groups, administration 
representatives, and my colleagues from the Congressional Fire Services 
Caucus for appearing here to testify on the bill, H.R. 4107. I look 
forward to a productive discussion.

    Mr. Gordon. Thank you, Mr. Chairman. I am pleased to join 
you in welcoming our witnesses to the hearing on legislation to 
improve the capabilities of the Nation's fire services. The 
focus of H.R. 4107 is on providing the resources necessary to 
increase the effectiveness of fire services in performing their 
critical public safety role, while also improving firefighter 
safety. Too often in the past, fire services were taken for 
granted and given too low a priority in public resource 
allocation, despite serious needs. For example, a 
Congressionally mandated survey of the United States Fire 
Services, released at the end of 2002, found that 233,000 
firefighters, 21 percent of the U.S. total, lacked formal 
training in structural firefighting, that more than 10,000 fire 
pumper trucks in service are more than 30 years old, and that 
57,000 firefighters have no personal protective clothing.
    Today, we will consider a federal program that helps to 
redress this problem. The FIRE Grants Program was established 
by Congress to make a substantial increase in direct assistance 
to fire departments to help provide the tools they need to do 
their job. Thus far, nearly $2 billion has been appropriated 
over four years to support training programs for fire service 
personnel and to provide resources for the purchase of up-to-
date firefighting and emergency response equipment. The 
legislation we will consider today will reauthorize the Grants 
Program through fiscal year 2007 at the currently authorized 
funding level of $900 million a year.
    The bill also makes some changes to the way the program is 
currently implemented, including increases in maximum award 
size, a reduction in the cost share for large fire departments, 
and support for research grants on ways to improve firefighting 
safety. Unfortunately though, this bill also includes a fatal 
provision that imposes a new restriction on the award of FIRE 
Grants, which raises serious concerns. This provision denies 
grants to departments whose contracts prohibit their 
firefighters from volunteering during off-duty hours. Although 
well-intended, the provision has the effect of mandating a 
collective bargaining restriction on local fire services. And 
although this doesn't apply to many services, I think it is a 
very bad precedent. I think all of us probably in this room--I 
know Mr. Davis certainly knows what pancake breakfasts are at 
the local volunteer fire departments. I went to two of them 
just last weekend. So we certainly are supporting our local 
volunteer fire departments, but this is the wrong way to go 
about it.
    I believe a grant program to assist fire departments in 
obtaining equipment and training is not the right place to 
dictate terms of employment contract. Interestingly, just in 
the last couple of weeks, the Chairman who is not--couldn't be 
here today said that we could not take up a particular 
provision of the bill because it might mean that we would have 
joint jurisdiction. I think this provision would allow again a 
joint referral, which could slow down this process. For that 
reason, I am going to have an amendment at the Full Committee 
that will take this provision out because I think that it is a 
needless controversy, not only with the joint referral, but 
also I think that it is simply a very bad precedent.
    So I would like to obtain the views of our witnesses on 
these proposed changes to the FIRE Grants Program, as well as 
on any other recommendations they have for improving the 
program. I am interested in hearing what the impact of this 
program has been from some of those it is intended to benefit 
and determining whether it is being effectively implemented and 
administered.
    Again, I want to welcome our witnesses today and I look 
forward to this discussion.
    [The prepared statement of Mr. Gordon follows:]

            Prepared Statement of Representative Bart Gordon

    Mr. Chairman, I am pleased to join you in welcoming our witnesses 
to this hearing on legislation to improve the capabilities of the 
Nation's fire services.
    The focus of H.R. 4107 is on providing the resources necessary to 
increase the effectiveness of the fire services in performing their 
critical public safety role, while also improving firefighter safety.
    Too often in the past, fire services were taken for granted, and 
given too low a priority in public resource allocations, despite 
serious needs.
    For example, a congressionally mandated survey of the U.S. fire 
services released at the end of 2002 found that 233,000 firefighters--
21 percent of the U.S. total--lack formal training in structural 
firefighting, that more than 10,000 fire pumper trucks in service are 
more than 30 years old, and that 57,000 firefighters have no personal 
protective clothing.
    Today we will consider a federal program that helps to redress this 
problem. The Fire Grants program was established by Congress to make a 
substantial increase in direct assistance to fire departments to help 
provide the tools they need to do their job.
    Thus far, nearly $2 billion has been appropriated over four years 
to support training programs for fire service personnel and to provide 
resources for the purchase of up-to-date firefighting and emergency 
response equipment.
    The legislation we are considering today will reauthorize the 
grants program through fiscal year 2007 at the currently authorized 
funding level of $900 million per year.
    The bill also makes some changes to the way the program is 
currently implemented, including increases in maximum award size, a 
reduction in the cost share for large fire departments, and support for 
research grants on ways to improve firefighter safety.
    Unfortunately, the bill also includes a fatal provision that 
imposes a new restriction on the award of Fire Grants, which raises 
serious concerns.
    This provision denies grants to departments whose contracts 
prohibit their firefighters from volunteering during off duty hours. 
Although well intentioned, the provision has the effect of mandating a 
collective bargaining restriction on local fire services.
    I believe a grant program to assist fire departments in obtaining 
equipment and training is not the right place to dictate the terms of 
an employment contract.
    I would like to obtain the views of our witnesses on these proposed 
changes to the Fire Grants program, as well as on any other 
recommendations they may have for improving the program.
    I am interested in hearing what the impact of this program has been 
from some of those it is intended to benefit and in determining whether 
it is being effectively implemented and administered.
    Again, I want to welcome our witnesses today, and I look forward to 
our discussion.

    Mr. Smith of Michigan. I am going to allow other Members to 
say a brief comment. This is important legislation, and I would 
ask the Members to try to hold their verbal comments at this 
time down to about 1 minute and then put in the rest of their 
statement for the record, and with that, I would call on Mr. 
Gutknecht.
    Mr. Gutknecht. Thank you, Mr. Chairman, and I only want to 
say that I apologize to some of the witnesses here today. That 
we have so many other things going on and a lot of other 
Members have Committee hearings going on at the same time, and 
it is not that this is not important. It is very important and 
we are very honored to have so many of you here today, and--as 
witnessed by the fact that even the Chairman can't be here. 
Don't take that as any kind of a besmirch to the firefighters, 
because we do appreciate what you do every day and your members 
do every day, and we try to do the best on this committee and 
in the Congress to recognize that.
    So again, thank you so much for coming, and we apologize 
that many of us have other events and other meetings that are 
going on at the same time.
    Mr. Smith of Michigan. Ms. Woolsey.
    Ms. Woolsey. I will be very quick because I know our 
witness is in a hurry. I would like to say that what I am 
hoping we will talk about today that I want to hear about is 
using the FIRE Act to address local fire department policies 
and the separation between federal decisions and local 
decisions. So I am very interested in hearing that from both my 
colleagues and from the witnesses.
    So thank you very much, and I would like to comment on Mr. 
Gutknecht's comment. Actually, this is a pretty good showing 
for a hearing, so it does already show that we care a lot about 
you.
    Mr. Smith of Michigan. Would anyone else like to make a 
comment? Mr. Davis.
    Mr. Davis. Thank you, Mr. Chairman. When I am in the rural 
areas, I see volunteer fire departments who make a tremendous 
difference in our local communities, and I applaud the efforts 
and certainly those in Congress for making available funding 
for our fire departments, whether they are full-time or whether 
they are volunteer fire departments.
    What I might say, and Mr. Gutknecht certainly was 
apologetic, but really what happens is that if you are not 
doing your job right and you are--we all want to find out how 
we can improve it. So in essence, I think it is a compliment to 
you that you don't have a great deal of the Members of Congress 
here that would ask you questions. We, in essence, trust you, 
we believe in you, and we know that you are doing a fine job, 
and I applaud the service that you provide. We have local law 
enforcement, emergency personnel, educators that are committed, 
but I don't think there is a group more committed than--in the 
district I represent than our volunteer fire departments and 
those who work in the full-time fire departments.
    Thank you for being here, and I apologize for the brevity 
of many of our comments.
    Mr. Smith of Michigan. And again, the full opening comments 
of all Members will be entered and be part of the record. Mr. 
Rohrabacher, did you want did you want to make a----
    Mr. Rohrabacher. I will make mine very quick. Thank you, 
Mr. Chairman. Firefighting is vital. We in California 
understand that. We go through these conflagrations where 
people die and large--and hundreds of millions, even billions 
of dollars of property are lost. I am--I will be looking at 
this legislation very closely. I am personally interested in 
making sure that if we are providing support and supplementing 
the ability of local firemen to confront certain challenges 
that we also permit people from--and I will give you this 
example, the Soviet Union collapsed and became Democratic 
Russia, but Democratic Russia invested in developing 
firefighting equipment. They actually have people that can fly 
in airplanes over and help us fight fires, but they have been 
frozen out of our market.
    It seems to me that we should be able to help our local 
firefighters contract out for huge forest fires and things, if 
they would like to do so, and I am looking at this legislation 
as a possible vehicle for that goal.
    Thank you.
    [The prepared statement of Chairman Boehlert follows:]

          Prepared Statement of Chairman Sherwood L. Boehlert

    Let me welcome everyone here this morning to this hearing on H.R. 
4107, the Assistance to Firefighters Grant Reauthorization Act of 2004. 
I introduced this legislation with my esteemed colleagues Curt Weldon, 
Bill Pascrell, Steny Hoyer, Nick Smith, and Rob Andrews--to continue, 
indeed to strengthen, what is one of the most popular, respected, and 
well-run grant programs in the Federal Government.
    You know, in large part because of the actions of this committee, 
the U.S. Fire Administration began investing in improving fire 
prevention and control in 1974. At that time, over 12,000 Americans 
were dying each year because of fire. Now as USFA nears its 30th 
birthday, we have cut those losses to under 4,000 people. We have an 
active Congressional Fire Services Caucus that is the largest caucus on 
Capitol Hill. We're throwing our weight around on fire policy issues 
and strengthening the Federal Government's role and contributions. But 
we all know that we need to do better than that. The United States 
still has one of the highest fire loss rates in the industrialized 
world.
    And the centerpiece of federal efforts to reduce those losses is 
indeed the Assistance to Firefighters Grant Program that we will 
discuss today. I should also mention that another very important 
program that will provide an ideal complement to the fire grant program 
is the SAFER Act, which will provide grants for hiring firefighters and 
was signed into law late last year. We are still working on getting 
funding for SAFER but are optimistic we will succeed.
    You know, whether it is the Utica, or Cortland, or Auburn Fire 
Departments in my district in upstate New York, or the fire departments 
in Nebraska, Alaska, Hawaii, or any state, the U.S. Fire 
Administration's fire grant program has provided critical funding for a 
critical issue. In all now, over $1.1 billion for over 16,000 fire 
departments, and another $750 million that is being competed for right 
now. And, I should add, it has done so through a competitive, peer-
reviewed grant process that has resulted in an efficiency and fairness 
all too uncommon in most federal programs.
    But as I indicated, we're a long way from where we need to be. A 
comprehensive review of fire department capabilities conducted by NFPA 
in conjunction with the program found significant gaps. An estimated 
one-third of firefighters per shift are not equipped with self-
contained breathing apparatus; nearly half of firefighters on a shift 
lack ``IPASS'' personal alert devices; only one-fourth of fire 
departments have thermal imaging cameras. I could go on and on and on, 
but those statistics illustrate the significant needs that have yet to 
be addressed.
    Let me now briefly describe the bill before us, which will allow us 
to continue to address these most pressing needs. The legislation 
reauthorizes the fire grant program for three more years, at its 
current authorized level of $900 million per year. It mandates the 
peer-review process that has been such a critical component of the 
program's success. It calls on USFA to administer the program the right 
agency with the track record of success in working with the fire 
services. It increases the maximum allowable grant size and decreases 
the matching requirement for larger departments--two issues that were 
very important to the fire services, which we worked very closely 
with--in our usual bipartisan fashion, to craft this bill.
    With that, I will stop, as we have eight witnesses before the 
Committee and a limited amount of time for discussion.

    [The prepared statement of Mr. Weldon follows:]

            Prepared Statement of Representative Curt Weldon

    I would like to thank Chairman Boehlert for his leadership in the 
House Science Committee to make firefighter issues a top priority and 
for allowing me to submit my testimony for the record today. Please 
accept my apologies for my not being present at the hearing today.
    I am extremely proud of the Assistance to Firefighters Grant 
Program and especially the manner in which it was created by a handful 
of very dedicated and bipartisan group of lawmakers from the 
Congressional Fire Services Caucus. The reauthorization of this 
program, H.R. 4107, introduced by Representatives Sherwood Boehlert, 
Bill Pascrell, Nick Smith, Steny Hoyer, Robert Andrews, Chris Cox, Jim 
Turner and myself, represents a broad spectrum of the House of 
Representatives and how great things can be accomplished in Congress 
when we work together.
    As a former fire chief with first-hand knowledge of the needs of 
the fire service, I am proud of H.R. 4107 because it succeeds in 
addressing the many important issues and shortfalls that have affected 
the Nation's career, volunteer, combination, urban, rural and suburban 
fire departments. It also addresses the needs of the many essential 
entities that engage in fire prevention, fire safety and EMS services. 
I urge all of the Members of this committee to co-sponsor this 
legislation.
    It is necessary to ensure that Fire Act grants are attainable and 
worthwhile for all departments, whether they are integrated within a 
large metropolitan department or a single suburban or rural department. 
However, it is sometimes not feasible for cities with budgetary 
problems to come up with the same 30 percent match for their large and 
sophisticated grant requests and also provide for as many as 30 
different fire houses within highly populated cities. In comparison, a 
greater number of smaller departments per capita can raise their match 
for small grant requests with chicken dinners and boot brigades. 
Therefore, the 30 percent match for departments serving populations 
larger that 50,000 persons should be lowered to 20 percent, and the 
limitations on grant awards should be raised on a graduated scale to 
permit the few very large departments to be able to provide for 
numerous fire houses.
    A paramount concern of the Fire Caucus and this committee is the 
future of this grant program within the Department of Homeland 
Security. When Congress passed the Fire Act prior to September 11, 
2001, it did so without any intention for it to be used for terrorism 
preparedness. Instead, Congress aimed to correct the lack of basic 
needs and unsafe circumstances that were left unaddressed for too long. 
To prevent this program from being consolidated among the numerous 
anti-terrorism programs within the Office of Domestic Preparedness and 
to embrace the tremendous success and experience within the U.S. Fire 
Administration, I believe it is appropriate to return this program to 
the direction of Chief R. David Paulison.
    Fire prevention and fire safety grants are a small but vital asset 
to the fire services community. They are the source of safety 
education, smoke detector dispersal, technology research and 
development, burn prevention and many other programs that drastically 
reduce fires, injuries and the loss of lives. Since these programs are 
usually provided by non-profit organizations that are not affiliated 
with State and local budgets, Congress did not impose a match 
requirement. The reauthorization bill properly removes the unexpected 
match put into place by the Department of Homeland Security for these 
grants and expands the research and development activities under the 
program.
    An additional concern of mine are the few, yet very significant 
acts of discrimination imposed on career firefighters who wish to 
volunteer in their hometowns by their local union or the city employer. 
The sponsoring Members of the Congressional Fire Services Caucus have 
taken a courageous step by making it clear that the Federal Government 
does not wish to sponsor those departments who selfishly jeopardize the 
emergency preparedness of our country by attacking our volunteering 
force. Despite the sensitivity of this issue, I implore the Members of 
this committee to consider the wishes of the firefighters, who are the 
innocent origin of this too frequent debate.
    As evidenced from the International Association of Fire Fighters 
(IAFF) Charter, career firefighters were originally discouraged from 
volunteering in other departments because they are considered `rival' 
organizations that threatened the membership and negotiating power of 
unionized departments. Through time, new justifications were given such 
as health, safety and theories of local control. I commend Harold 
Schaitberger, President of the IAFF, for acknowledging the importance 
of the volunteer force and the lack of enforcement of this provision in 
their charter by the national organization. However, due to the rise in 
combination departments where volunteer departments hire full-time 
firefighters to satisfy staffing and safety standards, local unions are 
beginning to make discriminating controls on firefighters a principle 
request in collective bargaining negotiations. When all is said and 
done, the total firefighting force in America is weakened.
    It should be noted that some situations illustrate that this may be 
practiced for competitive, rather than legitimate concerns. For 
example, a recent ruling by the New York City firefighters union 
prevents its members from volunteering in combination departments who 
posses one or more full-time, paid firefighters. The practice of 
discriminating against combination departments as opposed to volunteer-
only departments illustrates that membership and union influence was 
the principle factor in that decision. Due to the increasing demands of 
homeland security today, the number of combination departments will 
rise. As the number of completely volunteer departments fall, 
firefighter discrimination and the number of affected communities will 
also rise.
    This is not an exaggeration. Suburban and rural volunteer fire 
departments are now threatened in Maryland, Virginia, New York, 
Connecticut, Wisconsin, Washington, California and Florida. Since 
career firefighters often travel great distances to reach their 
workplaces, I guess that three times as many states are impacted from 
this practice. As a result, an increased number of suburban and rural 
departments are stressed, which are the essential supporting cast of 
first responders during large or regional emergencies.
    During September 11, 2001, responding departments arrived on Ground 
Zero and the Pentagon from Long Island, upstate New York, Pennsylvania, 
Connecticut, Delaware, Virginia, Maryland and West Virginia. A report 
published by the National Volunteer Fire Council on August 1, 2002, 
estimated that approximately 285 departments, including 2,613 
volunteers provided over 43,700 hours of service at the World Trade 
Center. Over 100 departments participated in the Pentagon response with 
about 1,930 volunteers providing about 30,000 hours of service. 
Meanwhile, only volunteers from 10 departments provided over 1,500 
hours of service in Somerset, Pennsylvania. (A map of the responding 
fire departments on September 11, 2001 follows.) The anti-
discrimination clause in H.R. 4107 protects this admirable and 
essential volunteer career firefighter resource that is obviously 
depended upon by urban departments during large incidents.
    As a volunteer firefighter and traditional and steadfast supporter 
of all career firefighters, for whom this provision was created, I 
encourage the long-deserved debate on this issue. I only ask that 
Members examine both sides of this argument and reach out to the fire 
companies in their districts before they come to a conclusion.
    The reauthorization bill takes a comprehensive approach to 
addressing the concerns of all of our fire service organizations, 
including the union. I believe that my fellow Members of the 
Congressional Fire Services Caucus have performed admirably with the 
introduction of this bill and I seek the Committee's support for its 
passage.
    Thank you again for allowing me this opportunity to speak on behalf 
of the Assistance to Firefighters Grant Program.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    [The prepared statement of Mr. Costello follows:]

         Prepared Statement of Representative Jerry F. Costello

    Good morning. I want to thank the witnesses for appearing before 
our committee to discuss legislation to reauthorize appropriations for 
the Assistance to Firefighters Grant program which provides fire 
departments with the tools and training necessary to protect the health 
and safety of firefighters and the public they serve.
    As a member of the Congressional Fire Services Caucus, I have a 
deep interest in this matter. The U.S. has one of the highest fire 
death rates in the industrialized world. Each year, fire kills more 
Americans than all natural disasters combined. Over 4,000 people die 
each year from fire in America, including an average of about 100 
firefighters in duty-related incidents. A significant amount of 
evidence suggests that if we were to increase the number of firefighter 
personnel, many of these preventable injuries could be avoided.
    In 2000, Congress established the AFGP to award grants to local 
fire departments to protect the health and safety of the public. Since 
2001, the AFGP has distributed $1.1 billion to nearly 17,000 fire 
departments around the country. At present, more than 20,000 
departments have applied for the $750 million available for the AFGP in 
FY 2004. The current authorization expires this year.
    Chairman Boehlert recently introduced legislation reauthorizing 
this important program. While the FIRE Act has long enjoyed bipartisan 
support, I was disappointed language was included in the 
reauthorization which would affect local collective bargaining 
agreements for career firefighters. Experience has proven that when 
public safety officers can discuss workplace conditions, partnerships 
and cooperation develop, leading to improved labor-management relations 
and better, more cost effective, service. This results in improved 
delivery of public safety services. Legislation which severely alters 
these local collective bargaining agreements restricts employees 
fundamental right to bargain with their employer. It is my hope that we 
can resolve this issue so we can move the legislation forward and not 
turn the FIRE Act into partisan politics.
    I welcome our panel of witnesses and look forward to their 
testimony.

    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Representative Eddie Bernice Johnson

    Thank you, Chairman Boehlert and Ranking Member Gordon, for calling 
this hearing today on such an important issue. I would also like to 
thank our distinguished witnesses, especially our colleagues 
Representative Bill Pascrell and Minority Whip Steny Hoyer, for 
agreeing to testify.
    Our hearing focuses on reauthorization of the Assistance to 
Firefighters Grant (AFG) program. The Assistance to Firefighters Grant 
program provides one-year grants directly to local fire departments to 
protect the health and safety of the public and firefighting personnel 
against fire and fire-related hazards, giving priority to programs that 
have an emphasis on children and fire prevention efforts.
    Although there are many aspects of this bill that are essential to 
assisting our nation's fire departments as they protect our citizens 
from the dangers of fire, there are also some troubling issues that we 
need to address here today.
    I am especially concerned about provisions in this bill that block 
a local fire department's ability to regulate outside volunteer 
service. I do not believe we should be using the FIRE Act to address 
these issues. The FIRE Act should be used solely for providing federal 
assistance to local Fire Departments, not for overturning provisions of 
local collective bargaining agreements.
    I believe we are treading on dangerous grounds once we begin to use 
the FIRE Act to compel Fire Departments to adopt certain policies. 
There are much more important matters we should be addressing. For 
example, we should require Fire Departments to abide by OSHA standards 
that protect the safety of our firefighters, or require that fire 
departments meet basic levels of preparedness. While I am concerned 
that such restrictions could ultimately weaken the program, if we 
decide to retain the current restriction regarding volunteer 
firefighters, there are other issues I hope we will address.
    And for these reasons, I strongly support removal of this provision 
from the legislation.
    The FIRE Act has long enjoyed bipartisan support, and I am 
disappointed that such divisive language has been inserted into this 
bill. I hope we can resolve this issue so we can move the legislation 
forward, and not turn the FIRE Act into another partisan football.
    Again, I would like to thank all of our witnesses for appearing 
here today, and I look forward to your testimony.

    Mr. Smith of Michigan. Well, we would now turn for his 
testimony to Mr. Pascrell from New Jersey, an extremely 
diligent and dedicated member, to move ahead on fire issues. So 
Mr. Pascrell, please proceed.

                                Panel 1:

   STATEMENT OF HON. BILL PASCRELL, JR., A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pascrell. Thank you, Chairman Smith and Ranking Member 
Bart Gordon, distinguished Members of this great Committee. I 
appreciate the opportunity to speak with you today on H.R. 
4107, legislation crafted to reauthorize the Assistance to 
Firefighters Grant Program, again continuing to try to respond 
to the other half of the public safety equation, which for so 
long has been neglected.
    This topic has been particularly close to my heart as long 
as I have been here. In 1999, I introduced the Firefighter 
Investment Response Act, which provided federal grants directly 
to local fire departments to help address a variety of 
equipment, training and other firefighter-related needs that 
have been well-documented, and have been well-documented since 
then. Since then, the program has distributed over $1.1 billion 
in funding to over 16,000 fire departments across the country. 
Indeed, career and volunteer fire departments throughout 
America have received funds for such items as improved 
breathing apparatuses, personal protective gear, fire engines, 
advanced training, fitness programs, which I can tell you 
anecdotally has helped save the lives of a few people in my own 
district, communications systems and Hazmat detection devices, 
just to name a few.
    It has been remarkable the success that we have brought to 
this program, all of us on both sides of the aisle, and it is 
fair to say that hometowns across our nation have greatly 
benefited. I would be remiss if I did not tout the exemplary 
leadership of several Members, many of whom sit on this 
committee. Chairman Boehlert, Curt Weldon, Nick Smith have 
shown their commitment to firefighters time and time again, 
long before I got here. Your passion and knowledge for issues 
important to the fire service is very extraordinary, and 
without your dedication and diligence, the FIRE Grant Program 
may never have become reality.
    I would like also to express my strong admiration for Steny 
Hoyer and Rob Andrews, two Members on our side of the aisle who 
have been steadfast allies. It has been an honor to work with 
all of you. And I think much of the success of the FIRE Grant 
Program derives from that very bipartisanship which we have 
held since 1999, believe it or not, which is pretty remarkable 
in this place. Trying to help thousands of local fire 
departments achieve their vital missions you have made a 
priority on your agenda. It hasn't been easy; not when we first 
introduced this in '99 and not now in introducing H.R. 4107 to 
reauthorize the program. All of us understand we must come 
together to provide our firefighters with the tools and 
resources necessary so they can perform their jobs.
    While the program has been a resounding success, there is 
always room for improvement, and I believe H.R. 4107 will help 
better serve both career and volunteer fire departments across 
the country, and we have been focused on trying to make this 
not only a career program or a volunteer program, we have 
brought--done everything in our power in this legislation to 
bring the services together so that we are not trying to do 
one-upmanship, and I think if you looked at the history of the 
grants, particularly in the first two years, there has been a 
tenacious attempt to be fair, to be open, and isn't it ironic 
we haven't had any complaints? That is very different from what 
I am used to down here in Washington, D.C.
    When the program was first developed, we placed a cap on 
the size of the awards at $750,000, regardless of whether it 
was a large town or small town. At the time, we thought that 
this would increase the number of grants to be awarded, but we 
have quickly learned that having the same cap applied to all 
jurisdictions brings forth unfavorable consequences. The fact 
is that larger fire departments often need more funds. Fire 
departments in some of America's largest cities protect 
millions of people. We can all agree that New York City, for 
example, should not have the same cap placed on it as a small 
volunteer department.
    To help remedy this, H.R. 4107 increases the dollar amount 
available to the largest departments from the current cap of 
$750,000 to $3 million for jurisdictions serving more than one 
million people. Departments serving between 500,000 and one 
million would be eligible for $2 million, and all other 
departments would be qualified for $1 million. These changes 
will give more of our large and high-threat urban fire 
departments greater access to these funds for their basic 
needs. Another change in H.R. 4107 is the reduction of the 
matching requirements for career fire departments. Currently, 
large jurisdictions must match 30 percent of the federal funds. 
We have discovered that in certain instances, this has been 
problematic, to the point where some fire departments do not 
even apply for FIRE Grant funding.
    We have also seen some communities turn down FIRE Grant 
awards because they cannot come up with their own matching 
money. To alleviate this problem, we have reduced the matching 
requirement by 1/3, down to 20 percent. We feel this is a fair 
and just response that will alleviate much of the problem. 
Another issue I am glad that H.R. 4107 addresses is the actual 
location of the program itself, and I would ask you please to 
pay particular attention to what I am about to say. It is not 
to minimize or denigrate any other agency whatsoever. But we 
are all aware that the management of the FIRE Grant Program was 
transferred this year from the United States Fire 
Administration to the Office of Domestic Preparedness. Our 
legislation puts it back into USFA. I believe it belongs there.
    While I have enormous respect for ODP and the work that 
they are doing, particularly in Homeland Security--the men and 
women who work within it I have great respect for. But the 
simple fact is the USFA has done an extraordinary job of first 
getting this program off the ground in 2000 and responding to 
the communities in a fair and adequate way of evaluation and 
reevaluation. It has been praised by all realms for its 
remarkably efficient manner in administering the program. When 
money goes directly to communities where there is no skimming, 
where there is no bureaucratic nightmare, we have found that 
many times, this is the success of the program. It is at the 
core of the program.
    The FIRE Grant Program is about addressing basic critical 
needs. Long before 9/11, the folks sitting up there addressed 
these needs, and all of us addressed those needs. We all know 
the statistics. We know that 45 percent of the firefighters 
lack standard portable radios still to this day. Forty--57,000 
firefighters lack critical personal protective clothing. We 
know that 10,000 fire engines are at least 30 years old or 
more, and the statistics go on and on. These are basic needs. 
These are needs that firefighters have to deal with day in and 
day out, be they on a small farm community or in a large 
community in this country, and I ask you, Mr. Chairman--I thank 
you for giving me this time. This is an exceptional Committee. 
You have done exceptional things. Please do this exceptional 
thing and continue what is a very successful program.
    Any questions, I will try to answer them.
    [The prepared statement of Mr. Pascrell follows:]

         Prepared Statement of The Honorable Bill Pascrell, Jr.

    Mr. Chairman, Ranking Member Gordon, and distinguished Members of 
the Committee, I appreciate the opportunity to speak with you today 
about H.R. 4107, legislation crafted to reauthorize the Assistance to 
Firefighters Grant Program.
    As you know, this topic is particularly close to my heart, and has 
been for as long as I can remember. In 1999, I introduced the 
Firefighter Investment and Response Act, to provide federal grants 
directly to local fire departments to help address a variety of 
equipment, training and other firefighter-related needs. It has been my 
greatest honor to see this bill signed into law.
    Since then, the program has distributed over $1.1 billion in 
funding to almost 16,000 fire departments across the country. Indeed, 
career and volunteer fire departments throughout America have received 
funds for such items as improved breathing apparatuses, personal 
protective gear, fire engines, advanced training and fitness programs, 
communication systems and hazmat detection devices--just to name but a 
few.
    It has been a remarkable success to say the least. It is fair to 
say that hometowns across our nation have greatly benefited from the 
Fire Grant Program.
    Of course, I would be remiss if I did not tout the exemplary 
leadership of several Members--many of whom sit on this very committee. 
Chairman Boehlert, Curt Weldon and Nick Smith have shown their 
commitment to firefighter's time and time again. Your passion and 
knowledge for issues important to the fire service is simply 
extraordinary, and without your dedication and diligence, the Fire 
Grant Program may never have become a reality.
    In addition, I would also like to express my strong admiration for 
Steny Hoyer and Rob Andrews, two Members on my side of the aisle who 
have been steadfast allies to fire and emergency personnel throughout 
their service in Congress. It has been an honor to work with all of 
you.
    And I think much of the success of the Fire Grant Program derives 
from that very bipartisanship. We know that this isn't a Republican or 
Democratic issue. Helping thousands of local fire departments achieve 
their vital missions is an obligation that cannot be marred by 
politics.
    And it hasn't been. Not when we first introduced this in 1999 and 
not now, with the introduction of H.R. 4107, to reauthorize the 
program.
    All of us understand that we must come together to provide our 
firefighters with the tools and resources necessary so they can perform 
their vital jobs as safely and effectively as possible, and I truly 
believe that this bill is another large leap in the right direction.
    While the Program has been a resounding success, there's always 
room for improvement, and I believe that H.R. 4107 will help better 
serve both career and volunteer fire departments across the country.
    For example, when the program was first developed, we placed a cap 
on the size of awards at $750,000. At the time we thought that this 
would increase the number of grants to be awarded, but we have quickly 
learned that having the same cap apply to all jurisdictions brings 
forth unfavorable consequences.
    The fact is that larger fire departments often need more funds. 
Fire departments' in some of America's largest cities protect millions 
of people. We can all agree that New York City, for example, should not 
have the same cap placed on it as a small volunteer department 
elsewhere in the country.
    To help remedy this, H.R. 4107 increases the dollar amount 
available to the largest departments by 400 percent--from the current 
cap of $750,000 to $3 million for jurisdictions serving more than one 
million people.
    Departments serving between 500,000 and one million people would be 
eligible for $2 million and all other departments would qualify for $1 
million. These changes will give more of our large and high-threat 
urban fire departments greater access to these funds for their basic 
needs.
    Mr. Chairman, another change in H.R. 4107 is the reduction of the 
matching requirement for career fire departments. Currently, large 
jurisdictions must match 30 percent of federal funds. We have 
discovered that in certain instances this has been problematic--to the 
point where some fire departments do not even apply for Fire Grant 
funding. We have also seen some communities turn down Fire Grant awards 
because they cannot come up with the matching requirement.
    To help alleviate this problem we have reduced the matching 
requirement by one-third-down to 20 percent. We feel this is a fair and 
just response that will help alleviate much of the burden that some 
jurisdictions encounter.
    Another issue that I am glad H.R. 4107 addresses is the actual 
location of the program itself. As we are all aware, management of the 
Fire Grant Program was transferred this year from the United States 
Fire Administration to the Office of Domestic Preparedness. Our 
legislation puts it back into the USFA, where it rightfully belongs.
    While I have enormous respect for the ODP and the men and women 
within it, the simple fact is that the USFA has done an extraordinary 
job of running this program. It has been praised by all realms for its 
remarkably efficient manner in administering the program. There is no 
reason to take it from its original home.
    The ODP has an emphasis on terrorism preparedness--a worthy and 
vital mission to be sure. But the Fire Grant program is about 
addressing the basic, critical needs of firefighters.
    We all know the statistics. We know that 45 percent of firefighters 
lack standard portable radios, and 57,000 firefighters lack critical 
personal protective clothing. We know that 10,000 fire engines are at 
least 30 years old. These are basic needs that have gone unmet. We need 
a program that addresses these basic needs, and we need that program to 
be administered by an agency that is equally focused on such goals.
    The firefighters whose bravery and valor protect our nation deserve 
all that we can give them. I firmly believe that H.R. 4107 furthers our 
promise to those who make the ultimate commitment to us every day.
    Chairman Boehlert, Members of the Committee, I thank you for giving 
me the time to speak to you on this important legislation and I look 
forward to continuing to work with you as we navigate this through the 
legislative maze that is Capitol Hill.

                               Discussion

    Mr. Smith of Michigan. Bill, thank you very much. Let me 
mention that Mr. Hoyer is planning on being here at 11:30. We 
will entertain questions for you now, Mr. Pascrell. I will 
start.
    You are one of the co-sponsors of the bill. Do you support 
the bill, as it is written now?
    Mr. Pascrell. Yes, I do.
    Mr. Smith of Michigan. Mr. Gordon.
    Mr. Gordon. Thank you. Mr. Pascrell, you have been very 
eloquent and I--and a long-time supporter and leader in this 
program. What I will do is just--I would like to yield my time 
to you, if you want to expand on any of your earlier comments.
    Mr. Pascrell. I would simply say that when I go throughout 
the country to see the good that this program has provided fire 
departments--and you know what it has done? It has energized 
departments all over the country because they have always felt 
left out. When we looked in 1999 at how much money was going 
through to police departments, which I aggressively and you 
have aggressively supported, and very little dollars came from 
the Federal Government, this is a sea change and we want to 
make it not only a sea change in money, but one that affects 
the morale of our firefighters, the million of them throughout 
America.
    Mr. Gordon. As Mr. Davis pointed out, in our part of the 
country, we have many, many more volunteer fire departments 
than we do regular fire departments, career fire departments, 
and there is really not a weekend, I don't think, goes by that 
one of those departments isn't having some kind of a ham 
breakfast, a pancake breakfast, just to try to raise the money 
to have the bare necessities. The equipment that you see 
there--you have got to give them credit for keeping it going as 
long as they have, but these certainly will be very beneficial 
for a lot of our volunteer fire departments too. So thank you 
for your work.
    Mr. Pascrell. Thank you.
    Mr. Smith of Michigan. Again, Curt Weldon asked that he be 
excused and that I pass on his desire to enter his statement 
into the record, and without objection, that is certainly so 
ordered.
    And Mr. Gutknecht, do you have questions, and Mr. 
Rohrabacher, do you have questions?
    Mr. Rohrabacher. Tell me about contracting out in this 
bill. Can--because I am interested--in California, what just 
happened was on--half of our fleet for airplanes that drop 
retardants on fires have been grounded by a judge, and the--
would your bill--would this bill, piece of legislation, help in 
contracting out for people who have those services available, 
or are they outlawed or--how does it handle----
    Mr. Pascrell. The----
    Mr. Rohrabacher.--contracting out those kind of services?
    Mr. Pascrell.--contractual responsibilities provided for in 
this legislation--the bottom line is that we will not fund any 
private enterprise.
    Mr. Rohrabacher. Uh-huh.
    Mr. Pascrell. This question came up in terms of EMTs 
[Emergency Medical Technicians]. Anything associated with 
municipalities is one thing. Anything that is contracted out to 
a private entity is certainly--because once we get into that, 
Congressman, we are going to open up a wide Pandora's Box----
    Mr. Rohrabacher. Okay.
    Mr. Pascrell.--and not fund the----
    Mr. Rohrabacher. Is----
    Mr. Pascrell.--the basic needs of our----
    Mr. Rohrabacher. Is there another--I understand that point. 
It is a good point--say let us not muddy this up with----
    Mr. Smith of Michigan. If the gentleman would yield----
    Mr. Rohrabacher. Yes.
    Mr. Smith of Michigan. This technically does allow grants 
to be provided to private fire departments that are under 
contract with the local municipalities. Is that correct? And 
nonprofit.
    Mr. Rohrabacher. Well, would this----
    Mr. Pascrell. And not for profit.
    Mr. Rohrabacher. Okay.
    Mr. Pascrell. Not for profit.
    Mr. Rohrabacher. Right. Yeah. Right. Would this permit a 
local fire department that needed the resources of airplanes to 
drop fuel----
    Mr. Pascrell. Right.
    Mr. Rohrabacher.--in case of a major emergency? Because 
they can't they themselves afford to buy that----
    Mr. Pascrell. Right.
    Mr. Rohrabacher.--technology and have airplanes on--sitting 
there----
    Mr. Pascrell. Right.
    Mr. Rohrabacher.--waiting. Would that--would this be able 
to handle that at all?
    Mr. Pascrell. Well, that is why we raised--one of the 
reasons why we raised the thresholds, so that--there are very 
expensive needs in particular parts of the country. And again, 
this needs to be matched by--you know, we have reduced the 
matching amount of dollars, and I think what it has done is 
tried to enlarge the potential for each fire department to 
address its own unique needs. So my answer to that question 
would be yes.
    Mr. Smith of Michigan. And expanding from that, Mr. 
Pascrell, when the United States Fire Administration here is--
with Mr. Paulison, we can ask Mr. Paulison how they have 
reacted to these kinds of grant requests.
    Mr. Rohrabacher. Yeah. Because we have had--I mean, talk 
about serious fires in California, we had our serious fires 
just last year, and frankly, the Russians invested as we would 
like them to invest. Not in airplanes that drop bombs, but----
    Mr. Pascrell. Right.
    Mr. Rohrabacher.--instead airplanes that put fires out. And 
they were not--they could fly anywhere in the world, and they 
have done so in Australia, for example. But they have been 
frozen out of the United States in helping us put out fires, 
and I think it is because basically, you have got some people 
who have some older equipment that they----
    Mr. Pascrell. Right.
    Mr. Rohrabacher.--want to maintain to their ability to stay 
on-line. But now, those old pieces of equipment, those old 
airplanes have been grounded in California. If we have another 
major fire in California now, we are--and we can't bring in, 
let us say, the Russians or someone else with that type of 
technology.
    Mr. Pascrell. The very----
    Mr. Rohrabacher. We are in a bad spot.
    Mr. Pascrell. The very essence of the FIRE Act was to 
respond to the uniqueness of communities, and that is why we 
did not funnel the money through the states. We directed it to 
individual municipalities because the individual municipalities 
know what they need. We don't need consultants to tell us what 
firefighters need. We should ask the firefighters. We should 
ask the fire departments, and that is what we have done.
    So the needs basically in California in your--in the 
situation where we have seen all of these fires--and that has 
happened in other states. Those needs are quite different. In 
expanding the threshold, we can respond to a problem like that 
if California municipalities can prove individual need.
    Mr. Rohrabacher. Let me be a little bit more specific on 
that. If you have a local municipal fire department and it is 
next to a large mountain chain or a large forest area and it is 
expected to respond in order to protect that community, does 
this permit grants that would then--the grants go directly to 
the local fire entity, and then they have to provide a 20 
percent match that----
    Mr. Pascrell. The community itself, yes.
    Mr. Rohrabacher. The community has to provide the 20 
percent match. But in that 20 percent, what they are spending 
the money for is decided upon by the community.
    Mr. Pascrell. Yes.
    Mr. Rohrabacher. Now can----
    Mr. Pascrell. In other words, in order to provide--send to 
Washington the application, you would hope that the 
municipality would have voted that they will accept this grant 
if it is provided, under the basis that they will come up with 
the matching dollars.
    Mr. Smith of Michigan. The gentleman's time has expired. 
Ms. Woolsey? And who is the next--Mr. Davis?
    Mr. Davis. Thanks for being here.
    Mr. Pascrell. Thank you.
    Mr. Davis. My question.
    Mr. Smith of Michigan. And Mr. Bonner? And Mr. Miller?
    Mr. Miller. I will let this cut pass.
    Mr. Smith of Michigan. And Mr. Honda, Mr. Wu, any questions 
for this witness? And with that, Mr. Pascrell, we will thank 
you--oh, Mr. Baird. I am sorry.
    Mr. Baird. That is okay, Mr. Chairman. Thank you. It is 
good to see you again, Mr. Pascrell. Appreciate your leadership 
on this issue. I have one question, and I confess I haven't had 
extensive time to study this particular material today. 
Individuals in my district have come up with a very innovative 
mechanism for fighting fires that involves--and it sounds 
rather preposterous when you first hear it, but experts have 
told me it is quite innovative--essentially a large balloon-
like device that is triggered and detonated with an explosion 
inside that scatters out the water in a peripheral mist-like 
pattern that firefighting experts, especially wildland fires, 
say could be very effective at very suddenly stifling the fire. 
But they need funds for research.
    Are there funds in this program--since this is the Science 
Committee, are there funds in this program to provide research 
on innovative firefighting technologies, perhaps like this or 
other?
    Mr. Pascrell. There are many categories, as you know, in 
this piece of legislation. But--we started out with I think 13 
or 14. Each of those categories deals with a very different 
kind of need within fire departments. As such, you know, the 
research--I am not so sure that we have ever had any 
applications for that. I--Nick?
    Mr. Smith of Michigan. Well, there is a----
    Mr. Pascrell. Have we? We had----
    Mr. Smith of Michigan. There is a five percent carve-out 
that deals with some of the research.
    Mr. Pascrell. Well----
    Mr. Smith of Michigan. I am not sure----
    Mr. Pascrell. But I don't know if----
    Mr. Smith of Michigan. I don't know either.
    Mr. Pascrell.--that would apply, and we would certainly 
find out for you. And you know, we are always looking for the 
state-of-the-art. I mean, if you knew how many departments in 
this country did not have imaging----
    Mr. Baird. Yeah.
    Mr. Pascrell.--which would have saved a lot of 
firefighters' lives in--before they go into a burning building, 
if they can't see what is in front of them, for crying out 
loud--we have used them--we are using methods in many 
departments that go back to the 19th century, and I think we 
can do better than that. So obviously, there is carved out some 
part of the dollars that can be used for science. How it is--
how it will go through the process, I can't tell you right 
now----
    Mr. Baird. Okay.
    Mr. Pascrell.--off the top of my head.
    Mr. Baird. I would like to work with----
    Mr. Pascrell. But we will get the answer to you.
    Mr. Baird. I thank the gentleman, thank the Chairman very 
much.
    Mr. Smith of Michigan. With that, Mr. Pascrell, thank you 
very much.
    Mr. Pascrell. Thank you, Mr. Chairman. I appreciate that.
    Mr. Smith of Michigan. And if the witnesses would take 
their seat at the table, allow me to start introducing our 
witnesses for the second panel, and again, let me invite any 
other Members that would like to be a co-sponsor of this bill--
currently the primary sponsor of the bill is Mr. Boehlert. 
Current co-sponsors are Mr. Hoyer, myself, Mr. Pascrell, Mr. 
Weldon, Mr. Andrews, Mr. Cox and Mr. Turner.

                                Panel 2:

    Mr. David Paulison is Administrator of the United States 
Fire Administration within the Department of Homeland Security. 
Mr. Andrew Mitchell is Deputy Director of the Office of 
Domestic Preparedness within DHS Border and Transportation 
Security Directorate, and Mr. James Shannon is President and 
CEO of the National Fire Protection Association, and Mr. 
Shannon joined NFPA as the Senior Vice President and General 
Counsel in 1991. And Chief Phillip Stittleburg is Chairman of 
the National Volunteer Fire Council, and he served as the NVFC 
Foundation President for 12 years, and mister--and Chief Ernest 
Mitchell is President of the International Association of Fire 
Chiefs, and Chief Mitchell recently retired as Chief of the 
Pasadena Fire Department. And Mr. Kevin O'Connor is the 
Assistant to the General President of the International 
Association of Fire Fighters, and previously, Mr. O'Connor 
served concurrently as President of the Maryland State and 
District of Columbia Professional Fire Fighters Association. So 
gentlemen, thank you very much, and with that, we will start 
with you, Mr. Paulison.

   STATEMENT OF MR. R. DAVID PAULISON, ADMINISTRATOR, UNITED 
                   STATES FIRE ADMINISTRATION

    Mr. Paulison. Thank you, Mr. Chairman. I appreciate that 
very much. My name is David Paulison and I am the Director of 
Preparedness for FEMA and also the United States Fire 
Administrator in the Department of Homeland Security, and I 
appreciate the opportunity to appear before you on behalf of 
Secretary Ridge. I have submitted a written statement. I ask 
that be accepted for the record and--thank you, sir, and we 
will do that. And I appreciate the comments earlier about 
giving me credit for the FIRE Act, FIRE Grants, making it 
successful, but quite frankly, I have got to thank Brian 
Callan. Brian, stick your hand up in the air. Brian has been 
with the grant process from the very beginning. He will put it 
together----
    Mr. Smith of Michigan.--you, Mr. Paulison, and we will just 
have him----
    Mr. Paulison. If you would just transfer half of them over 
to Brian, I would appreciate it. He has just done an 
outstanding job of managing this, along with the staff, and 
Brian, I thank you very much for that.
    As you all are aware, each year, fire injures and kills 
more Americans than combined losses of any other natural 
disaster, and the death rates in the United States are among 
the highest in the industrialized world. And our mission at the 
Fire Administration is to reduce that loss of life and property 
and related emergencies, and it is quite a sobering challenge, 
quite frankly, but it is also a hopeful challenge because we 
believe that most of these deaths are preventable.
    As part of the Department of Homeland Security, we have 
been working diligently to prevent these deaths, these injuries 
and damage to property through leadership advocacy and 
coordination among these groups that you see sitting at this 
table here. We provide fire service training, public education 
and awareness, technology and research, and data analysis, and 
we are assisting fire responders and emergency managers to 
practice and refine their response plans with the partners at 
the state and local level and the federal level, and we are 
going to continue doing that.
    On the Assistance to Firefighters Grant Program in fiscal 
year 2001, the grant program met the goals and requirements as 
laid out by this Congress under the Defense Authorization Bill 
that added Section 33 to the Fire Prevention and Control Act of 
1974. And you appropriated $100 million in fiscal year 2001 for 
the Departments of Labor, Health and Human Services, Education 
and different agencies to fund the program. Section 33 of the 
FIRE Act Prevention and Control Act outlined a new federal 
program to provide direct assistance to local fire departments 
in order to protect the health and safety of the public and 
firefighting personnel against fire-related hazards, and to 
provide assistance to fire prevention programs, something that 
has never been done before.
    The law also gave FEMA the direct discretion to make grants 
directly to organizations that are recognized for their 
expertise and experience with respect to fire prevention or 
fire safety programs and activities for the purpose of carrying 
out fire prevention programs and giving priority for injuries 
to children. The law also outlined, as mentioned earlier by Mr. 
Smith, the 14 grant categories that required a cost share based 
on population protected by fire departments and mandated at 
least 5 percent of these funds be used for fire prevention, and 
limited the total amount that could be spent on vehicles to a 
maximum of 25 percent of the appropriated funds. Congress also 
emphasized the importance of a balanced distribution of the 
funds to departments staffed by paid firefighters and those 
staffed by volunteers, or a combination of both, as well as a 
geographical consideration, such as departments within urban, 
suburban and rural areas.
    The Assistance to Firefighters Grant Program provides 
competitive grants to address training, safety, fire 
prevention, fire trucks and apparatus, personal protective gear 
and other firefighting equipment, as well as wellness and 
fitness issues inside local fire departments. We streamlined 
the on-line application process for FIRE Grants and sped up the 
flow of resources to first responders, while insuring that the 
funds were used effectively and appropriately. In 2001, in 2002 
and 2003, we received over 20,000 applications in each year 
from fire departments across this country. We began announcing 
the fiscal year 2003 awards to successful applicants in June of 
2003, and completed them three months ahead of schedule in 
February of 2004.
    This year, Congress appropriated $750 million to provide 
grants directly to fire departments to build their basic 
firefighting response capabilities for all types of 
emergencies, including suppressing fires. This brings the total 
grant funding to this program to over one and a half billion 
dollars for a program that started three years ago, and these 
dollars are going directly to fire departments. This benefits 
the community as a whole, and it benefits other first responder 
entities by building on those base capabilities of local fire 
departments to respond to all types of incidents.
    In 2004, the Office for Domestic Preparedness is managing, 
with our assistance, the FIRE Grants Program to offer one-stop 
shopping for grants in the new department. The United States 
Fire Administration will work closely with the Office of 
Domestic Preparedness to insure the continued success of this 
vital program, and I commit my personal commitment to make sure 
that these grants are carried on successfully, regardless of 
where they lie.
    Mr. Chairman, in your letter of invitation to appear today 
before the Committee, you asked that I specifically address 
three questions in regard to the program. First, how effective 
has the Assistance to Firefighters Grant program been and what 
needs still exist with regard to insuring the ability of our 
fire departments to respond to day-to-day hazards.
    This program, in its short three-year existence, has 
provided a tremendous amount of equipment, training and 
educational programs across the Nation. At present, there has 
not been an evaluation of its impact. The reason for this is 
the nature in which these projects are undertaken, completed 
and the resulting impact on public safety. In many cases, the 
vehicles purchased are just coming on-line, the training 
provided is just now being internalized, and the public 
education campaigns are just now underway. But we have made a 
recommendation to the Office of Domestic Preparedness that, in 
this and the next fiscal year, that a study be undertaken to 
attempt to quantify the impact of the program on local fire 
departments and fire safety. GAO's and FEMA's IG offices have 
also recommended such a study, and we will be working with ODP 
on that effort.
    Second, you asked that I describe the role that non-
government participation has played in the administration of 
this program, and should their roles be modified, and if so, 
how?
    As lauded by many, the peer-review process for the FIRE 
Grants process has been a tremendous success. This process 
allows a diverse sample of the national fire services community 
to review and rank the application. It allows for over 400 
services members, both career and volunteer, from large and 
small communities, from rural, suburban and urban areas to play 
a significant role in making these award recommendations. This 
allows the fire services, who best know the needs of the 
community, to have a substantial role in the decision-making 
process. The present process of outside groups and individual 
firefighter involvement significantly enhances the entire grant 
program and it is my recommendation that that should not be 
modified but continue as it is now.
    Third, in regards to the September 2003 Department of 
Homeland Security Inspector General's report on the Assistance 
to Firefighters Grant Program, you asked what actions has the 
Fire Administration taken to these recommendations.
    The 2003 IG report contains several recommendations that 
are worthy of implementation, and a few that have already been 
implemented. We are working with ODP to continue that effort, 
and we will provide, if you request, a copy of our reply to the 
IG, should you desire it.
    Mr. Chair, thank you for giving me this opportunity for you 
today. Your continued support is greatly appreciated, and I 
will be glad to answer any questions that anybody in the 
Committee may have. Thank you.
    [Statement of Mr. Paulison follows:]

                Prepared Statement of R. David Paulison

    Good Morning, Mr. Chairman and Members of the Committee. My name is 
R. David Paulison. I am the Director of the Preparedness Division and 
the United States Fire Administrator in the Department of Homeland 
Security's Federal Emergency Management Agency (FEMA). I appreciate the 
opportunity to appear before you today on behalf of Secretary Ridge.
    Each year, fire injures and kills more Americans than the combined 
losses of all other natural disasters. Death rates by fire in the 
United States are among the highest in the industrialized world. The 
U.S. Fire Administration's mission to reduce loss of life and property 
because of fire and related emergencies is a sobering challenge, but 
also a hopeful challenge, since most of these deaths are preventable.
    As a part of DHS, the staff works diligently to prevent these 
deaths, injuries, and the damage to property through leadership, 
advocacy, coordination and support in four basic mission areas: fire 
service training, public education and awareness, technology and 
research, and data analysis.
    To accomplish this mission, we work with the fire service, other 
emergency responders and State and local governments to better prepare 
them to respond to all hazards, including acts of terrorism. We are 
also listening to State and local governments, and working with private 
industry, to provide standardized, practical, compatible equipment that 
works in all possible circumstances. We are assisting first responders 
and emergency managers practice and refine their response plans with 
partners at the local, State and federal level. We will continue to 
provide training and education programs to prepare for the routine 
hazards as well as the emergent threats posed by WMD and terrorist 
incidents.
    Today, I will focus my remarks on the U.S. Fire Administration and 
the Assistance to Firefighters Grant Program, known as the FIRE Act 
Grants, that USFA had the privilege of administering from its inception 
in 2001 through FY 2003.

Accomplishments

    The U.S. Fire Administration is a national leader in fire safety 
and prevention and in preparing communities to deal with fires and 
other hazards. USFA is working to support the efforts of local 
communities to reduce the number of fires and fire deaths and it 
champions federal fire protection issues and coordinates information 
about fire programs.
    In terms of our preparedness programs, we recognize the importance 
of training as a vital step toward a first responder community that is 
prepared to respond to any kind of emergency, ranging from a small fire 
to a terrorist attack involving a large number of victims. We continue 
to administer training and education programs for community leaders and 
first responders to help them prepare for and respond to emergencies 
regardless of cause or magnitude. DHS also provides equipment, 
vehicles, and training and wellness programs through our Assistance to 
Firefighter Grant program to help first responders perform their 
duties.
    This year, Congress appropriated $750 million to provide grants 
directly to fire departments to build their basic response capabilities 
for all types of emergencies, including suppressing fires. This brings 
total funding for this grant program to more than one and a half 
billion dollars since the program began three years ago. This benefits 
the community as a whole and benefits other first responder entities by 
building the base capabilities of local fire departments to respond to 
all types of incidents. In 2004, the Office for Domestic Preparedness 
is managing, with our assistance, the fire grants program to offer one 
stop shopping for grants in the new Department. USFA will work closely 
with ODP to ensure the continued success of this vital program.
    FEMA also continues to provide training in emergency management to 
our firefighters, law enforcement, emergency managers, health care 
workers, public works, and State and local officials, at our Emergency 
Management Institute. I would like to give you a few more details about 
these and other USFA activities.

Assistance to Firefighters Grant Program

    The FY 2001 Assistance to Firefighters Grant Program met the goals 
and requirements delineated by Congress in the FY 2001 Defense 
Authorization bill [Public Law 106-398] that added Section 33 to the 
Federal Fire Prevention and Control Act of 1974 (15 U.S.C. 2201 et 
seq., the Fire Prevention and Control Act). Congress appropriated $100 
million in the FY 2001 Departments of Labor, Health and Human Services, 
and Education, and related Agencies Appropriations Act [Public Law 106-
554] to fund this program.
    Section 33 of the Fire Act Prevention and Control Act outlined a 
new federal program to provide direct assistance to local fire 
departments in order to protect ``the health and safety of the public 
and firefighting personnel against fire and fire-related hazards,'' and 
to provide assistance for fire prevention programs. The law also gave 
FEMA the discretion to make grants directly to ``organizations that are 
recognized for their experience and expertise with respect to fire 
prevention or fire safety programs and activities, for the purpose of 
carrying out fire prevention programs. . .[giving] priority to 
organizations that focus on prevention of injuries to children from 
fire.''
    FEMA was directed to establish an office to administer the program 
and criteria for the selection of recipients. The law also outlined 14 
possible grant ``categories,'' required a cost share based on the 
population protected by fire departments, mandated at least five 
percent of the funds be used for fire prevention, and limited the total 
amount that could be spent in the vehicles category to a maximum of 25 
percent of appropriated funds. Congress also emphasized the importance 
of the balanced distribution of the funds to departments staffed by 
paid firefighters and those staffed by volunteers (or a combination of 
paid and unpaid firefighters), as well as geographical considerations 
such as departments located in urban, suburban, and rural areas.
    The Assistance to Firefighters Grant program provides competitive 
grants to address training, safety, prevention, apparatus, personal 
protective gear and other firefighting equipment needs as well as 
wellness and fitness issues of local fire departments. We have 
streamlined the online application process for fire grants and sped up 
the flow of resources to first responders, while ensuring that the 
funds are used effectively and appropriately. In 2001, 2002 and 2003, 
we received over 20,000 applications each year, from fire departments 
across the country.
    As of April 13, 2004, FEMA has processed for the Assistance to 
Firefighters Grants Program from FY01 to FY03, 20,137 grants payments 
totaling $696,466,838. The total for the Firefighter Assistance for FY 
2001 is $91,050,915 for FY 2002, 11,023 payments totaling $324,778,012 
and for FY 2003, 8,986 payments totaling $277,590,113. Fire Prevention 
grants for FY 2002 is 128 payments totaling $3,047,798.
    Beginning with the 2001 Grant Program, the Emergency Education 
NETwork (EENET) broadcast valuable information on the grant programs 
and process. Prior to the application period in FY 2003, EENET 
broadcasted an actual applicant workshop, which was rebroadcast several 
times during the application period. We heard from many organizations 
that this eased the application process. We began announcing the FY 
2003 awards to successful applicants in June 2003 and completed them 
three months ahead of schedule in February of 2004.
    Mr. Chairman, in your letter of invitation to appear today before 
the Committee, you asked that I specifically address three questions in 
regards to the Assistance to Firefighters Grants Program.

    First, how effective has the Assistance to Firefighters Grant 
Program been and what needs still exist with regard to insuring the 
ability of our fire departments to respond to day-to-day hazards?

    The Assistance to Firefighters Grant program in its short three-
year existence has provided a tremendous amount of equipment, training 
and educational programs across the Nation. At present there has not 
been an evaluation of its impact. The reason for this is the nature in 
which these projects are undertaken, completed and the resulting impact 
on public safety. In many cases the vehicles purchased are just coming 
on line, the training provided is just now being internalized and the 
public education campaigns are underway.
    We have recommended to ODP that in this and the next fiscal year 
that a study be undertaken to attempt to quantify the impact of the 
program on local fire departments and fire safety. We believe that the 
GAO and the FEMA IG's office has also recommended such a study and we 
will be working with ODP on that effort.

    Second, describe the role that non-government participation has 
played in administering the program and should their roles be modified, 
and if so how?

    Lauded by many, the Peer review process for the fire grants process 
has been a tremendous success. The process allows a diverse sample of 
the national fire services community to review and rank the 
applications. It allows over 400 fire services members, both career and 
volunteer, from large and small communities, from rural and suburban 
areas to play a significant role in making award recommendations. This 
allows the fire services, who best know the needs of that community to 
have a substantive role in the decision-making process. The present 
process of outside groups and individual firefighter involvement 
significantly enhances the entire grant program and should not be 
modified.

    Third, in regards to the September 2003 Department of Homeland 
Security Inspectors General's report on the Assistance to Firefighters 
Grant Program, what actions has USFA taken to respond to the report's 
recommendations?

    The September 2003 IG report contains several recommendations that 
are worthy of implementing and a few that have already been 
implemented. We are working with ODP to continue that effort and would 
be happy to provide you with the text of our reply to the IG should you 
desire it.

Challenges

    Reducing the loss of life and property caused by fire remains a 
significant challenge. Each year, fire kills more than 4,000 people and 
injures more than 22,000. Annual property losses due to fire are 
estimated at nearly $10 billion. And, firefighters pay a high price. In 
2003, 109 firefighters died while on duty. These losses are 
unacceptable because most can be prevented.
    While the numbers are still too high, great progress is being made 
to reduce the toll from fires. Since 1974, when Congress passed the 
Federal Fire Prevention and Control Act, and established the United 
States Fire Administration and its National Fire Academy--USFA has 
helped to reduce fire deaths significantly. Over the last 10 years, 
fires have declined by 16 percent. During this same period, a 22 
percent decline in civilian deaths and a 31 percent drop in civilian 
injuries were also reported.

Conclusion

    Thank you, Mr. Chairman, for giving me this opportunity to appear 
before you today. Your continued support is greatly appreciated. I will 
be glad to answer any questions you and other Members of the Committee 
may have.

                    Biography for R. David Paulison

    R. David Paulison was appointed Director of the Preparedness 
Division of the Emergency Preparedness & Response Directorate/FEMA, in 
the newly created Department of Homeland Security in 2003. He will 
continue to serve as the Administrator for the U.S. Fire 
Administration, a position to which he was appointed in December 2001.
    As Director of the Preparedness Division, Mr. Paulison administers 
a broad range of programs designed to reduce injuries and death due to 
disasters, strengthen states and communities and prevent or reduce 
damage to public and personal property. He is also responsible for 
enhancing State and local emergency preparedness, training federal, 
State, and local emergency managers, and conducting a nationwide 
program of exercises. As head of the U.S. Fire Administration, Mr. 
Paulison also supports State and local fire service programs and 
oversees programs to reduce life and economic losses due to fire and 
related emergencies in partnership with fire protection and emergency 
service communities.
    Before joining FEMA, Mr. Paulison, who has 30 years of fire rescue 
services experience, was Chief of the Miami-Dade Fire Rescue 
Department. In that position, he oversaw 1,900 personnel with a $200 
million operating budget and a $70 million capital budget. He also 
oversaw the county's emergency management office.
    He began his career as a rescue firefighter and rose through the 
ranks to Rescue Lieutenant, Battalion Commander, District Chief of 
Operations, Division Chief, Assistant Chief and then Deputy Director 
for Administration before becoming Chief. His emergency management 
experience includes Hurricane Andrew and the crash of ValuJet Flight 
592.
    A native of Miami, Fla., Mr. Paulison earned a Bachelor of Arts 
from Florida Atlantic University and completed the Program for Senior 
Executives in State and Local Government at Harvard University's John 
F. Kennedy School of Government. He is a recipient of the LeRoy Collins 
Distinguished Alumni Award and has been inducted into the Miami-Dade 
Community College Hall of Fame. Mr. Paulison was also selected as Fire 
Chief of the Year by Florida in 1993 and holds positions in several 
professional associations. He is a certified paramedic and as fire 
chief, oversaw the Miami-Date Urban Search and Rescue Task Force. He is 
also Past President of the International Association of Fire Chiefs.

    Mr. Smith of Michigan. Administrator, thank you. Mr. 
Mitchell.

STATEMENT OF MR. ANDREW T. MITCHELL, DEPUTY DIRECTOR, OFFICE OF 
     DOMESTIC PREPAREDNESS, DEPARTMENT OF HOMELAND SECURITY

    Mr. Mitchell. Thank you, Mr. Chairman, Members of the 
Committee. My name is Andy Mitchell, and I am--oh, pardon me. 
Thank you, Mr. Chairman, Members of the Committee. My name is 
Andy Mitchell. I am the Deputy Director of the Office for 
Domestic Preparedness in the Department of Homeland Security. 
And on behalf of all of us at DHS, I want to thank you, Mr. 
Chairman, and this committee for your support for the 
Department and ODP, and we look forward to working with you on 
the reauthorization of this important program, and we will get 
right to the point.
    The Department of Homeland Security does strongly support 
reauthorization of the Assistance to Firefighter Grant Program 
as a separate direct grant program in the Department of 
Homeland Security, and I will discuss some of our specific 
comments on that--on the proposed bill a little bit later. I 
mean, ODP has worked for a long time, since 1997, and we have a 
very good relationship and track record with working with State 
and local governments on the wide range of public safety 
issues, and particularly the fire service. We have had an 
extensive involvement with them, and as the Committee is aware, 
in addition to our regular programs that we have in ODP for 
Homeland Security-specific activities, the administration of 
the Assistance to Firefighter Act program was transferred to 
ODP.
    And as part of that transfer, we work very closely with 
DHS' EP&R [Emergency Preparedness and Response], but 
principally with the United States Fire Administration, and I 
want to personally thank Dave Paulison and his staff. He has 
made this difficult and challenging process very civil and it 
has been an amazingly smooth transition, and we continue to 
work--and we will commit to you we will continue to work 
collaboratively on this program in the future. We are all one 
department, and I think that Dave's staff has been tremendous 
and I echo your comments that the program has been 
exceptionally developed and implemented, and in fact, the--
Brian, the person you gave credit to is now working in our 
office making the transition work more effectively. So David, 
thank you very much for that.
    In fiscal year 2004, the application kit for the program 
opened on March 1 and closed on April the 2nd. One of the 
advantages that we have in the consolidation, we were able to 
post the application materials and additional resources on both 
ODP's and USFA's websites. The application period, we worked 
closely on this process, and we actually developed some new 
resources for the program that were not available in the past. 
We developed a CD-ROM that contains all the pertinent 2004 
program information, including a self-study tutorial on the 
application process and distributed that widely throughout the 
country, which I think helped with the application process. And 
our collaboration with the United States Fire Administration 
continued with the practice of holding local workshops for fire 
departments across the country.
    During the fiscal year 2004 application process, we 
conducted 346 workshops in consultation--in coordination with 
David and his staff, which were attended by more than 4,000 
fire department officials nationwide. The 2004 program will 
program funding in three program areas: firefighter operations, 
safety, personal protective equipment and fire prevention and 
firefighting vehicles. The breakdown of the applications 
received this year under these eligible categories closely 
mirrors the breakdown of the applications received in the 
previous two years. Sixty-six percent of the applications were 
under the fire operations and firefighter safety program, 33 
percent were for firefighting vehicles, and one percent were 
for the fire prevention program category.
    And as in the past years, the applications from different 
types of fire departments are consistent. Sixty-seven percent 
of the applications received are from all volunteer fire 
departments, 19 percent were from combination fire departments, 
and nine percent were from all paid or career fire departments, 
five percent came from paid-on-call or stipend departments. The 
average grant for type of community, urban communities 
requested an average of approximately $181,000. Suburban 
communities requested an average of $155,000, and rural 
communities requested and average of $107,000. The peer-review 
process for the grant applications has been completed. It was 
completed on April 27, and based on the work of these fine 
panelists in this process, we anticipate the first awards will 
be announced during the first week of June.
    Concerning reauthorization of the FIRE Act, we do support 
that, but there are a couple of provisions that we would 
obviously suggest that we would make for some modifications. If 
the Chair so approves, we would like to submit for a copy of 
the record the Department's views on the bill, and we have 
that, sir. [The information referred to appears in Appendix 2: 
Additional Material for the Record.] One of the major issues 
again--and this was touched on by Congressman Pascrell, and is 
one of the issues here is the location of the program. The 
Department supports the location of the program in ODP under 
the reorganization. That was proposed by Secretary Ridge, and 
we look forward to working with the Committee to try to find 
the agreement on how we can make this program work all in the 
same department. We are committed to the program continuing as 
it has been in the past, a direct program.
    There is a request in the Administration's budget for the 
first time for a separate line-item account for this program, 
and we look forward to working with the Committee on this 
program in the future. I invite--to answer any questions you 
may have after this. Thank you.
    [The prepared statement of Mr. Mitchell follows:]

                Prepared Statement of Andrew T. Mitchell

    Chairman Boehlert, Congressman Hall, and Members of the Committee, 
my name is Andrew Mitchell, and I serve as the Deputy Director of the 
Department of Homeland Security's (DHS) Office for Domestic 
Preparedness (ODP). On behalf of Secretary Ridge, it is my pleasure to 
appear before you today to discuss the current status of ODP and other 
issues of critical importance.
    On behalf of all of us at DHS, I want to thank you Mr. Chairman, 
and all the Members of the Committee, for your on-going support for the 
Department and for ODP. The Congress has entrusted us with a great 
responsibility, and we are meeting that responsibility with the utmost 
diligence.
    ODP is responsible for preparing our nation against terrorism by 
assisting States, local jurisdictions, regional authorities, and Tribal 
governments with building their capacity to prepare for, prevent, and 
respond to acts of terrorism. Through its programs and activities, ODP 
equips, trains, exercises, and supports State and local homeland 
security personnel--our nation's first responders--who may be called 
upon to prevent and respond to terrorist attacks.
    ODP has established an outstanding track record of capacity 
building at the State, local, territorial, and Tribal levels, by 
combining subject matter expertise, grant-making know-how, and 
establishing strong and long-standing ties to the Nation's public 
safety community. Since its creation in 1998, ODP has established 
strong ties to the emergency response community, including the fire 
services community.
    ODP has provided assistance to all 50 States, the District of 
Columbia, the Commonwealth of Puerto Rico, and the U.S. territories. 
Through its programs and initiatives ODP has trained 325,000 emergency 
responders from more than 5,000 jurisdictions and conducted more than 
300 exercises. And, by the end of Fiscal Year 2004, ODP will have 
provided States and localities with more than $8.1 billion in 
assistance and direct support.
    ODP's support comes through a number of different programs, but 
principal financial assistance is provided through the Homeland 
Security Grant Program, which in FY 2004 combined three separate 
programs: the State Homeland Security Grant Program, the Law 
Enforcement Terrorism Prevention Program, and the Citizen Corps 
Program. Additionally, in FY 2004, ODP is responsible for the 
administration of the Assistance to Firefighters Grant (AFG) Program, 
more commonly known as the Fire Act Grants, was transferred to ODP. The 
funding level for the FY 2004 program is $750 million, which was equal 
to the previous year's funding level.
    As part of this transfer, and to ensure a smooth and seamless 
transition, ODP worked very closely with DHS' Emergency Preparedness 
and Response Directorate and the United States Fire Administration. ODP 
conducted regular weekly meetings and had continuous contact with 
FEMA's and the United States Fire Administration's financial, 
information technology, regional, program, congressional and 
legislative affairs staffs.
    This year, the Application Kit and Guidance for the Fiscal Year 
2004 grant funds opened on March 1st, and closed on April 2nd. To 
better serve the fire service community, these materials, as well as 
additional information and resource materials, were posted on the ODP 
and USFA websites. The FY 2004 AFG Program will provide funding in 
three program areas, which were selected based on discussions with the 
fire services community. These areas are: Firefighting Operations and 
Safety (which includes Training, Equipment, Personal Protective 
Equipment, Wellness and Fitness Programs, and Modification of 
Facilities); Fire Prevention; and Firefighting Vehicles.
    One change in the FY 2004 AFG Program was that emergency medical 
services (EMS) was not a separate category. Instead, the Department 
merged the EMS program area within the Fire Operations and Safety 
program. This change was made because, in most fire departments, 
firefighters have multiple roles, including suppressing fires, 
performing rescues, and providing EMS services. The Department 
anticipates that this change should increase the number of requests for 
EMS equipment and training, since it permits departments to request EMS 
funding without excluding funding from other support areas.
    Additionally, in FY04, in an effort to provide local fire 
departments with greater flexibility and discretion to meet their 
equipment needs, they may also use Fire Act Grant funds to purchase 
additional equipment related to WMD response similar to what may be 
purchased under ODP's Homeland Security Grant Program. This type of 
equipment has always been eligible for funding under the AFG Program, 
but, given the dual-use nature equipment, the Department believes it 
important to highlight the acquisition of this type of equipment. In 
instances where a fire department is requesting equipment or training 
that is related to chemical, biological, radiological, nuclear, and 
explosives, (CBRNE), the Department will ask the state's homeland 
security office to review the application to ensure that it is 
consistent with the State's homeland security strategy. Each State will 
be asked to provide the AFG program office with a representative to 
carry out a technical review of applications from the State that 
include CBRNE-related requests and that have been rated as fundable by 
ODP's peer-review panelists. During the technical review, the State 
representative will attest to and certify that any CBRNE-related 
requests are consistent with the State's homeland security plan, and 
that the requests do not duplicate assistance already provided or about 
to be provided.
    The Department further believes that the transfer of the AFG 
Program was highly successful. This year, ODP received 20,348 
applications, which is slightly more than the number received last 
year.

        <bullet>  66 percent of these applications were under the 
        ``Fire Operations and Firefighter Safety program;''

        <bullet>  33 percent were for Firefighting Vehicles; and

        <bullet>  one percent were for under the Fire Prevention 
        category.

    As in past years, the Department received applications from 
different types of fire departments, including:

        <bullet>  67 percent of the applications received were from 
        ``All Volunteer'' fire departments;

        <bullet>  19 percent of the applications were from combination 
        fire departments;

        <bullet>  nine percent were from ``All Paid'' or ``Career'' 
        fire departments; and

        <bullet>  five percent from ``Paid on Call/Stipend'' 
        departments.

    Through these applications, fire departments across the country 
requested more than $2.3 billion in federal support. The average 
request for funds varied according to the type of department. For 
instance, the average request for funds from urban fire departments was 
$180,991. Suburban fire departments requested on average $155,439, 
while rural fire departments requested on average $107,445.
    ODP is currently in the process of conducting the peer-review 
panels for AFG Program applications. The panels were convened on April 
13 and finished their reviews on April 27, 2004. As in past years, the 
panel sessions were conduced at the National Fire Academy in 
Emmitsburg, Maryland. Based on the work of the panelists, and the 
number of applications that we received, the Department anticipates 
that the first awards will be announced during the first week of June.
    Throughout the FY 2004 application period, ODP was committed to a 
successful program. In an effort to better prepare the fire service, we 
provided new resources that were not available in the past. We 
developed a CD-ROM that contains all pertinent FY04 program 
information, including a self-study tutorial on the grant application 
process.
    ODP, along with USFA and FEMA, continued the successful practice of 
holding local workshops for fire departments across the country in 
order to provide valuable information and guidance on the application 
process. These workshops provide invaluable assistance to fire 
departments as they complete and submit their funding applications. 
During the FY 2004 application period, ODP, in coordination with USFA 
and the FEMA Regional Field Offices, conducted 346 workshops, which 
were attended by more than 4,000 fire department officials.
    In addition to our support of the Fire Service through the Fire Act 
Grants, DHS is also working to better protect firefighters in their 
daily work.
    As such, the Department recently adopted its first standards 
regarding personal protective equipment developed to protect first 
responders against chemical, biological, radiological and nuclear 
incidents.
    These standards, which will assist State and local procurement 
officials and manufacturers, are intended to provide emergency 
personnel with the best available protective gear.
    The Department adopted these standards, which were developed in 
partnership with the National Fire Protection Association (NFPA) and 
the National Institute for Occupational Safety and Health (NIOSH). 
These guidelines, which have also been adopted by the Interagency Board 
for Equipment Standardization and Inter-operability, include NIOSH 
standards for CBRN three main categories of respiratory protection 
equipment and five current NFPA standards for protective suits and 
clothing to be used in responding to chemical, biological and 
radiological attacks.
    These standards reflect the continuing support of a multi-year 
program in Homeland Security's Science and Technology division, managed 
by the National Institute of Standards and Technology, to develop 
chemical, biological, radiological and nuclear and explosive protective 
equipment standards. This program, which transitioned from the 
Department's Office of Domestic Preparedness in 2003, continues to 
facilitate the development of performance standards and test methods 
for first responder protective and operational equipment.
    Let me assure you that we at ODP recognize the importance that 
continued support for the fire service through the Fire Act Grants 
represents, particularly to rural and volunteer fire departments, as 
well as to urban and suburban departments. For many of these 
departments, these funds are critical to their operations.
    We at ODP look forward to continuing to provide the fire service 
with the valuable resources available through the Fire Act Grant 
Program. The President's FY 2005 budget request of $500 million is 
equal to the FY 2004 request. As you know, this is the beginning of a 
long appropriations process, and we look forward to working with 
Congress to ensure that you and your colleagues in the fire services 
receive the support that you need to do your vitally important work.
    I am confident that by working with you and your colleagues in the 
fire service and with the Congress, we will make this an even more 
successful program in the future. At this point, I would be happy to 
answer any questions from the Committee.

                    Biography for Andrew T. Mitchell

    Andy Mitchell currently serves as the Deputy Director of the Office 
for Domestic Preparedness, United States Department of Homeland 
Security (DHS). The Office is responsible for the development and 
administration of DHS's programs to enhance the capabilities of the 
Nation's public safety community to prevent and respond to terrorist 
incidents. The Office is responsible for the development and 
implementation of training programs for State and local first 
responders; administering a state formula grant program to develop 
statewide domestic preparedness strategies and provide specialized 
equipment, training and exercise support to enhance the capacity of 
State and local agencies to respond to CBRNE terrorism; development and 
implementation of a major DHS program providing funding to America's 
urban metropolitan areas to enhance their terrorism prevention and 
response capabilities; plan and execute national-scope exercises and 
support State and local exercises; oversee a national training program 
for State and local first responders and government officials; and to 
provide specialized technical assistance to State and local public 
safety agencies.
    The Administration's Fiscal Year 2004 Budget Request establishes 
ODP as DHS' primary grant program agency and establishes a new program 
priority for ODP to support the development and implementation of a 
comprehensive national program to address the needs of State and local 
law enforcement to prevent and deter terrorist attack in the U.S. Since 
its inception, ODP's budget has grown from $5 million in FY 1997 to 
$4.037 billion in FY 2004.
    Prior to joining the ODP, he served as the Chief of the National 
Initiatives Branch in the Bureau of Justice Assistance (BJA) where he 
was responsible for the management of BJA's First Responder to 
Terrorist Incidents National Training Program for fire and emergency 
medical personnel, and also served as the Director of the Emergency 
Federal Law Enforcement Assistance Program. He previously served as the 
Chief of the South Branch in BJA's State and Local Assistance Division 
(SLAD). Prior to his SLAD assignment, he served as the Senior Policy 
Analyst in BJA's Policy Development and Management Division where he 
was responsible for BJA's legislative, budget and policy matters. Mr. 
Mitchell has over 25 years experience in public safety and criminal 
justice program development, program management, program planning and 
policy development in both the public and private sectors having 
previously served as a Business Unit Manager for Public Safety and 
Technology in the Government Services Division of Aspen Systems 
Corporation; Director of Special Projects for the National Criminal 
Justice Association; and Director of Financial and Grants 
Administration for the Georgia State Crime Commission.
    Mr. Mitchell received a Bachelor of Business Administration, with a 
major in Finance, from Georgia Southern College.

    Mr. Smith of Michigan. Mr. Mitchell, thank you. Mr. 
Shannon, thank you and thank you NFPA for your work on the 
assessment research. I think it is extremely helpful to have a 
little better understanding of what some of our shortages are. 
Please proceed.

STATEMENT OF MR. JAMES M. SHANNON, PRESIDENT AND CEO, NATIONAL 
                  FIRE PROTECTION ASSOCIATION

    Mr. Shannon. Thank you, Mr. Chairman, and Ranking Member 
Gordon and Members of the Committee. I am honored to appear 
before this committee today. My name is Jim Shannon. I am the 
President and CEO of NFPA, and I am here to testify in strong 
support of H.R. 4107. This legislation will codify much of the 
important work that the United States Fire Administration has 
done in administering this crucial grant program since 2001.
    From day one, USFA has worked with the Nation's fire 
service to insure that this program is managed in a way that 
best meets existing needs. Now first, let me state emphatically 
that the reauthorization of the Assistance to Firefighters 
Grant program, the FIRE Grant Program is extremely important, 
we believe, to the effectiveness of the fire service throughout 
the United States. This program addresses every element of the 
fire service, including fire suppression, prevention, code 
enforcement and emergency medical response. Back in May of 
1973, the Chairman of the National Commission on Fire 
Prevention and Control, Richard Bland, transmitted to President 
Nixon its final report, America Burning.
    In that report, the Commission recommended establishment of 
the United States Fire Administration to evaluate the Nation's 
fire problem through data collection and analysis and research, 
to create a National Fire Academy to improve training and 
education for fire service personnel, to strengthen public 
awareness of the fire threat, and to provide grants to state 
and local governments. Before Congress created the FIRE Grant 
Program, USFA was unable to use that final key function with 
the scale and the breadth needed to help America's fire service 
achieve full effectiveness in its role of protecting the 
public. And now with the continuing support of Congress and 
with diligent administration by USFA and with the work of ODP, 
this program is addressing the needs of the fire service and 
promoting public safety.
    I think the staff at USFA has done a tremendous job in 
administering this program. Since its creation in fiscal year 
2001, this program has provided almost $2 billion in financial 
resources to fire departments. Nonetheless, fire departments 
have applied for more than $9 billion, and the real needs are 
even greater than this, as I shall discuss. It is crucial that 
the FIRE Grant Program be maintained as a separate and distinct 
funding source where fire departments can receive direct 
funding from the Federal Government and avoid unnecessary red 
tape. And I would also urge that Congress fund the program at a 
level no less than its authorized amount of $900 million.
    Now when I said that the needs are much greater than the 
currently authorized and appropriated amounts for the FIRE 
Grant Program, I was speaking about the Needs Assessment 
Survey\1\ that Mr. Smith spoke about, which was specifically 
commissioned by Congress as part of the FIRE Act and which was 
completed just over a year ago by NFPA, in cooperation with 
FEMA and USFA. I won't go into the details because the findings 
of the bill delineate them in some detail, but it is very, very 
clear that our nation's fire service and first responders 
desperately need help in order to be prepared to do the job 
that we are asking them to do.
---------------------------------------------------------------------------
    \1\ The information referred to can be found at http://
www.nfpa.org/pdf/needsassessment.pdf
---------------------------------------------------------------------------
    In the next two or three months, NFPA will release a Needs 
Assessment on each of the 50 states, which is based on further 
analysis of the data which has been collected from the National 
Fire Service Needs Assessment, and we will be pleased to make 
that available to each of the Members of the House and Senate 
for their state so they can see how their state stacks up. And 
we fully expect these reports to demonstrate that fire 
departments in every part of the Nation share in the national 
needs and require the help that this grant program has been 
providing.
    This legislation takes the next appropriate step, and that 
is to provide the resources to update the original Needs 
Assessment. Now that the FIRE Grant Program is in its fourth 
year, it is important to have empirical data to show how this 
program is addressing the needs the original study documented. 
This updated study would measure the impact of the grant 
program on the shortfalls identified by NFPA's original 
assessment. In addition, H.R. 4107 protects the fire prevention 
and education portion of the FIRE Grant Program. While it is 
only five percent of the total funding, fire prevention and 
education activities conducted by our fire departments, 
educators and other community leaders address a pressing need.
    These programs often reach out to high-risk groups who 
disproportionately die in fires: children, older adults and the 
disadvantaged. Some of the statistics on these populations are 
really troubling. Children five and younger and adults 65 and 
older have a death rate from fire and burns that is roughly 
twice the rate of the population as a whole, and these groups--
these two groups account for over 40 percent of all civilian 
fatalities. And fire risk is highest in rural areas and large 
urban areas, the same communities where poverty and other high-
risk conditions are most widespread. So we can't continue to 
ask our fire service to do the job that needs to be done and 
not provide the resources to do this.
    The Federal Government must continue to provide adequate 
resources through the Assistance to Firefighters Grant Program 
and to support our firefighters to meet the many challenges 
they face every day. This legislation will help to insure that 
this program does just that.
    Thank you for the opportunity to testify here today, and I 
would be happy to answer any questions that you might have. 
Thank you very much.
    [The prepared statement of Mr. Shannon follows:]

                 Prepared Statement of James M. Shannon

    Chairman Boehlert, Ranking Member Gordon and Members of the 
Committee, I am honored to appear before this committee today. My name 
is James M. Shannon, and I am President and Chief Executive Officer of 
the National Fire Protection Association. NFPA is a non-profit 
organization; founded more than 100 years ago, with a mission to save 
lives through scientifically based consensus codes and standards, fire 
and life safety education and training, and fire research and analysis. 
NFPA consensus codes and standards are adopted by State and local 
jurisdictions throughout the United States and widely used by the 
Federal Government.
    Today NFPA has nearly 300 codes and standards addressing safety, 
each accredited by the American National Standard Institute (ANSI) and 
developed by technical experts, the fire service, and others 
participating as volunteers in a consensus process. This process 
ensures that all interested parties have a say in developing standards. 
Congress affirmed its support for voluntary consensus standards in the 
National Technology Transfer and Advancement Act of 1995 (P.L. 104-113) 
and reaffirmed that support in the Homeland Security Act of 2002, the 
law that created the new department. Recently, the Department of 
Homeland Security adopted five NFPA personal protective equipment 
standards.
    As Congress considers the reauthorization of the Assistance to 
Firefighters Grant Program, I wish to testify in support of H.R. 4107. 
This legislation will codify much of the important work the United 
States Fire Administration (USFA) has done in administering this 
crucial grant program since 2001. From day one, USFA has worked with 
the Nation's fire service to ensure that this program is managed in a 
way that best meets the existing needs.
    First, let me state emphatically that the reauthorization of the 
Assistance to Firefighters Grant Program, commonly known as the FIRE 
Grant program, is extremely important to the effectiveness of the fire 
service throughout the United States. This program addresses every 
element of the fire service including fire suppression, prevention, 
code enforcement, and emergency medical response. In May of 1973 the 
Chairman of the National Commission on Fire Prevention and Control, 
Richard E. Bland, transmitted to President Nixon its final report 
``America Burning.'' In that report the Commission recommended 
establishment of the United States Fire Administration to:

        <bullet>  Evaluate the Nation's fire problem through data 
        collection and analysis and research,

        <bullet>  Create a National Fire Academy to improve training 
        and education for fire service personnel,

        <bullet>  Strengthen public awareness of the fire threat, and

        <bullet>  Provide grants to State and local governments.

    Before Congress wisely created the FIRE Grant Program, USFA was 
unable to use that final key function with the scale and breadth needed 
to help America's fire service achieve full effectiveness in its role 
of protecting the public. Now, with the continuing support of Congress, 
and with diligent administration by USFA, this program is addressing 
the needs of the fire service and promoting public safety.
    The staff at USFA has done a tremendous job in administering the 
FIRE Grant Program. Since its creation in FY 2001, this program has 
provided more than $1 billion in financial resources directly to fire 
departments. Nonetheless, fire departments have applied for more than 
$7 billion, and the real needs are even greater than this, as I shall 
discuss. It is crucial that the FIRE Grant Program be maintained as a 
separate and distinct funding source where fire departments can receive 
direct funding from the Federal Government and avoid unnecessary red 
tape. I would also urge the Congress to fund the program at a level no 
less than its authorized amount of $900 million dollars.
    When I said the needs are much greater than the currently 
authorized and appropriated amounts for the FIRE Grant program, I was 
speaking on the basis of the ``Needs Assessment Survey'' of the fire 
service, which was specifically commissioned by Congress as part of the 
FIRE Act and which was completed just over a year ago by NFPA in 
cooperation with FEMA/USFA. Let me share with you a few of the major 
findings from that survey.

        <bullet>  Only one in every 10 fire departments has the local 
        personnel and equipment required to respond effectively to a 
        building collapse or the release of chemical or biological 
        agents with even minimal to moderate casualties;

        <bullet>  50 percent of our firefighters involved in 
        ``technical rescue'' lack formal training, but technical rescue 
        involving unique or complex conditions is precisely the skill 
        they would need to respond to a terrorist attack;

        <bullet>  There are other huge gaps in training--There has been 
        no formal training for 21 percent of those involved in 
        structural firefighting; for 27 percent of those involved in 
        EMS work; and for 40 percent who are sent in to deal with 
        hazardous materials;

        <bullet>  And we don't protect our firefighters as we should. 
        One third of the protective clothing worn by firefighters sent 
        into a burning building is more than 10 years old, and an 
        estimated 57,000 firefighters lack any protective clothing at 
        all;

        <bullet>  On a typical fire department shift, 45 percent of 
        first responding firefighters lack portable radios; 36 percent 
        lack self-contained breathing apparatus; and 42 percent answer 
        an emergency call without a Personal Alert Safety System (PASS) 
        device that is critical in locating an injured or trapped 
        firefighter;

        <bullet>  Finally, at least 65 percent of cities and towns 
        nationwide don't have enough fire stations to achieve widely 
        recognized response-time guidelines. Those guidelines recommend 
        that firefighters be on the scene of any situation within four 
        minutes, 90 percent of the time.

    In the next 2-3 months, NFPA will release a needs assessment on 
each of the 50 states, based on further analysis of the data collected 
for the national fire service needs assessment. We fully expect these 
reports to demonstrate that fire departments in every part of the 
Nation share in the national needs and require the help this grant 
program has been providing.
    The Needs Assessment began before the horrific events of September 
11, 2001, but because of the foresight of USFA and our fire service 
advisors, the survey included extensive attention to terrorism 
preparedness. When the Council on Foreign Relations began an exercise, 
under former Senator Warren Rudman, to develop cost estimates of 
terrorism preparedness for the entire first responder community at all 
levels of government, the Needs Assessment permitted NFPA to develop 
and substantiate the fire service portion of these cost estimates with 
unusual detail.
    In its report released last year, the Council estimated that it 
would take $98.4 billion in additional funds above current spending 
(estimated at $26-76 billion) over the next five years, or $19.7 
billion per year, to meet the needs of our first responders to handle 
the additional responsibilities of homeland security. The fire service 
portion of this, based on the Council's use of NFPA's analysis of the 
Needs Assessment Survey, was $26.5 billion in initial costs and $7.1 
billion per year in on-going costs.
    Chairman Boehlert, your legislation takes the next, appropriate 
step, and that is to provide the resources to update the original needs 
assessment. Now that FIRE Grant Program is in its fourth year, it is 
important to have empirical data to show how this program is addressing 
the needs the original study documented. This updated study would 
measure the impact of the grant program on the shortfalls identified by 
NFPA's original assessment.
    In addition, H.R. 4107 protects the fire prevention and education 
portion of the FIRE Grant program. While it is only five percent of the 
total funding, fire prevention and education activities conducted by 
our fire departments, educators, and other community leaders address a 
pressing need. These programs often reach out to high-risk groups who 
disproportionably die in fires: children, older adults and the 
disadvantaged. Some disturbing statistics about these groups:

        <bullet>  Children five and younger and adults sixty-five and 
        older have a death rate from fire and burns that is roughly 
        twice the rate of the population as a whole.

        <bullet>  These two groups account for over 40 percent of all 
        civilian fatalities.

        <bullet>  Fire risk is highest in rural areas and large urban 
        areas--the same communities where poverty and other high-risk 
        conditions are most widespread.

    We cannot continue to ask our firefighters to do more with fewer 
resources. We would not expect the men and women in our armed services 
to defend our nation without proper training, equipment and staffing. 
But as the country braces for the unknown at home, our nation's 
firefighters, who are nearly always the first responders in any crisis, 
need more help in order to protect our citizenry or themselves.
    Fire departments face many difficult decisions. We can no longer 
ask our fire departments to survive entirely on local tax revenue 
supplemented by potluck dinners, auctions and fundraisers. The FIRE 
Grant program is beginning to address the shortfalls, which we know 
exist.
    The Federal Government must continue to provide adequate resources 
through the Assistance to Firefighters Grant Program and to support our 
firefighters to meet the many challenges they face every day. Your 
legislation will help to ensure that this program does just that. Thank 
you again for the opportunity to testify here today. I am happy to 
answer any questions you have.

                     Biography for James M. Shannon

    On June 3, 2002, Jim Shannon was elected President and Chief 
Executive Officer of NFPA (the National Fire Protection Association) in 
Quincy, Massachusetts. From 1991 until his election he was Sr. Vice 
President and General Counsel. The NFPA is an international 
organization which develops codes and standards which are adopted by 
State and local jurisdictions throughout the United States and widely 
used both by the Federal Government and governments around the world. 
Prior to that, Mr. Shannon served as Attorney General of the 
Commonwealth of Massachusetts from 1987 to 1991. As Attorney General, 
he headed a department of 450 people including 175 attorneys and 
revamped the office to emphasize prosecution of white-collar crime, 
public corruption and narcotics cases. In addition, he chaired the 
Antitrust Committee of the National Association of Attorneys General 
and, as Attorney General, personally argued several cases on behalf of 
the Commonwealth in state and federal courts including the United 
States Supreme Court. From 1985 to 1987 Mr. Shannon was a Senior 
Partner at the law firm of Hale & Dorr in Boston, Massachusetts. Mr. 
Shannon began his political career with his election to the United 
States House of Representatives in 1978. He was the youngest Member of 
the 96th Congress and served in the House until 1985. A Member of the 
Ways and Means Committee for six years, he served on the Trade, Health 
and Social Security Subcommittees. He was the principal author of the 
Research and Development Tax Credit and of the Disability Benefits 
Reform Act of 1984 (Public Law 98-460). A graduate of Phillips Andover 
Academy he received his B.A. from Johns Hopkins University and his J.D. 
from George Washington University. He and his wife Silvia have a 
daughter, Sarah.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Smith of Michigan. Chief Stittleburg.

 STATEMENT OF CHIEF PHILLIP C. STITTLEBURG, CHAIRMAN, NATIONAL 
                     VOLUNTEER FIRE COUNCIL

    Chief Stittleburg. Thank you, Mr. Chairman. I likewise very 
much appreciate the opportunity to appear before you today. I 
am the Chairman of the National Volunteer Fire Council. As 
such, I represent the interests of over 800,000 men and women 
that protect our country in the volunteer ranks in the fire EMS 
service.
    We likewise strongly support H.R. 4107, which I refer to as 
the FIRE Act. We are all aware of the history of the Act. Of 
particular importance is the fact that it was created prior to 
September 11, 2001. It was intended to bring every fire 
department up to a minimum level of readiness, and the reason 
that is significant is that fire departments must first be able 
to provide for their basic needs before you can expect them to 
be able to assume any wider role. Every year, the paid and 
volunteer services respond to about 21 million calls. They run 
the gamut from structural and wildland fires to EMS, Hazmats, 
search/rescue, clandestine drug labs, natural disasters and so 
forth, and so it is very apparent the importance that they are 
properly trained and properly equipped.
    It is important to keep in mind that they protect the 
interstate highways, bridges, tunnels, railroads, power plants, 
refineries, critical infrastructure, and I would point out that 
a great deal of that infrastructure is located in rural areas 
and is protected by volunteer departments. This reauthorization 
bill retains all the important aspects of the previous program, 
and includes some improvements. For instance, it would continue 
the provision that National Fire Service organizations set the 
grant criteria. That is important to keep needs realistic. It 
also continues the peer-review process. That is important to 
keep requests realistic. It also creates some new language, 
part of which is to prevent discrimination against volunteers. 
It provides that fire departments can't prevent paid 
firefighters from acting as volunteers in other municipalities.
    I would hasten to point out that very similar language is 
already included in the SAFER Bill, which was passed by 
Congress and signed into law last fall, so there is precedent 
for that language. Why is this language important to the 
volunteers? It is important because many career firefighters 
who are paid and serve in large departments often live in small 
communities adjoining that area and belong to volunteer fire 
departments there. They possess skills, experience and 
knowledge that are very important to us in the volunteer 
sector. They make up a very important part of the volunteer 
fire service.
    I asked myself the question why would anyone object to 
language saying that volunteers should not be discriminated 
against. I have heard it raised in the context of health and 
safety issues that paid firefighters need a period of rest and 
recuperation after completing their 24 hours of service. 
However, they are not prohibited from engaging in other 
activities that may be strenuous, such as second jobs, 
strenuous or dangerous hobbies and things of that nature. I 
believe that Congressman Gordon, for instance, raised the issue 
that this isn't the correct place to be raising collective 
bargaining issues, and I would simply point out that of course, 
pending now in Congress are H.R. 814 and S. 606 that would 
require the 18 states that currently do not allow public safety 
officers to collectively bargain to do so.
    So this is an issue that is already out there. I think that 
this is entirely the correct place. We are talking about 
spending federal dollars. This is the ideal place to decide how 
they are spent. As I say, the SAFER Bill has already addressed 
that in that law. Also, I would point out that this is a time 
of renewed appreciation and emphasis on volunteerism. President 
Bush has emphasized it repeatedly. It is important that we 
protect the right to volunteer. It is important that we allow 
people to do good for their communities. Not only is that the 
right thing to do, but it makes great fiscal sense. Volunteer 
firefighters save this country approximately $40 billion a year 
because of the services they are able to provide. A strong 
volunteer fire service is good for the country. This bill is 
good for the entire fire service.
    And I would point out that although part of the bill I 
would anticipate will actually work to the detriment of the 
volunteer fire service, we nonetheless still support it. In 
other words, Congressman Pascrell talked about the changes in 
limits that departments could apply for. I anticipate that will 
result in a shift of applications from the volunteer sector to 
the paid sector. But nonetheless, we still support this FIRE 
Act because it has proven to be effective. It delivers the 
money where it needs to go, directly to the fire departments. 
We don't have controversies of the states holding the money and 
won't give it to the county, or the county won't give it to the 
city or whatever. It goes to the fire department, where it 
needs to be. Also the reauthorization bill, of course, provides 
for nonprofit, non-hospital EMS organizations to be eligible 
and that likewise is important to us.
    In closing, sir, I wish to thank you and the Committee for 
allowing us to present our views on this matter today. Thank 
you, sir.
    [Statement of Mr. Stittleburg follows:]

              Prepared Statement of Philip C. Stittleburg

    Mr. Chairman and Members of the Committee, my name is Chief Phil 
Stittleburg and I am Chairman of the National Volunteer Fire Council 
(NVFC). The NVFC represents the interests of the more than 800,000 
members of America's volunteer fire and emergency services community, 
who staff nearly 90 percent of America's fire departments. I have 
served in the volunteer fire service for over 30 years and have been 
the Chief of the LaFarge Volunteer Fire Department in Wisconsin for the 
last 27 years. I have had experiences in all phases of the first 
responder community, including chemical and hazardous materials 
incidents, EMS, rescue and fire.
    In addition to serving as NVFC Chairman, I have represented the 
NVFC on a variety of standards-making committees, including ones that 
set industry standards on firefighter health and safety. I also serve 
on the National Fire Protection Association and National Fallen 
Firefighters Foundation Board of Directors and I am an adjunct 
instructor for the National Fire Academy. I earn my livelihood as an 
attorney, which includes serving as an Assistant District Attorney on a 
half-time basis for the last 28 years. These positions give me an 
excellent opportunity to serve in a wide array of professions in the 
public safety arena.
    According to the National Fire Protection Association (NFPA), 
nearly 75 percent of all firefighters are volunteers. In most years, 
more than half of the firefighters that are killed in the line of duty 
are volunteers. In addition to the obvious contribution that volunteer 
firefighters lend to their communities as the first arriving domestic 
defenders, these brave men and women represent a significant cost 
saving to taxpayers, a savings sometimes estimated to be as much as $40 
billion annually.
    On behalf our membership, I appreciate the opportunity to comment 
on the needs of America's volunteer fire service. More specifically, I 
would like to express our strong support for H.R. 4107, the Assistance 
to Firefighters Grant Reauthorization Act of 2004, which will 
reauthorize the Assistance to Firefighters Grant Program, also known as 
the FIRE Act, through fiscal year 2007. In addition, this bipartisan 
legislation will make some changes to the program, which will build 
upon its tremendous effectiveness and success.
    The events of September 11, 2001 made it clear to all Americans 
that the fire service is the first responder to all terrorist attacks 
this country may face. As America's domestic first responders, the fire 
service will be on the front lines of any incident and must be prepared 
to respond to and defend our citizens from the aftermath of a terrorist 
attack involving conventional weapons or weapons of mass destruction.
    However, we cannot lose sight of the 21 million calls the fire 
service responds to annually involving structural fire suppression, 
emergency medical response, hazardous materials incidents, clandestine 
drug labs, search and rescue, wildland fire protection, and natural 
disasters. Many of these emergencies occur at federal facilities and 
buildings and on federal lands. In addition, these incidents can damage 
America's critical infrastructure, including our interstate highways, 
railroads, bridges, tunnels, financial and agriculture centers, power 
plants, refineries, and chemical manufacturing and storage facilities. 
We as a fire service are sworn to protect these critical facilities and 
infrastructure.
    Often, local governments are unable to afford the extensive 
training and equipment that these challenges require. The Assistance to 
Firefighters Grant program assists local fire departments by providing 
a percentage of the needed funds to pay for these necessities, while 
not supplanting local responsibility to provide adequate fire and 
emergency medical services.
    The Assistance to Firefighters Grant program has proven to be the 
most effective program to date in providing all fire departments--both 
large and small, volunteer, career and combination--not only with the 
tools they need to perform their day-to-day duties, but it has also 
enhanced their ability to respond to large disasters as well. As we 
move to prepare for terrorist incidents at home, we must first ensure 
that local fire departments have the basic tools they need to do their 
jobs on a daily basis.
    This legislation will address these concerns by continuing to 
ensure that the program will meet the basic firefighting and emergency 
response needs of our fire departments, rather than becoming an 
additional anti-terrorism grant program. The Federal Government must 
not forgo its commitment to the basic needs of America's fire service 
in the name of Homeland Security.
    The program has been successful because it is the only federal 
program that provides funding directly to fire departments. In 
addition, the program's success is directly attributed to the fact that 
members of the fire service have been involved in nearly every aspect 
of the program to ensure that it addresses our current needs. We have 
helped to set the criteria for each funding category, and have staffed 
panels to grade the applications through an excellent peer-review 
process.

Program Reauthorization

    As I stated earlier, passage of H.R. 4107, the Assistance to 
Firefighters Grant Reauthorization Act of 2004, is a top priority for 
our organization. As written, the bill codifies many of the current 
program regulations that have made it so successful. The legislation 
would mandate the current peer-review process, guarantee national fire 
service organizations are represented in setting the criteria, and 
ensure that the program continues to address basic fire department 
needs.
    The legislation also includes important volunteer non-
discrimination language prohibiting a fire department that receives 
grant funds from discriminating against, or prohibiting its members 
from engaging in volunteer activities in another jurisdiction during 
off-duty hours. This clause, similar to language was included in the 
SAFER Bill that passed Congress last year, begins to address the 
growing concern we have about an individual's right to volunteer. 
Cities such as Hartford, West Hartford, East Hartford, Waterbury, 
Fairfield, New Britain, Connecticut and Ft. Wayne, Indiana currently 
prohibit their firefighters from volunteering.
    We feel that these types of provisions are a violation of the basic 
First Amendment right of free association. It is very alarming that any 
city would try to a tell a firefighter how they should or should not 
spend their off-duty time, which is their own time, especially when 
they are spending that time doing good in their community. This comes 
at the same time there is a revived push for volunteerism across our 
country.
    Moreover, many career firefighters who work in larger cities often 
live in smaller communities and belong to their local volunteer fire 
departments. These individuals should be able to provide their 
invaluable skills, knowledge and expertise to their local department, 
which are responsible for protecting their own homes and family, 
without harassment and retribution from employers.
    Some proponents of this type of prohibition contend that it is a 
health and safety issue and that firefighters must be given time off to 
recoup and relax. However, we have not heard anything about fire 
departments that bar their firefighters from strenuous second jobs in 
construction and other trades. In addition, there appears to be no fire 
departments that prohibit their firefighters from partaking in 
potentially dangerous hobbies like skiing or skydiving. Volunteer fire 
and EMS are the only activities that appear to be singled out.
    I would like to also stress that this clause does not affect any 
local unions who may attempt to prevent their members from 
volunteering. It simply would give incentives to municipalities to 
allow their employees to volunteer in their hometown fire departments.
    This bill not only protects volunteers, it will ensure increased 
access to funds for larger fire departments as well. While leaving the 
match for smaller departments unchanged, it lowers the non-federal 
matching requirement for fire departments that serve 50,000 people or 
more from 30 percent to 20 percent. In addition, the bill raises the 
cap on individual grants to $1 million for all departments, $2 million 
for departments that serve 500,000-1,000,000 people, and $3 million for 
departments that serve more that one million people. These clauses will 
clearly result in a shift of funds from smaller departments to larger 
ones.
    In addition, the legislation would begin to make non-profit, non-
hospital emergency medical service providers eligible to apply for 
grants. Many jurisdictions maintain separate fire and EMS departments. 
However, under current law, only emergency medical services that are 
part of fire departments are eligible for funding. To ensure that these 
agencies do not siphon off too much funding, the legislation caps the 
amount these entities may collectively receive to four percent of 
appropriated funds.
    The bill will also direct the U.S. Fire Administration (USFA) to 
administer the program. The USFA, under the leadership of Chief R. 
David Paulison, has spent the last four years developing and refining 
the program and has clearly demonstrated the capability to efficiently 
distribute these funds to local fire departments. This is no surprise 
to us because the personnel at USFA know the fire service like no other 
agency and many of their personnel come from emergency services 
backgrounds themselves.
    Finally, the legislation will commission a follow-up needs 
assessment to better track the programs benefits and authorize $900 
million per year for the program through 2007. We urge the entire 
Congress to support this legislation so we can quickly pass it through 
Congress.

FY 2005 Program

    I would also like to take this time to encourage Congress to 
support the program in the current fiscal year. On February 2, 2004 
President Bush sent Congress a $2.4 trillion spending plan, which 
requests $500 million for the Assistance to Firefighters Grant Program 
in FY 2005. Although this is the same amount the administration 
requested in the FY 2004 budget, it is a cut of $250 million (33 
percent) from the final amount that was appropriated by Congress.
    While the budget calls for the grants to continue to be made 
directly to fire departments and awarded through a competitive, peer-
review process, it calls for priority to be given to applications that 
enhance terrorism preparedness. It also only requests funding for the 
training, apparatus, and equipment sections of the FIRE Act, which 
leaves out funding initiatives for fire prevention and education, EMS, 
firefighter wellness/fitness, and station renovation.
    The NVFC is not only concerned about the proposed cut from FY 2004 
funding levels, but we are also worried about the potential shift in 
focus of the program exclusively to terrorism. This program was created 
before September 11, 2001 and is about bringing every fire department 
up to a base-line level of readiness, which in turn will prepare them 
for large-scale incidents. In addition, this budget request only 
strengthens our argument that Congress needs to take action to ensure 
the program is protected.
    Considering that nearly $3 billion in applications were submitted 
for the current program year and also taking into account a variety of 
recent reports outlining the tremendous needs of America's emergency 
services, including the NFPA Needs Assessment Survey, the NVFC requests 
that this Congress fully fund the program at the $900 million level.

A History of Success

    After this current grant cycle, the Assistance to Firefighters 
Grant program will have distributed nearly $2 billion to almost 16,000 
fire departments across the country for apparatus, personal protective 
equipment, hazmat detection devices, improved breathing apparatus, 
wellness and fitness programs, fire prevention and education programs 
and inter-operable communication systems. This is the basic equipment 
our fire departments need to effectively respond to all hazards. In 
fact, fire service personnel from across the country are reviewing 
applications as we speak at the National Emergency Training Center in 
Emmitsburg, Maryland.
    In FY 2003, the program received $750 million and awarded nearly 
8,700 grants to fire departments. Mr. Chairman, as you know, your home 
state of New York received 354 grants totaling over $34.3 million. 
Ranking Member Gordon, Tennessee received 268 grants totaling nearly 
$20 million. There are no discrepancies as to the location of this 
funding. It is all in the hands of local fire departments. The program 
simply works. The Federal Government is not blaming the State 
government. The State government is not blaming the county and local 
governments.
    Many of these departments who are receiving aid are rural volunteer 
fire departments that struggle the most to provide their members with 
adequate protective gear, safety devices and training to protect their 
communities. In these difficult times, while volunteer fire departments 
are already struggling to handle their own needs and finances, they are 
now forced to provide more services.
    The funding problems in America's volunteer fire service are not 
just limited to rural areas. As suburbs continue to grow, so does the 
burden on the local fire and EMS department. Even though many of these 
departments have the essentials, they are unable to gain access to new 
technologies. At no other time have advances been greater in equipment 
to protect them and make their jobs safer. Yet because the newer 
technology is so expensive, many volunteer fire departments are forced 
to forgo the purchase of the new technology or use outdated equipment.

Conclusion

    The Assistance to Firefighters Grant program is one of the most 
effective programs in the Federal Government because it provides local 
fire departments with the tools they need to respond to any incident 
they may encounter, no matter the origin of the emergency. It ensures 
local support through a matching requirement and allows firefighters 
themselves to play a large role in the process.
    I would like to take this opportunity to thank you, Chairman 
Boehlert, Ranking Member Gordon and the leadership of the Congressional 
Fire Service caucus, including Representatives Bill Pascrell (D-NJ), 
Curt Weldon (R-PA), Steny Hoyer (D-MD), Nick Smith (R-MI), Robert 
Andrews (D-NJ), Chris Cox (R-CA), and Jim Turner (D-TX), for their 
strong leadership on this issue.
    Mr. Chairman, I thank you for your time and your attention to the 
views of America's fire service, and I would be happy to answer any 
questions you may have.

                  Biography for Philip C. Stittleburg

    Phil Stittleburg joined the volunteer fire service in 1972 and has 
served as Chief of the LaFarge (WI) Fire Department for 27 years. Phil 
is also legal counsel to the NVFC, the LaFarge Fire Department and the 
Wisconsin State Firefighters Association. Phil has represented the NVFC 
on numerous National Fire Protection Association (NFPA) standards 
making committees, including ones that set industry standards on 
firefighter health and safety. He served as the NVFC Foundation 
President for twelve years and is a current member of the NFPA Board of 
Directors. Phil is an adjunct instructor at the National Fire Academy 
and a regular contributor to Fire Chief Magazine.
    Phil earns his livelihood as an attorney, which includes serving as 
an Assistant District Attorney on a half-time basis for the last 28 
years. These positions give him an excellent opportunity to work in 
public safety and emergency services in both the law enforcement and 
fire service professions.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Smith of Michigan. Chief, thank you very much. Chief 
Mitchell.

 STATEMENT OF CHIEF ERNEST MITCHELL, PRESIDENT, INTERNATIONAL 
                   ASSOCIATION OF FIRE CHIEFS

    Chief Mitchell. Good morning, Mr. Chairman and Members of 
the Committee. I am Ernest Mitchell, as mentioned, recently 
retired Chief for the Pasadena Fire Department after 33 years 
in the fire service, nearly six of which were as Chief in 
Pasadena. I do appear today as president of the International 
Association of Fire Chiefs, which represents the leadership and 
management of America's fire and emergency services.
    In the invitation, we were asked to address H.R. 4107, 
better known as the FIRE Act, and we do believe that the FIRE 
Act is one of the most important relationships between the fire 
service and the Federal Government. On behalf of the IAFC, I 
commend you and this committee for taking a leadership role in 
this reauthorization. We consistently hear from our members 
that they have a great number of needs to be met. We are 
pleased to note, Mr. Chairman, that this bill would authorize a 
new survey to determine the current level of need in America's 
fire service. We are also very pleased that your bill would 
reauthorize a highly effective Federal Grant Program.
    There are good reasons for the FIRE Act's success, and we 
believe that there are five that are pillars of the program. I 
want to emphasize those five today, to express three concerns 
that we have, and also to offer our support for the 
reauthorization of H.R. 4107. First is those funds go directly 
to local fire departments for the purposes intended. Second, 
grants are awarded on a competitive basis and not on a 
predetermined formula. We cannot appropriately equip this 
Nation's fire service on a one-size-fits-all formula.
    The third pillar of the FIRE Act is that the grant 
applications are peer-reviewed. This means that experienced, 
knowledgeable fire service people are looking at fire service 
grants. The fourth point is that grants are supplemental only. 
They do not supplant local funds. The point of the FIRE Act is 
to raise the capacity of fire departments across this country, 
not to replace line items in local budgets. And the fifth and 
final pillar of the FIRE Act's success is that it requires a 
co-payment by the community, and to us that indicates a 
requirement for community buy-in to the idea of improving fire 
service, and therefore advancing public safety in this country.
    But also perhaps the most prominent thing that unifies 
these five pillars of the FIRE Act is local control. Local fire 
chiefs, in consultation with firefighters and their community 
leaders, decide what is most important to the community. These 
requests are then reviewed by people from local jurisdictions 
across the country, and finally, the local community must buy 
in to the grant by providing matching funds and agreeing that 
federal dollars will not supplant regular local funding to the 
fire service.
    I submit to you, Mr. Chairman, that this consistent level 
of local control lies at the very heart of the FIRE Act's 
success. We do have the three concerns. We are concerned that 
this local control is being eroded. Perhaps one of the most 
obvious examples is the current emphasis by the Office of 
Domestic Preparedness on the fire services' response to 
chemical, biological, radiological, nuclear and explosive 
incidents. Congress has made it clear that the FIRE Act is 
intended to build the basic tools of firefighting in order to 
enhance our all-hazards response. We are concerned that ODP's 
administration on terrorism might undermine this overarching 
goal and begin a morphing or transformation of the FIRE Act 
into a terrorism response program.
    We need to be clear that basic response capacity is the 
foundation of all that the fire service accomplishes. Mr. 
Chairman, I would like to thank you for including in your bill 
a provision to move the FIRE Act back within the jurisdiction 
of the United States Fire Administration. The IAFC supported 
placing the United States Fire Administration in charge of the 
FIRE Act in the initial authorization, and we support it now.
    Our second concern related to the loss of local control is 
the proposed earmark of up to four percent of funding to 
volunteer emergency medical service agencies. The FIRE Act has 
largely avoided earmarks, preferring to let the strength of the 
individual grant applications speak for themselves. And while 
we feel that providing financial assistance to volunteer EMS 
agencies is an admirable and laudable goal, modifying the FIRE 
Act is not the best way to accomplish it. The FIRE Act is meant 
to improve the readiness and response of local fire 
departments. Maintaining this clearly defined purpose is 
critical to the long-term future success of the program. We 
continue to support the FIRE Act as a core fire service 
program.
    And our final concern is about the so-called anti-
discrimination clause that is being placed in the regulations. 
The IAFC believes that discrimination has no part in America's 
fire service, and we have worked hard to eliminate 
discrimination wherever it appears. About 18 months ago, we 
surveyed our members and discovered that a significant number 
of the respondents had been subjected to some form of 
inappropriate peer pressure, harassment or outright 
intimidation regarding their career of volunteer service. We 
challenged our members, the leaders of the fire service, to 
crack down on this inappropriate behavior that undermines in a 
profoundly damaging way individual freedom and the civic ties 
that pull our local communities together.
    We support the right of all citizens to volunteer their 
time and talents to fire and emergency services. We believe all 
Americans have the right to volunteer. It is a noble calling 
and there should be no undue restrictions or reservations 
placed on these rights, regardless of a person's affiliation or 
association. However, we want to be very clear, Mr. Chairman, 
that despite the IAFC's strong position on this issue and my 
own personal support of the volunteer fire service, we do not 
believe that amending the FIRE Act is the best way to resolve 
this issue.
    Ten key fire service organizations at the table agreed that 
the FIRE Act was not the place to resolve these--this and other 
sometimes divisive issues. The FIRE Act is meant to equip fire 
departments with the tools and training they need to do their 
jobs. Keeping this clause in the regulation, if it is allowed 
to stay there, also has the potential to further erode local 
control that we believe is so important to the continued 
success of the FIRE Act. The language appears to be overly 
broad and has the potential to restrict local control.
    In my own experience, I have the ability to annually review 
each employee's outside employment and activities in order to 
assess whether or not a conflict exists. I believe that option 
should also exist for volunteerism. Local policy recognizes 
individual rights, but it also allows for departmental review 
to protect the jurisdiction. As written, this language could 
limit local jurisdiction's ability to limit or control 
volunteerism where there is a need to do so based upon local 
conditions or circumstances. Local chiefs need the ability to 
deny employee participation in outside employee--employment or 
activities that may be in conflict with their primary 
employment.
    I have not chosen to prevent firefighters from 
volunteering. However, if trends or data develop that indicate 
volunteering or some other activity was creating a burden upon 
my city, then I believe that it would be my duty to act in the 
best interest of my employer and move to rectify that hazard. 
My home state of California has a very high Workers' 
Compensation cost, and we need to choose to limit liability and 
manage our risk. And it would be unfortunate if a committee 
could not exert some preventative control over this, should 
they choose to, if a problem was indicated and without 
impacting our ability to achieve or receive FIRE Act Grant 
funding.
    [The prepared statement of Mr. Mitchell follows:]

           Prepared Statement of Chief Ernest Mitchell, Ret.

    Mr. Chairman and Members of the Committee, I am Ernest Mitchell, 
recently retired chief of the Pasadena (CA) Fire Department. I appear 
today as President of the International Association of Fire Chiefs 
(IAFC), which represents the leadership and management of America's 
fire and emergency service.
    America's fire and emergency service reaches every community across 
the Nation, covering urban, suburban and rural neighborhoods. Nearly 
1.1 million men and women serve in 30,000 career, volunteer and 
combination fire departments across the United States. The fire service 
is the only entity that is locally situated, staffed, and equipped to 
respond to all types of emergencies. Members of the fire service 
respond to natural disasters such as earthquakes, tornadoes and floods 
as well as to manmade catastrophes, both accidental and deliberate. As 
such, America's fire service is an all-risk, all-hazard response 
entity.

The FIRE Act Grant Program Works

    Mr. Chairman, in your invitation you asked witnesses to address 
H.R. 4107, your bill to reauthorize the Assistance to Firefighters 
Grant Program, better known as the FIRE Act. The FIRE Act is one of the 
most important relationships between the fire service and the Federal 
Government. On behalf of the IAFC, I commend you for taking a 
leadership role in this reauthorization.
    We consistently hear from our members that they have a great number 
of needs to be met, ranging from pumpers to self-contained breathing 
apparatus to training. We are pleased to note, Mr. Chairman, that your 
bill would authorize a new survey to determine the current level of 
need in America's fire service. We are also very pleased that your bill 
would reauthorize a highly effective federal grant program.
    Congressional, administration, and fire service officials alike 
have called the FIRE Act one of the very best federal grant programs. 
The U.S. Department of Agriculture (USDA) issued a program analysis in 
2003, proclaiming that the FIRE Act works. In USDA's own words, the 
FIRE Act ``has been highly effective in increasing the safety and 
effectiveness of grant recipients. . .99 percent of program 
participants are satisfied with the program's ability to meet the needs 
of their department. . .[and] 97 percent of program participants 
reported positive impact on their ability to handle fire and fire-
related incidents.'' \1\
---------------------------------------------------------------------------
    \1\ U.S. Department of Agriculture Executive Potential Program Team 
6, Survey, Assessment, and Recommendations for the Assistance to 
Firefighters Grant Program, Final Report, prepared for the U.S. Fire 
Administration, Federal Emergency Management Agency, January 31, 2003, 
p. 40 (emphasis removed).
---------------------------------------------------------------------------
    There are good reasons for the FIRE Act's success, and they are the 
five pillars of the program.
    First, funds go directly to local fire departments for the purposes 
intended. There is no opportunity for the money to get bottlenecked at 
intermediate levels as with so much other first responder funding.
    Second, grants are awarded on a competitive basis, and not based on 
a pre-determined formula. We cannot equip this nation's fire service 
with a one-size-fits-all formula. Formulas cannot account for whether a 
particular community is a city with mostly high-rise buildings, or 
whether it is an area out west that is more susceptible to wildland 
fires. Formulas cannot account for local budgets, or the age and level 
of use of the equipment in each of this nation's 30,000-plus fire 
departments. If a fire chief can make a good case for a grant, the 
competitive process will acknowledge that.
    The third pillar of the FIRE Act is that grant applications are 
peer-reviewed. That means fire service people are looking at fire 
service grants. Experienced and informed members of the fire service 
community know what kinds of equipment and training we really need.
    The fourth point is that grants are supplemental only; they may not 
supplant local funds. The point of the FIRE Act is to raise the 
capability of fire departments across the country, not to replace line 
items in local budgets. A local community may not reduce the 
department's budget to offset a FIRE Act grant.
    The fifth and final pillar of the FIRE Act's success is that it 
requires a co-payment by the community. This is really a requirement of 
community ``buy-in'' to the idea of improving the fire service and, 
therefore, advancing public safety. It is a clear demonstration of a 
community's partnership with the Federal Government to increase the 
capability of protecting this nation's critical infrastructure.

Local Control Must Be Maintained

    Perhaps the most prominent theme that unifies the five pillars of 
the FIRE Act is local control. Local fire chiefs, in consultation with 
their firefighters and community leaders, decide what is most important 
to the community. These requests are then competitively reviewed by the 
people that are most familiar with the needs, local fire service 
representatives from across the country. Finally, the local community 
must ``buy-in'' to the grant by providing matching funds and agreeing 
that federal dollars will not supplant regular local funding to the 
fire department. I submit to you, Mr. Chairman, that this consistent 
level of local involvement and control lies at the very heart of the 
FIRE Act's sustained success.
    We are concerned that this local control is being eroded. Perhaps 
the most obvious example is the current emphasis by the Office for 
Domestic Preparedness (ODP) on the fire service's response to chemical, 
biological, radiological, nuclear and explosive (CBRNE) incidents. As 
you are aware, formal management of the FIRE Act was transferred this 
fiscal year from the U.S. Fire Administration (USFA) to ODP. While ODP 
has committed to running the program in substantially the same manner 
as USFA, we are concerned about the strong emphasis on terrorism 
response. Acts of terrorism are just some of the many hazards to which 
America's fire service responds. Congress has made it clear that the 
FIRE Act is intended to build the basic tools of firefighting in order 
to enhance our all-hazards response.\2\ We are concerned that ODP's 
emphasis on terrorism might undermine this overarching goal and begin 
the transformation of the FIRE Act into a terrorism-response program.
---------------------------------------------------------------------------
    \2\ See, for example, appropriations report language for FY 2003: 
``The conferees have agreed to establish this new appropriations 
account for firefighter assistance grants [the Emergency Management 
Planning and Assistance account] so that there will be no doubt as to 
the importance of this program and to protect this program from being 
lost in the morass of the Department of Homeland Security'' (H.R. Rep. 
No. 108-010, Title III (2003) ).

In report language for FY2004, Congress said: ``This committee. . 
.recommends the program remain in the Emergency Preparedness and 
Response Directorate in a separate appropriation so there is no doubt 
as to its importance, and to protect this program from being lost in 
the first responders grant programs'' (H.R. Rep. No. 108-169, Title III 
(2004) ).
    Mr. Chairman, I would like to thank you for including in your bill 
a provision to move the FIRE Act back within the jurisdiction of the 
USFA. The IAFC supported placing USFA in charge of the FIRE Act in the 
initial authorization, and we support it now. The USFA has very 
successfully managed this program, and we commend Administrator David 
Paulison for his outstanding leadership.
    Our second concern related to the loss of local control is the 
proposed earmark of up to four percent of funding to volunteer 
emergency medical service (EMS) agencies. The FIRE Act has largely 
avoided earmarks, preferring to let the strength of individual grant 
applications speak for themselves. While we feel that providing 
financial assistance to volunteer EMS agencies is a laudable goal, 
modifying the FIRE Act is not the best way to accomplish it. The FIRE 
Act is meant to improve the readiness and response of local fire 
departments. Maintaining this clearly defined purpose is critical to 
the long-term success of the program. Setting aside earmarks for 
volunteer EMS agencies would erode this singular focus. Once the door 
has been opened to expand the list of eligible agencies, Congress would 
get requests to further expand the program from EMS agencies affiliated 
with hospitals, third service career agencies, and from private, for-
profit corporations. The FIRE Act would then cease to be a core fire 
service program.
    Our final concern is about the so-called ``anti-discrimination 
clause.'' The IAFC believes that discrimination has no part in 
America's fire service and we have worked hard to eliminate 
discrimination wherever it appears. Eighteen months ago the IAFC 
surveyed our members and discovered that a significant number of them 
had been subjected to some form of inappropriate peer pressure, 
harassment, or outright intimidation regarding their service as 
volunteers. We support the right of a citizen to volunteer his or her 
time and abilities to a fire department. We challenged our members, the 
leaders of the fire service, to crack down on this inappropriate 
behavior that undermines, in a profoundly damaging way, individual 
freedom and the civic ties that pull our local communities together.
    However, I would like to be clear, Mr. Chairman, that despite the 
IAFC's strong position on this issue and my own personal support of the 
volunteer fire service, we do not believe that amending the FIRE Act is 
the best way to resolve this issue. Representatives of 10 key fire 
service organizations addressed this topic in February, when we got 
together to discuss this reauthorization. We submitted a white paper to 
Congress that reflected the consensus we reached on what we think are 
the most important elements of this program. We discussed the issue of 
discrimination. The 10 organizations at the table agreed that the FIRE 
Act was not the place to resolve these sometimes divisive issues. The 
FIRE Act is meant to equip fire departments with the tools and training 
they need to do their jobs.

Conclusion

    In conclusion, I would like to thank you, Mr. Chairman, for 
introducing this bill and for holding this hearing on a most important 
federal grant program. The FIRE Act is an endeavor for which the 
taxpayers and the Federal Government can--and should--be proud.
    I will be happy to answer any of your questions.

                     Biography for Ernest Mitchell

    Chief Mitchell has 30 years of fire service experience, 20 as a 
chief officer and the past 10 as fire chief. An IAFC member since 1987, 
he has served on both the Diversity and Program Planning Committees and 
was a member of the Fire Chief Designation Task Force and a participant 
in the 2000 Strategic Planning Process. A recipient of the 1999 IAFC 
President's Award for service, Mitchell earned Bachelor's and Master's 
degrees in public administration and is Past President of the Foothill 
Chiefs, Los Angeles Area Fire Chiefs and League of California Cities 
Fire Chiefs associations.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Boehlert. Thank you, Chief Mitchell. For 
clarification, let me just say that you mentioned the four 
percent on EMS. Four percent is a maximum, so it is not a set-
aside. It just says that EMS appropriations for whatever grant 
level cannot exceed four percent of the total amount. With 
that, Mr. O'Connor.

 STATEMENT OF MR. KEVIN B. O'CONNOR, ASSISTANT TO THE GENERAL 
     PRESIDENT, INTERNATIONAL ASSOCIATION OF FIRE FIGHTERS

    Mr. O'Connor. Thank you, Mr. Chairman and Members of the 
Committee. My name is Kevin O'Connor, and it is both an honor 
and privilege for me to represent the 263,000 men and women of 
the International Association of Fire Fighters who provide 
fire, rescue and EMS protection to over 80 percent of the 
Nation's population.
    Mr. Chairman, I proudly served for over 15 years as a 
firefighter EMT in the Baltimore County Fire Department, one of 
the finest combination departments in the Nation. Since 2000, I 
have led our association's government and public policy 
division. Today's testimony is bittersweet for me and my 
members. Our union has enthusiastically supported the 
Assistance to Firefighters Grant Program, or FIRE Act as it is 
more commonly referred to, since the concept was in its 
embryonic stages, and we will continue to do so. I recall very 
vividly as a young firefighter sitting around the kitchen table 
bemoaning the lack of federal resources we received, contrasted 
to law enforcement and education.
    Our needs and responsibilities were as great, but at the 
end of the day, we received rhetoric and not resources. This 
program began to change that unfortunate reality. Our friends 
on both sides of the aisle embrace the assistance program, and 
when it was finally authorized, the bill had nearly 300 co-
sponsors. While he is not here today, as my good friend 
Congressman Curt Weldon is fond of saying, we took partisanship 
out of the fire service. Authorizing the FIRE Act and 
promulgating its rules was a collective and cooperative effort 
from day one. All parties, both governmental and fire service, 
career and volunteer, management, labor demand a consensus, and 
for four years, we worked as one.
    The IAFF anticipated working on reauthorization, which is 
sorely needed, I might add, in the same spirit of cooperation. 
All parties agree that as constituted, the program shortchanged 
many larger jurisdictions. Appropriately, this legislation 
begins to address that malady by increasing the maximum grant 
award to $3 million, which makes the program more attractive 
and meaningful to our larger fire departments. Additionally, 
this proposal calls for reducing the match from 30 to 20 
percent for larger jurisdictions. We view this as a very good 
start. Many of our nation's most understaffed, under-trained 
and maximally extended fire departments, such as Philadelphia, 
Cleveland, Buffalo and many others face fiscal exigencies that 
make finding matching dollars difficult, if not impossible.
    The IAFF finds no empirical evidence that suggests that 
larger jurisdictions are financially able to pay a larger share 
of matching dollars than smaller towns. We believe that the 
match should be the same for all jurisdictions. The IAFF 
applauds the sponsors of this legislation for attempting to 
address these concerns. Even with their limited trepidations on 
the match issue, the IAFF would happily champion this proposal. 
Sadly, we cannot. While we support reauthorization, there is 
language included in this bill which causes us to vehemently 
oppose it. The provision entitled Protection of Volunteers from 
Discrimination is the basis of our opposition to this bill in 
its current form.
    My purpose today is not to debate the merits of the 
provision, which I believe was very well intended in the minds 
of its proponents. Our specific opposition is incorporated in 
our written testimony, which has been provided. However, I do 
hasten to caution this committee on two separate and 
independent grounds. First, the purpose of this program was to 
provide necessary grants to fire departments based on need, 
nothing more. By creating a bar, any bar, to a jurisdiction 
seeking a grant in our minds diminishes this program. With 
respect to this specific provision, it will impact 
approximately ten fire departments throughout the entire 
Nation.
    Quite honestly, we believe that we are moving to Def-Con 
Five to address a very, very limited issue. It is opening a 
Pandora's Box which frankly should remain closed. Consider 
this. There are fire departments that don't comply with OSHA or 
NFPA standards. There are fire departments that serve alcohol 
on fire department premises. There are places that elect 
company officers who lack appropriate training. Should we deny 
these fire departments grants? I think not. Grants should be 
based on need, period. No strings, no arbitrary bars.
    Second, and equally deserving to the IAFF, for 10 years, we 
have lobbied this honorable body to secure collective 
bargaining rights for firefighters, and for 10 years, Congress 
has demurred. Now this legislation contemplates using the FIRE 
Act to infringe upon the scope of bargaining in state and local 
subdivisions. In our view, it is ludicrous and it is 
hypocritical. The fact is that Congress had absolutely nothing 
to do with the enactment of these local ordinances. Now the 
legislation proposes limiting rights under local statutes that 
were established without Congressional assistance and are not 
under the auspices of Congress.
    From our many discussions with Congressional staff, this 
action is unprecedented. Many Members of Congress of both 
parties who favor state's rights have told us very pointedly 
that collective bargaining is a local issue. With that in mind, 
I ask for one of two resolutions. First, simply take this 
language out of the bill. Incidentally, all three major fire 
service organizations seated at this table jointly opposed 
including the provision in the original form of the bill. That 
includes the IAFF, the IAFC and in the early stages, the 
National Volunteer Fire Council. Or secondly, in the 
alternative, amend the FIRE Act by specifying that 
jurisdictions that don't provide collective bargaining are also 
ineligible to receive grants.
    In closing, I thank the Committee for its time and 
attention. I sincerely hope that we can work through these 
issues and find common ground to reauthorize this necessary and 
very vital program. With that, thank you very much for your 
time, and I would be pleased to entertain any questions.
    [The prepared statement of Mr. O'Connor follows:]

                Prepared Statement of Kevin B. O'Connor

    Mr. Chairman. My name is Kevin O'Connor, and I serve as Assistant 
to the General President of the International Association of Fire 
Fighters. Before joining the IAFF staff, I spent over 15 years working 
as a firefighter in Baltimore County, Maryland, both as a volunteer and 
paid professional. I had the opportunity to the serve as President of 
the Baltimore County Professional Fire Fighters Association and the 
Professional Fire Fighters of Maryland.
    I appear before you today on behalf of General President Harold A. 
Schaitberger, and the 263,000 men and women of the IAFF. The IAFF is by 
far the largest fire service organization in the Nation, and our 
members protect over 80 percent of the United States population.
    I appreciate this opportunity to share our views on reauthorizing 
the Assistance to Firefighters Grant program, more commonly known as 
the FIRE Act. The FIRE Act was a true landmark in the history of the 
fire service. Prior to its passage, the Federal Government had never 
fully acknowledged a responsibility to help protect the health and 
safety of its citizens from fires and other emergencies. With this 
initiative, the Federal Government for the first time became a partner 
with localities and with America's fire service.
    The program has been a model of efficiency. By sending funding 
directly to local fire departments using a peer-review process, the 
FIRE Act has distributed over $1 billion in just three years. There 
have been more than 15,000 grants awarded to fire departments across 
the Nation. These grants have purchased equipment, provided desperately 
needed training, enhanced firefighter wellness, and educated children 
and others about fire safety. Americans are safer today as a result of 
this program.
    But improvements are clearly needed. When the program was first 
developed, there was a fear that smaller communities and volunteer fire 
departments would not be able to compete with large municipalities for 
grants. As a result, several provisions were added to the legislation 
to ensure that small jurisdictions received a fair share of the 
funding. The IAFF fully endorsed these provisions, and worked with the 
National Volunteer Fire Counsel to address issues of fairness.
    Based on the experience of the last four years, we now know that 
those initial fears were unwarranted, and the protections added to the 
legislation have had a detrimental impact on larger municipalities. 
Fire departments that are composed entirely of professional 
firefighters protect roughly half of the U.S. population, yet last year 
they received only 17 percent of the funding.
    Together with the other national fire service organizations, we 
have put together a proposal to begin to address some of these 
inequities. We are grateful to you, Mr. Chairman, for including some of 
the recommendations in your legislation reauthorizing the FIRE Act.
    With the improvements to the program contained in H.R. 4107, we had 
hoped to be able to come here today to endorse the legislation. Sadly, 
we cannot. The inclusion of an ill-conceived anti-labor provision in 
the legislation has forced us to oppose the bill as currently written. 
We hope that this language will be removed in due course or an 
amendment added which provides similar restrictions on jurisdictions 
that do not provide bargaining rights for firefighters and EMS workers. 
Resolving this one issue will enable us to fully embrace your 
legislation reauthorizing the FIRE Act.
    Before addressing the provision that is the source of our 
objections, allow me to offer some comments about several other 
provisions in the legislation.

Size of Grants

    One of the most important provisions designed to protect smaller 
jurisdictions in the original law was a cap placed on the size of 
grants. By limiting the size of any single grant to $750,000, the 
authors hoped to increase the number of grants that would be awarded. 
Many smaller grants were viewed as better than a few larger ones.
    There were two flaws in this reasoning. The first is simply the 
notion that the same cap should apply to all jurisdictions regardless 
of size. Larger fire departments require more funds, and the cap proved 
to be a disincentive for major cities to participate in the program.
    The second flaw is that the cap fails to consider the different 
organizational structures of volunteer fire departments and 
professional fire departments. Volunteer departments are often 
comprised of a single fire station, while professional departments are 
more likely to have multiple stations. As a result of these different 
systems, the FIRE Act has a built-in bias favoring volunteer fire 
companies.
    Consider, for example, my jurisdiction of Baltimore County. The 
county operates a combination fire service. There are 33 volunteer fire 
companies. While independent, they still fall under the command of the 
Baltimore County Fire Chief. The career service consists of 25 
stations. In terms of response, the career service provides the bulk 
the service. Last year, the 33 volunteer companies responded to 48,159 
fire and EMS calls, while the 25 career stations responded to 128,610 
fire and EMS calls. Yet, under current law, the career side of the 
Baltimore County Fire Department is eligible to receive a single grant 
of $750,000, while the volunteer sector in Baltimore is eligible to 
receive grants totaling more than $24 million.
    Clearly, the cap on the size of grants must be raised and linked to 
population served. We are appreciative of the language in H.R. 4107, 
which addresses this need by creating three levels of grants linked to 
population, with the largest cities eligible for up to $3 million.
    Although we believe this is a step in the right direction, we feel 
obliged to note that it is just a step. The fire departments in 
America's largest cities protect millions of people, while some smaller 
fire departments number their constituencies in the hundreds. Allowing 
the largest areas to apply for only three times more funding in the 
face of such vast disparities in need is a problem we believe will need 
further attention in the years ahead.

Local Match

    Another provision of the law intended to protect smaller 
jurisdictions is a lower local match for communities of less than 
50,000 people. Currently, larger jurisdictions must match 30 percent of 
the federal funds, while smaller communities need only a 10 percent 
match. The 30 percent match has proven to be problematic for many 
communities. For example:

         In Austin, Texas, the City Manager told the local firefighters 
        union that he will never apply for a FIRE grant because he 
        views the 30 percent match as excessive.

         In Philadelphia, Pennsylvania, the city was forced to decline 
        a FIRE grant it had already been awarded because it could not 
        come up with the matching requirement.

         In Cincinnati, Ohio, the city was only able to afford the 30 
        percent match for a flashover simulator it had requested by 
        reducing funding for other fire service needs. As a result, the 
        city has been unable to afford to use the simulator in training 
        exercises. Tragically, a Cincinnati firefighter lost his life 
        in flashover while this technology sat idle in a nearby 
        warehouse.

         In Bethlehem, Pennsylvania, the City Council was poised to 
        vote unanimously to decline a FIRE grant it had been awarded 
        because it could not afford the 30 percent match. At the urging 
        of the local firefighter union, the Council agreed to postpone 
        the vote to give the firefighters a chance to find an 
        alternative. Ultimately, the firefighters were able to convince 
        City Council to float a bond to pay the matching requirement. 
        It was the second consecutive year a special bond was necessary 
        to receive FIRE Act funding.

    H.R. 4107 begins to address this problem by reducing the local 
match for larger areas from 30 percent to 20 percent. While we thank 
you and applaud this step, we encourage a further reduction to create 
parity and place all fire departments on a level playing field.
    The rationale given for the lower match for smaller communities is 
that smaller communities have fewer resources. While that may be 
generally true, smaller communities also have fewer emergency response 
needs, and therefore apply for smaller grants. We are aware of no 
evidence that shows that smaller communities have fewer resources on a 
percentage basis when compared to larger areas.
    Moreover, the notion that smaller means poorer is simply not true 
in many cases. There are affluent rural areas and very poor urban ones.
    We are even aware of some volunteer fire departments that have more 
financial resources than urban professional fire departments. While 
they are likely the exception, some volunteer fire companies have 
proven extraordinarily adept at fundraising. Conversely, elected 
officials in some larger municipalities are either unable or unwilling 
to provide additional resources to fire departments due to severe 
budget shortages and demands for increased spending on a variety of 
other public needs.
    Significantly, we have been unable to identify any other federal 
grant program that has different matches based on population. Such a 
rigid formula has been deemed inapt for federal assistance in other 
areas, and we urge that the FIRE Act similarly adopt the generally used 
practice of a single rate. If different matches are warranted, we urge 
that the distinction be based on more relevant criteria than 
population.

Coordination of Grants in Combination Departments

    One of the challenges facing combination fire departments that 
incorporate independent volunteer fire companies is assuring that the 
different components coordinate their efforts and resources. While 
these issues ultimately need to be resolved at the local level, the 
lack of coordination has implications for FIRE grants.
    In many communities with combination departments, the overarching 
career department and the independent volunteer departments fail to 
share information about their FIRE grant applications. As a result, 
neighboring communities find themselves competing rather than 
cooperating for equipment and training to meet local needs.
    To help remedy this situation, we believe that grant requests that 
emanate from any department that is part of a broader fire department 
command structure should be required to coordinate their grant request 
through the broader authority. This would enable the Chief of a 
department like Baltimore County to ensure that volunteer companies 
within the county are not requesting funds for something the county can 
better provide.

Expansion of the FIRE Act to EMS Providers

    Like the other fire service groups, we have reservations about the 
provision of H.R. 4107 that expands the FIRE Act to agencies other than 
fire departments. While we understand and appreciate the argument to 
include EMS providers in jurisdictions where fire departments do not 
provide EMS, we are concerned that expanding the program to non-fire 
departments will open the door for other public safety agencies, such 
as police departments and private sector response organizations.
    And while we agree that EMS should be a major focus of the FIRE 
Act, we wish to note that the majority of emergency medical services in 
our nation are provided by fire departments. The FIRE Act already funds 
and enhances pre-hospital patient care.
    If you choose to retain this language in the bill, the one 
amendment we urge you to consider is to remove the limitation that only 
volunteer EMS providers are eligible. While not many in number, there 
are public, professional, single role EMS agencies, and there simply is 
no reason to deny them access to this funding solely because they 
choose to hire and pay professional paramedics rather than ask people 
to work for free.

Administering Agency

    One area where we have a slight difference of opinion from some of 
our allies in the fire service is the issue of which agency should 
administer the program. But let me be clear: we agree that the U.S. 
Fire Administration has done an extraordinary job of running this 
program, and we have no objections to returning the program to USFA.
    The only area of disagreement is whether USFA is the only agency 
that can effectively and efficiently administer the program. We believe 
the model and procedures developed by USFA can be replicated, and we 
have received repeated assurances from Secretary Tom Ridge, ODP 
Director Suzanne Mencer and others that whatever agency runs the FIRE 
Act will do so in the same manner as USFA. We have no reason to doubt 
their word.
    The criticisms of ODP are that they lack experience with providing 
funding directly to fire departments and that their emphasis on 
terrorism preparedness is ill-suited to the FIRE Act. These beliefs 
stem from ODP's traditional role, but we believe the agency is capable 
of broadening its mandate.
    In many ways, we find this debate somewhat ironic because when we 
first began lobbying in support of creating the FIRE Act one of the 
objections leveled at the legislation was the USFA had no experience in 
providing grants, and that the agency's history suggested it was ill-
prepared to take on a program of this magnitude. Like the concerns 
expressed about ODP, these criticisms of USFA were legitimate. But we 
responded that we had faith that USFA would rise to the challenge, and 
we are pleased to report that it has done so spectacularly. We 
similarly have faith in ODP's commitment and abilities.
    From the IAFF's perspective, how well the program is run and what 
the funding is used for are more important than which agency 
administers it.

Non-Discrimination Against Volunteer Firefighters

    The reservations we have regarding the foregoing issues, however, 
would not prevent us from endorsing an otherwise positive piece of 
legislation. Our reluctant opposition to H.R. 4107 is based entirely on 
the inclusion of an ill-conceived extraneous provision referred to as 
``Protection of Volunteers from Discrimination.''
    This provision would bar a fire department from receiving FIRE Act 
funding if it contains in its collective bargaining agreement a clause 
prohibiting its firefighters from serving as volunteer firefighters in 
another jurisdiction. While a perhaps well-intentioned effort to 
increase the number of volunteer firefighters, the actual impact of 
this proposal would be detrimental and far-reaching. As currently 
crafted, it is nothing less than an assault on the rights of the 
Nation's professional firefighters, and the process by which bargaining 
rights have been won for thousands of firefighters.
    I would like to begin my discussion of this issue by offering some 
background. First, it is important to note that very few fire 
departments in the Nation, perhaps less than 10, have such clauses in 
their contracts. Most of them have been in place for several years, and 
have never been a source of any controversy.
    Why would a fire department have such a clause in their bargaining 
agreements? While the issues may vary from place to place, I believe 
the most typical answer can be found in the agreement between the City 
of West Allis, Wisconsin and the firefighters union in the city. The 
West Allis example is especially helpful to understand this issue 
because the contract language includes a clear explanation of the 
provision's intent. Allow me to quote from it:

         ``For the reasons stated below the Chief of the West Allis 
        Fire Department shall prohibit employees of the West Allis Fire 
        Department from performing firefighting duties for 
        municipalities operating a paid or volunteer fire department 
        other than the City of West Allis.

                1.  The provision of fire protection services to the 
                public is a dangerous occupation requiring highly 
                trained, capable personnel using appropriate methods 
                and equipment under the direction of experienced 
                supervisors. As such, the performance of fire 
                protection duties without the requisite training, 
                methods, equipment or supervision may threaten the 
                health and well being of employees and the public.

                2.  Employees who perform fire protection duties on a 
                voluntary basis or as the result of outside employment 
                are subject to increased exposure to hazardous 
                conditions that may result in a greater incidence of 
                illness or injury. Consequently, the performance of 
                such duties for other municipalities may have a direct 
                bearing on employee's ability to perform fire 
                protection duties for the City of West Allis.

                3.  State statute has established a presumptive 
                relationship between an employee's fire suppression 
                duties and heart and lung disability the employee may 
                develop. The City of West Allis and its taxpayers are 
                financially liable for the employee's duty disability 
                benefits, and must be confident that such disabilities 
                are the result of the employee's work for the City of 
                West Allis and not for other municipalities.''

    In short, the City of West Allis has chosen to bar its firefighters 
from serving as firefighters in other jurisdictions--either on a paid 
or volunteer basis--to protect the health and safety of the 
firefighters and protect the city's taxpayers against unnecessary 
financial liabilities. For similar reasons, the City of West Allis also 
prohibits firefighters from smoking off duty.
    While I am not entirely clear why the city's desire to protect its 
firefighters and taxpayers is so objectionable, from our perspective 
whether such a prohibition is good public policy or not is beside the 
point. There are much broader issues at stake, and we ask that you 
carefully evaluate the serious implications of the language contained 
in H.R. 4107 before moving forward on this issue.
    First and foremost, placing a restriction on issues contained in 
collective bargaining agreements must be viewed as part of the larger 
issue of collective bargaining rights. As you know, Mr. Chairman, the 
Federal Government does not grant firefighters in our nation the right 
to bargain collectively. Where bargaining does occur, it exists because 
firefighters have won the right at the State or local level.
    For nearly ten years, legislation has been pending before Congress 
to rectify this inequity and grant every firefighter in the Nation the 
right to discuss workplace issues with their employer. We are grateful, 
Mr. Chairman, for your strong support of this legislation. 
Unfortunately, despite support from clear majorities in both the House 
and Senate, Congressional leaders have blocked action on the 
legislation.
    So the provision in H.R. 4107 contains something of a cruel 
paradox. On the one hand, the current position of the Federal 
Government is that it is outside the reach of federal authority to 
grant firefighters bargaining rights; while on the other hand, this 
legislation would have the Federal Government restrict what we can 
bargain over in those places where we have won the right.
    We have to ask: is firefighter bargaining a federal issue or not? 
The double standard inherent in restricting bargaining issues without 
also granting bargaining rights is egregious and unsupportable.
    But this is not the sole reason why the provision of H.R. 4107 
needs to be removed before the legislation can go forward. The language 
also sets two very dangerous precedents.
    First, the language would mark the first time Congress has 
attempted to impose a restriction on fire department policies in order 
to be eligible for a FIRE grant. Currently, the only requirement is 
that a department has a legitimate need. Once we begin the process of 
placing restrictions on how fire departments choose to manage 
themselves, we are leading down a very thorny path.
    I do not mean to imply that the Federal Government has no 
legitimate interest in fire department policies. Indeed, there are 
many, many fire department policies that we believe may warrant federal 
intervention. Our question, however, is whether the FIRE Act is the 
appropriate venue to address these issues.
    For example, many fire departments fail to comply with OSHA 
standards for safe fire ground operation. This failure clearly 
jeopardizes the lives of firefighters, and we believe every department 
should come into compliance with these basic safety standards. Many 
fire stations have bars that serve alcohol to firefighters and others. 
We believe alcohol should never be present in a working fire station. 
And, as noted above, hundreds of fire departments in this nation 
refused to grant rank and file firefighters the opportunity to discuss 
with management their concerns about their own health and safety.
    We believe all of these issues are as important, if not more so, 
than whether a small handful of fire departments have clauses barring 
people from volunteering in other jurisdictions. We have not, however, 
previously advocated using the FIRE Act to address these important 
matters because the program was never intended to compel changes in 
local Fire Department policies.
    Singling out this one restriction for inclusion in the FIRE Act 
breaches a wall of separation, and invites federal micro-managing of 
fire departments. Does this extraneous issue truly warrant a radical 
redefinition of the FIRE Act's purpose?
    The final area of concern is that the language establishes yet 
another precedent with implications far beyond the reach of the FIRE 
Act or, in our view, even this committee's jurisdiction. Since this 
issue arose, we have been researching other federal grant programs, and 
we have yet to find a single instance in which a limitation was imposed 
on a federal grant based on language contained in collective bargaining 
agreements. While there are numerous limitations placed on federal 
grants, we are not aware of any other attempts to redefine the scope of 
bargaining.
    The potential implications for this precedent are staggering. Shall 
Congress address the complex issue of health insurance coverage by 
denying federal funds to employers whose health benefits are deemed 
inadequate? Shall we compel more teacher involvement in student 
activities by cutting off education funding because a teacher contract 
limits the number of evening events teachers can be required to attend 
without additional compensation?
    The issue of how to define the scope of permissible bargaining is 
extraordinarily controversial, and the debate has raged for decades. 
The notion of removing that debate from the context of labor law and 
addressing it through grant limitations is a breathtaking reach. I can 
only conclude that the sponsors of the provision failed to fully 
comprehend the magnitude and unprecedented nature of the language.
    I hope you agree, Mr. Chairman, that this issue is far more complex 
than merely protecting the rights of people to volunteer. It is for 
these reasons, that when the national fire service organizations met to 
discuss a draft version of your proposal, we unanimously agreed to 
request that the provision be stricken. Even the National Volunteer 
Fire Council joined in expressing opposition to the proposal.
    We are, of course, aware that NVFC has changed its position and now 
supports maintaining the language. Let me stress that I do not raise 
this point to criticize NVFC for changing their position. The internal 
dynamics of organizations are often such that we can oppose something 
in draft form, but once a bill is introduced we are compelled to take a 
different stand. I would have done the same if the language were 
something benefiting my members. But that does not detract from the 
fact that NVFC, along with the rest of the fire service, opposed 
inclusion of the language.
    Allow me to make one final point on this issue before concluding my 
remarks. There apparently has been some confusion regarding the 
similarity between the language in H.R. 4107 and the language contained 
in the SAFER Act authored by you, Mr. Chairman, and passed by Congress 
last year. It has been incorrectly claimed that the language contained 
in H.R. 4107 is virtually identical to language we agreed to in SAFER.
    In fact, the language in H.R. 4107 is much broader than the 
language in SAFER. The SAFER provision protecting volunteer 
firefighters against discrimination does not affect collective 
bargaining agreements or fire department policies. The restriction is 
attached solely to the individual firefighter hired with federal funds.
    The language in SAFER is a restriction on the use of federal funds. 
The language in H.R. 4107 is a restriction on the recipient of federal 
funds. These two concepts are so divergent as to preclude legitimate 
comparisons. It is fallacious for anyone to suggest the language of 
H.R. 4107 is the same language contained in SAFER.
    Mr. Chairman, for all the foregoing reasons, I respectfully request 
that the so-called non-discrimination provision of H.R. 4107 be removed 
before moving forward with this legislation. The FIRE Act has had a 
history of support that has united not only the fire service, but 
Members of Congress of both parties. We are optimistic that with the 
removal of this provision, we can return to this spirit of harmony and 
unity, which has been a hallmark of this important program.
    I thank you for your consideration, and would be happy to answer 
any questions you may have.

                    Biography for Kevin B. O'Connor

    Kevin O'Connor currently serves as Assistant to the General 
President of the International Association of Fire Fighters, a labor 
union representing over 260,000 members across the United States and 
Canada.
    In his capacity, Mr. O'Connor supervises the IAFF's Governmental 
Affairs and Public Policy Division, which consists of three constituent 
departments: Legislative Affairs, Public Relations and Political 
Affairs. The Legislative Affairs Department develops policy objectives 
for the International and engages in lobbying efforts before Congress 
and various regulatory agencies. Political Affairs constructs an 
overall strategy to evaluate, endorse and assist candidates favorable 
to the IAFF in federal, State and local elections. The Department also 
oversees FIREPAC, a federally registered Political Action Committee, 
which contributed over seven million dollars through a combination of 
hard and soft money in the last election cycle. The Public Relations 
Department serves a dual role. The primary responsibility of the 
department is publishing the International Fire Fighter, a bi-monthly 
magazine with a distribution of 270,000 copies, and the IAFF Leader, an 
issues-oriented newsletter for the affiliate leadership of the 
association.
    Previously, Mr. O'Connor served concurrently as president of the 
Maryland State and District of Columbia Professional Fire Fighters and 
the Baltimore County Fire Fighters Association, Local 1311, with a 
collective membership of 7,500. Before ascending to President, Kevin 
served as Trustee, Legislative Agent, Vice President and Secretary-
Treasurer. He held the position of Vice President and Chairman of the 
Legislative and Economic Development Committees of the Maryland State 
and District of Columbia AFL-CIO as well as serving as a Director of 
the Baltimore Port Council. For twelve years, Kevin was a Trustee and 
Chair of the two billion dollar Baltimore County Employees Retirement 
System. He served as Chair of the Baltimore County Health Care Review 
Committee, which determined and negotiated all health and insurance 
benefits for that jurisdiction's 12,000 employees. Mr. O'Connor was a 
gubernatorial appointee and Commissioner on both the Maryland Economic 
Development Commission and the Maryland Fire Rescue Education and 
Training Commission. He also served as a Director of the Baltimore 
based First Mariner Bank Corporation.
    Kevin proudly served for fifteen years as a firefighter/EMT in the 
Baltimore County Fire Department, where he saw duty both as a line 
firefighter and as aide to the Chief of the Department. He received a 
commendation for bravery for a rescue during a multiple alarm apartment 
fire. Mr. O'Connor majored in Political Economy at Washington and Lee 
University and graduated from the Harvard Trade Union Program.
    He was honored by the State of Israel Bonds as Outstanding Labor 
Leader of 1999. Upon assuming his role at the IAFF, Mr. O'Connor was 
awarded life membership and the title of President Emeritus of the 
Baltimore County Fire Fighters Association, Local 1311 and the Maryland 
State and District of Columbia Professional Fire Fighters.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               Discussion

    Chairman Boehlert. Thank you very much, Mr. O'Connor. Let 
me start by apologizing that--for being late to this meeting. I 
was engaged in the Committee on Intelligence with General 
Taguba and Undersecretary of Defense for Military Intelligence 
Cambone on a very serious matter involving the War on 
Terrorism. But this subject matter here today involves the 
domestic war on terrorism in a way that you all are all too 
familiar with, and we are determined, this committee and every 
single Member on this committee is determined to make certain 
that we renew one of the most popular and necessary programs 
that this, or previous Congresses, have ever been identified 
with, and we will do that.
    There are few matters that would keep me away, and that is 
why I apologize at the opening. I will submit my statement for 
the record and we will go right directly to the questions and I 
will give the honor of having the first questions to my 
distinguished colleague and Ranking Minority Member while I get 
assembled at my post here.
    Mr. Gordon.
    Mr. Gordon. Thank you, Mr. Chairman. As I had mentioned 
earlier, the FIRE Act includes a provision that for the first 
time in the FIRE Grants Program would impose an eligibility 
condition on fire departments applying for grants. Under this 
proposed language, only fire departments that allow their 
members to volunteer at another department during off hours 
could receive FIRE Grants. This seems a little odd to me in 
that this policy would be so important that it would constitute 
the sole eligibility criterion for fire departments to 
participate in FIRE Grants. And as Mr. Stittleburg or Chief 
Stittleburg noted earlier, there is legislation in Congress 
pending concerning collective bargaining. This would be a much 
better place to put that.
    Also if I could just point out to Chief Stittleburg, he had 
mentioned how there was a precedent with the SAFER Act. Well, 
there is a difference here, a significant difference in that 
the SAFER Act is a hiring program, and so it is tied to 
personnel matters. It is also restricted to the individual 
firefighter who is hired by the SAFER Grant and does not 
require the department change negotiated agreements with other 
personnel, and this Act deals not with personnel but with 
equipment. So I think there is a significant difference there.
    So it looks to me like what is happening here is that--and 
let me point out one other thing. I was looking through this 
Needs Assessment, which is a pretty comprehensive proposal and 
a lot of work has gone into it. Nowhere in this proposal is 
there anything mentioned about this criterion. So it looks to 
me like we have got a problem or rather a solution that is 
looking for a problem. As was pointed out, there are only about 
ten fire departments nationwide that have this prohibition, and 
I know I think the reasons for that, but Mr. O'Connor, why 
don't you tell us a little bit more about why a fire department 
might do this? Again, everyone here wants to encourage the 
volunteer fire departments and volunteerism. But apparently, 
there have been some departments that have found legitimate 
reasons to have this criterion.
    Would you tell us about that, please?
    Mr. O'Connor. Thank you, Mr. Ranking Member. First let me 
begin by stating two things. One, you correctly point out the 
difference between the SAFER language and the language that is 
contained in the FIRE Act. And I might also add that with 
respect to the collective bargaining bill, there is language in 
that provision as well that was worked out with the National 
Volunteer Fire Council that does protect the rights of 
volunteers. But specific to the question in hand concerning why 
fire departments would take an action to prohibit folks from 
volunteering, first, the places that we have been able to 
ascertain throughout the country that have these provisions, 
they were not asked for by our local union affiliates in those 
jurisdictions. They were provisions that were requested by 
management.
    And the reason for that, and in my written testimony, we 
offer the example of West Allis, Wisconsin, is that there are 
provisions across the country were presumptive laws are in 
place, meaning that if firefighters develop heart attacks, 
certain forms of cancer that it is presumed to be job 
connected. Various departments have taken the initiative 
because of these laws to place limits on what firefighters can 
do. In these ten departments, one of the limitations is 
volunteering. However, there are also no smoking prohibitions, 
as well as mandatory fitness clauses as well that the risk 
managers in those jurisdictions wish to employ to limit the 
financial risk to that jurisdiction.
    I might also add, as Chief Mitchell pointed out and in my 
department as well, our fire chief did in fact have the ability 
to restrict part-time employment. For example, in Baltimore 
County, you were not allowed to work in the licensed beverage 
industry, for example, or if you worked in something--some of 
the construction trades that were deemed to be too dangerous, 
the fire chief had the ability to stop you doing that effort. 
So it is all about risk management, as far as we can ascertain.
    Mr. Gordon. Thank you.
    Chairman Boehlert. Thank you. Mr. Connor, just a question 
comes immediately to mind. How many times has the union 
disciplined firefighters for volunteering?
    Mr. O'Connor. We have had language in our constitution and 
bylaws which, through my research, goes back to when our 
organization was first formed in 1918, and throughout the 
course of probably the last 15 years, we can come up with maybe 
seven or eight incidences where people were actually placed in 
terms of a trial board. But in our entire 80-plus year history, 
there has never been an IAFF member suspended from the IAFF in 
the United States for volunteering. We have had some issues 
north of the border, but they involve part-time employment and 
not pure volunteering.
    Chairman Boehlert. Okay. Thank you very much for that. So 
it would indicate that the problem is not as some people would 
portray it, being very real and have to deal with very real 
examples in our everyday life, but it is perceived that it 
might occur sometime in the future. And therefore, you are 
trying to be preemptive in addressing it. Do you want to 
respond? Yeah.
    Mr. O'Connor. Yeah. If I can continue, certainly that 
threat exists. I mean, you know, I can't sit before this 
committee and say that the language is not in our constitution 
and bylaws. But I can say that, empirically, if you look at the 
evidence, it is not something that has constituted a major 
problem, either within our organization in terms of 
disciplining people within the IAFF, or alternatively, in terms 
of jurisdictions placing this in collective bargaining 
agreements, or more importantly, local union affiliates of the 
IAFF choosing to try to negotiate this provision.
    Chairman Boehlert. All right. Thank you very much. Let me 
ask Mr. Mitchell where in the Department of Homeland Security 
structure is ODP? And my understanding is that the 
Administration is in the process of moving ODP out of the Board 
of Transportation and Security directorate and merging it with 
the Office of State and Local Preparedness. What is the status 
of that move and why was a change made, and what if any 
implications will this have for the Assistance to Firefighters 
Grant Program?
    Chief Mitchell. Well, the move as you indicated, Mr. 
Chairman, is--that is the Secretary's intent. I think a formal 
announcement on that consolidation and transfer will be 
forthcoming soon. I couldn't give an exact date, but I would 
assume in the very near future. As far as the impact on the 
operations of this program, I don't believe it will have any 
direct effect whatsoever. The functions and authorities of ODP 
as the primary grant-making agency will continue. I think it is 
just an effort to consolidate the office of state and local 
government coordination and our office, which we collaborate on 
a regular basis anyway, and to create what the Nation's public 
safety community has asked for since the late 1990s as a one-
stop shop where they can find what resources are available to 
assist local governments to enhance their public safety 
capabilities to respond to terrorism and to other general 
public safety daily activities.
    So I would propose that there will be no change whatsoever 
on the day-to-day operations of this or any other program that 
ODP administers.
    Chairman Boehlert. Mr. Paulison, and you too, Mr. Mitchell, 
describe the level of coordination between your two shops in 
administering the program this year, as well as a transition in 
responsibility. Mr. Paulison, you are first up on that.
    Mr. Paulison. My number one goal when we were starting to 
make the transition happen is to make sure that the FIRE Grants 
were as successful during the transition, after the transition, 
as they were before the transition. So the level of cooperation 
was significant. We were in lock step with the Office of 
Domestic Preparedness at every step of the way, with not only 
Andy Mitchell but Sue Metzger, who oversees that entire 
organization. There has been excellent cooperation on both 
sides, both sides committed that the goal is to make sure that 
the grants would proceed as they have been in the past and be 
as successful as they have been in the past. And we have put 
our personalities aside. We have put our personal agendas aside 
and made it happen. So I am very pleased with the transition 
and with the cooperation.
    Chairman Boehlert. Mr. Mitchell.
    Mr. Mitchell. Well, I would certainly echo that, Mr. 
Chairman. I mean, Dave and his staff have just been 
outstanding. I mean, they are--it has been as pleasant an 
enterprise as you could imagine under the circumstances, and I 
would certainly assume, and I don't see any reason to doubt 
this, that this current level of collaboration and cooperation 
will continue in the future. We don't see this as a beginning 
and an ending process. We see this as really the first step in 
an ongoing collaboration with David and his staff on this and 
other programmatic aspects that we deal with that deal with the 
fire services.
    Chairman Boehlert. So you want to retain the heart and soul 
of the present structure?
    Mr. Mitchell. Yes, sir. I mean, we are not going to change 
anything. I mean, we made that commitment--I mean, the 
Secretary has made that commitment in appropriations hearings 
and others. We will continue the program as it is administered 
currently. We will continue to use the peer-review process. We 
used the exact----
    Chairman Boehlert. Well----
    Mr. Mitchell. Even housed it in the same place this year.
    Chairman Boehlert. It said, rough paraphrase, that success 
has many fathers. Failure is an orphan, and I claim partial 
credit for the parentage in this program because I was an 
earlier pusher along with a number of my colleagues in the 
Congress on both sides of the aisle. But one of the great 
attributes of this program is that quite frankly, the grubby 
hands of the politicians--we don't have our fingerprints all 
over this. It--where the firefighters themselves and 
organizations involved that set the criteria. There is a peer-
review process where the selection is made, and I like the fact 
that you can't have some influential Member of Congress call up 
and say I want a grant for this or that. That is not the way 
the system works, nor should it.
    So this has done enormous good across the country, and I 
want it to continue with its journey on the same path, with the 
same basic thrust and the grants going direct to the 
departments and we are determined to make certain that happens, 
or we will get that through this Congress. So we will have a 
seamless continuation at the end of this fiscal year and the 
program won't go awry at the beginning of the new fiscal year. 
There will be a program.
    Mr. Smith--and Mr. Smith, thank you very much for assuming 
the chair because first of all, you got it the old-fashioned 
way. You have earned it. You have been a real leader in these 
programs, and I want to thank you publicly for all that you 
have done. Mr. Smith.
    Mr. Smith of Michigan. Let the record show, Mr. Chairman, 
that I did a good job substituting for you in the effort.
    And, you know, as Chairman of the Research Subcommittee 
that oversees the United States Fire Administration, in the 
year 2000, after meeting with fire departments, I wrote the 
mandatory language to the Defense Appropriation Bill, and then 
I took it to important Congressmen like Steny Hoyer and Curt 
Weldon, and of course you, Mr. Chairman, as well as Mr. 
Pascrell and Mr. Andrews, and we met with some of the fire 
services. We perfected the language and we introduced it. It 
got passed into law. It started out as $100 million a year. 
This legislation moves it up to $900 million a year, very 
appropriate, still way under-funded compared to what we do for 
law enforcement in those rural communities.
    Mr. O'Connor, it seems like I hear you saying--I mean, the 
current FIRE Grant Program expires at the end of this year. Do 
I understand you to say that you would rather have no FIRE Bill 
than passing this bill, as written?
    Mr. O'Connor. No. As I said in my testimony and my written 
statements, we will continue to support authorization. But we 
find this language does--very, very offense and we would like 
to see it removed.
    Mr. Smith of Michigan. And Mr. Mitchell, you thanked Mr. 
Paulison for the cooperation that he has given you in 
administering this program. It is my hope that the bill as 
written will pass and that a year from now, Mr. Paulison will 
thank you for your cooperation for the--returning this 
administration back to USFA.
    I see a great danger in the potential challenges in the 
future of having FIRE Grant money to combat terrorism, and as 
the potential for increased threat of terrorism comes, then if 
the program is operated in the same department, the temptation 
is going to be taken away, it seems to me. At least there is a 
danger there of why this program was funded, and that's what 
Mr. Shannon and his organization showed is the tremendous need 
for basic firefighting equipment and training throughout the 
United States, and hopefully, that can be a continued 
dedication and to insure that a little more wall of separation 
in terms of how it is administered and hopefully, your staff, 
Mr. Paulison, will be returned to the USFA to continue the good 
administration of this program.
    I would like to say that just to encourage all of the 
firefighting organizations, we have the chance that the issue 
on volunteerism not become so adamant that it disrupts the 
tremendous cooperation that we have. As you know, there is 
strong feeling that some of these volunteer departments are 
tremendously helped by full-time career individuals that can 
give some of the advice to these small--maybe smaller 
departments where they are volunteering in their home district.
    So it is a strong feeling with some of us that they should 
be allowed to have done that, and I appreciate the--maybe the 
goal of the full-time departments, the union departments to 
expand union activities maybe with some of the volunteer fire 
departments. But I hope this doesn't come to the point of being 
such a conflict that it will disrupt the tremendous cooperation 
we have had, because we have got a unique opportunity right now 
it seems to me where public opinion is so strongly supportive 
of our volunteer efforts and our full-time efforts that they 
are going to cooperate.
    And we need more cooperation and support at the local 
level, at the state level, and with this bill, we will move 
ahead at the federal level. In conclusion, I guess my question 
is to you, Mr. Shannon, and that is what--in terms of need of 
those fire departments, how much should--how far should the 
Federal Government go in helping with those needs, as opposed 
to the local municipalities and State Government? What is a 
correct balance, in your mind?
    Mr. Shannon. I think that is the key question that is at 
the core of this whole discussion, Mr. Smith. I would just say 
a couple of things about that. One is we are in a very 
unprecedented point in history because this is the first time 
in history where Washington has said to the fire service look, 
there is an international threat out there that you have to be 
prepared for, as well. It isn't enough that you just address 
the fire needs of your local community. You have got to be 
prepared for biological attack and nuclear attack and you have 
got to train for incidents that you didn't expect to have to 
face.
    And what the Needs Assessment pointed out was the fact that 
if you took basic kinds of terrorist threats and asked the fire 
departments are you ready to deal with this--and I am not just 
talking about smaller communities. But big cities, smaller 
communities, urban communities, rural communities, there is a 
lack of preparedness because the resources are not available. 
So really view the FIRE Act--I hope that the FIRE Act is here 
forever. I hope this Grant Program is here forever because I 
think it is going to be needed forever.
    But at this point in history, the principal purpose of this 
is to help to get these fire departments up to the point where 
they can address this need that we have said they have to be 
prepared to address. So I think it is crucial--if we are going 
to get there, I think there is going to be a continuing need 
for support from the Federal Government, but at this point in 
history, I think that the level of funding that we are looking 
for in this legislation, $900 million is indisputable.
    Mr. Smith of Michigan. And Mr. Mitchell, we--you are going 
to submit your detailed suggestions for the bill in writing. We 
will be taking this bill up in the next few weeks in my--the 
Subcommittee on Research, and then I think the Chairman intends 
that we move it rapidly to the Floor, so we will consider and 
review all of your suggestions on this bill. With that, Mr. 
Chairman, thank you.
    Chairman Boehlert. Thank you very much, and now we are 
going to pause just a moment to welcome a good friend and a 
strong supporter of the firefighters, the distinguished 
Minority Whip of the House, Mr. Hoyer, who is also a Vice-
Chairman or Co-Chairman of the Congressional Fire Services 
Caucus and one who has been with us on a bipartisan basis from 
the beginning, fighting in the trenches, and this is the 
positive result we have; a great program that is being used 
very wisely to the benefit of the American people.
    With that, let the Chair recognize Mr. Hoyer, then we will 
resume questioning.
    Mr. Smith of Michigan And for photographs, would somebody 
put Mr. Hoyer's sign in front of him?
    Mr. Hoyer. We Irishmen stick together. Mr. Chairman----
    Chairman Boehlert. You----
    Mr. Hoyer. Oh, okay. I am fine.

                                Panel 3:

STATEMENT OF HON. STENY H. HOYER, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MARYLAND

    Mr. Hoyer. Mr. Chairman, Mr. Smith, Mr. Moore, Mr. 
Gutknecht, thank you very much for giving me this opportunity 
to testify before the Committee. Let me say that I appreciate 
the Chairman's remarks and I, much more than that, I appreciate 
the Chairman's leadership. I appreciate Chairman Smith's 
leadership on these issues. We of course all work for Curt 
Weldon. We all understand that, but the fact of the matter is 
Rob Andrews, Bill Pascrell--Bill Pascrell, I think should be 
noted, was really the principal cajoler and pusher and, in his 
own inimitable style, threatner of all of us that we can get 
this done. We can put--as Jim Shannon said, put very 
substantial money into a FIRE Grant Program.
    I appreciate the opportunity to share with you my views on 
H.R. 4107. I would also like to express my gratitude to, as I 
said, Chairman Boehlert, for his extraordinary leadership as 
Co-Chair of the Fire Service Caucus. We have had the 
opportunity to work through the years, along with Mr. Smith, 
Mr. Andrews, Curt Weldon, Mr. Pascrell and others. Senator 
Sarbanes of course on the Senate side and Senator McCain have 
been giants in terms of this program, as has Senator Biden and 
others.
    As Co-Chairs of the Congressional Fire Service Caucus, we 
have worked together and with the fire service during the past 
several months to craft what I think is a very good piece of 
legislation. It is not exactly what everybody would like, but 
it is close enough to be I think one of the most bipartisan 
bills we are going to pass in this Congress. I am extremely 
proud of the bill we have introduced. You know, not only 
reauthorizes, but also makes some significant improvements in 
the program. I know you have already heard from the 
distinguished panel of witnesses. I have heard sort of the 
tail-end of the testimony that they have given, and you have 
heard about the specific impact, with the provisions like 
increasing the size of awards and reducing local matching we 
will have on this program and on the volunteers, as well as 
career departments.
    So rather than cover the ground again, which I am very 
supportive of all the provisions, I will focus my remarks on 
two specific issues that are particularly important to me, 
which may not have been referenced, although I understand may 
have been referenced by the Chief, and I will mention that, as 
well. And that--they are the particularly--the Grant Program 
and expanding eligibility to include separate, nonprofit 
emergency medical services, or EMS squads. Both the 
jurisdiction, which has been spoken to as to who is going to 
oversee, and I liked Mr. Smith's remarks, so that we are going 
to be congratulating Mr. Paulison on his outstanding leadership 
on this program in the years ahead.
    The 2004 program guidance for the FIRE Grant Program makes 
clear that the Department of Homeland Security will make grants 
to enhance the safety or effectiveness of firefighting, rescue 
and EMS functions. Specifically, EMS departments are eligible 
to receive funding for equipment ranging from defibrillators, 
decontamination systems to basic and advanced life support 
equipment, so that currently on the program, if they are in the 
fire department, they can get a grant. The problem is, of 
course, in some small percentage both in career EMS departments 
and volunteer EMS departments, they are a separate entity and 
have been adjudged not to be eligible.
    I am pleased that my colleagues that they would--they 
should be eligible and I am also pleased and was very 
supportive of limitations on that, because we want this to 
continue to be a departmental program. As you know, the vast 
majority of EMS squads in the U.S. are part of a local career 
or volunteer fire departments, as I have said. Under current 
law, they are eligible, but separates are not. I am going to 
skip over and we will include that in my testimony.
    Last year--now skipping to the second subject of 
jurisdiction of who runs this program. And this is not a 
criticism of the Homeland Security or the Department that is 
now given the authority. But over the objection of many of us, 
jurisdiction over the Assistance to Firefighters Grant was 
moved from the United States Fire Administrator to the 
Department of Homeland Security's Office of Domestic 
Preparedness. We believed it was working very well. And Mr. 
Chairman, I think we can all be proud of the fact, as you 
observed correctly, that it has not been a political program. 
It has not been a Steny Hoyer or Sherwood Boehlert could pick 
up the phone and say give X dollars to our department.
    That is not what this was set up for. It was to make a 
peer-review system that gave to those most in need where we 
would have the most effect on the safety of our people. I think 
it has worked that way. ODP is, of course, the Federal 
Government's lead agency ``responsible for enhancing the 
capacity of state and local jurisdictions to respond to and 
mitigate the consequences of incidents of domestic terrorism.'' 
That is a specific but very broad-based assignment. While this, 
of course, one of the most critical challenges our government 
faces today, and for what--one for which I have consistently 
sought increased levels of funding, it is not the intent or 
objective of the FIRE Grant Program, which is more specific.
    The program was created by Congress and has in fact been 
administered by USFA as a source of federal funding designed to 
bring our nation's career and volunteer firefighters to a 
baseline of readiness to respond to all hazards. During the 
past three years, we have provided the most basic firefighting 
and emergency response needs, ranging from turnout gear and 
breathing apparatus to improved firefighter training and 
physical fitness programs.
    I am concerned, as all of us were who drafted this bill, 
that under the jurisdiction of the Office of Domestic 
Preparedness, the FIRE Grant Program may lose this focus on 
preparing departments for all hazards, and instead become 
focused on meeting the Homeland Security needs of our first 
responders. Again, this is not a criticism of ODP that oversees 
this. It is, however, a strong belief that we all shared that 
the focus would be better in the Fire Administration. Back in 
this fiscal year 2005 budget proposal, when talking about the 
FIRE Grant Program, the President specifically recommends that 
ODP, and I quote, ``place greater emphasis on the unique role 
of federal funds, particularly for terrorism and 
preparedness,'' so that in the budget presentation, it shifts 
the focus that we had when we adopted the FIRE Grant from a 
general to the specific on terrorism.
    In light of these concerns and taking into account USFA's 
outstanding record of administering this program--and as you 
know, Mr. Chairman, we gave Mr. Paulison an award this year for 
the outstanding job that he and his office are doing as a 
result, we have urged and I hope that we adopt the transferring 
back of this program under his jurisdiction. I firmly believe 
that by doing so, we will guarantee that it remains designed to 
meet the everyday needs of men and women serving our nation in 
the fire service. We ask far too many of them to risk their 
lives in our defense every day, with insufficient training in 
some instances and inadequate equipment in some instances, and 
we have an obligation, a duty, a responsibility to provide them 
with the necessary resources to perform their jobs as safely 
and effectively as possible.
    That was our intent in the FIRE Act. We think that it will 
be carried out under the administration of the United States 
Fire Administration and Mr. Paulison, and I am pleased to have 
had this opportunity to testify before you and look forward to 
working as soon as possible--and I know that the Chairman and 
Chairman of the Subcommittee will bring this legislation to the 
Floor as soon as possible, to seeing this pass and have the 
President sign it as quickly as possible, and I thank the 
Chairman for his time.
    [The prepared statement of Mr. Hoyer follows:]

          Prepared Statement of Representative Steny H. Hoyer

    Mr. Chairman, Members of the Committee, I appreciate the 
opportunity to share with you my views on H.R. 4107, which reauthorizes 
the Assistance to Firefighters Grant Program through fiscal year 2007.
    I would also like to express my gratitude to Chairman Boehlert, 
Curt Weldon, and Nick Smith, who along with Bill Pascrell and Rob 
Andrews, have demonstrated such leadership on issues of importance to 
our nation's fire and emergency services personnel.
    As co-chairs of the Congressional Fire Services Caucus, we have 
worked together, and with the fire service, during the past several 
months to craft this important legislation.
    I am extremely proud of the bill we have introduced, which not only 
reauthorizes, but also makes significant improvements to, the 
enormously successful Assistance to Firefighters Grant Program.
    I know you have already heard from the distinguished panel of 
witnesses about the specific impact that provisions like increasing the 
size of awards and reducing the local matching requirements will have 
on career and volunteer departments across the country.
    So rather than cover that ground again, I will focus my remarks on 
two specific issues that are particularly important to me--jurisdiction 
over the grant program and expanding eligibility to include separate, 
non-profit emergency medical service--or EMS--squads.
    The 2004 program guidance for the Fire Grant Program makes clear 
that the Department of Homeland Security will make grants ``to enhance 
the safety or effectiveness of firefighting, rescue, and EMS 
functions.''
    Specifically, EMS departments are eligible to receive funding for 
equipment--ranging from defibrillators and decontamination systems to 
basic and advanced life support equipment--training--for hazmat and 
mass casualty response, advance rescue and EMT certification--and even 
ambulances and rescue vehicles.
    There is no question that this training and equipment will 
ultimately save lives by better preparing EMS personnel to respond to 
the scene of a fire, automobile accident, or other manmade or natural 
disasters.
    Unfortunately, this training and equipment is not currently 
available to all EMS departments across the country.
    Mr. Chairman, as you know, the vast majority of EMS squads in the 
U.S. are part of the local career or volunteer fire department. And 
under current law, these departments are eligible to receive grants for 
the types of training and equipment I outlined earlier.
    But there are as many as 3,000 communities across the country, 
primarily small towns, many in rural areas, that maintain EMS and 
rescue squads that are separate and distinct from the local fire 
department. Let me be clear--these EMS departments do not represent a 
redundant capability in these communities.
    The fact is that they perform vital rescue and life saving missions 
that are not carried out by the local fire departments. But they are 
currently ineligible for much-needed assistance for no other reason 
than the manner in which the community has organized its firefighting 
and emergency response departments.
    Mr. Chairman, we have an obligation to ensure that every community 
is served by properly trained and adequately equipped emergency 
services personnel, not just those communities that have combined fire 
and EMS departments.
    I am pleased that H.R. 4107 expands eligibility to include these 
separate EMS squads, thereby resolving one of the few shortcomings in 
the Fire Grant Program.
    Another flaw in the Fire Grant Program addressed by H.R. 4107 is 
the new location of the program within the Federal Government.
    Since the program's first year of funding in 2001, the U.S. Fire 
Administration, ably led by David Paulison, has been widely praised for 
the effective and efficient manner in which it has administered the 
funds and awarded grants to the most deserving applicants.
    During the past three years USFA has made nearly 17,000 grants 
totaling more than $1.1 billion--without yet having begun to distribute 
the $750 million appropriated by Congress for fiscal year 2004.
    But those FY04 dollars will not be administered by the Fire 
Administrator, despite its proven record of management over this 
program.
    Last year, over the objections of many of us in Congress, 
jurisdiction over the Assistance to Firefighters Grant Program was 
moved from the U.S. Fire Administrator to the Department of Homeland 
Security's Office of Domestic Preparedness.
    ODP is the Federal Government's lead agency ``responsible for 
enhancing the capacity of State and local jurisdictions to respond to, 
and mitigate the consequences of, incidents of domestic terrorism.''
    While this is of course one of the most critical challenges our 
government faces today, and one for which I have consistently sought 
increased levels of funding, it is not the intent or objective of the 
Fire Grant Program.
    This program was created by Congress, and has in fact been 
administered by USFA, as a source of federal funds designed to bring 
our nation's career and volunteer firefighters to a baseline of 
readiness to respond to all hazards.
    During the past three years we have provided the most basic 
firefighting and emergency response needs--ranging from turnout gear 
and breathing apparatus to improved firefighter training and physical 
fitness programs.
    I am very concerned that under the jurisdiction of the Office of 
Domestic Preparedness, the Fire Grant Program may lose this focus on 
preparing departments for all hazards, and instead become focused on 
meeting the homeland security needs of our first responders.
    In fact, in his fiscal year 2005 budget proposal, when talking 
about the Fire Grant Program, the President specifically recommended 
that ODP ``place greater emphasis on the unique role of federal funds, 
particularly for terrorism preparedness.''
    In light of these concerns, and taking into account USFA's 
outstanding record of administering this program, H.R. 4107 returns 
jurisdiction over the Assistance to Firefighters Grant Program to the 
U.S. Fire Administration.
    I firmly believe that by doing so we will guarantee that it remains 
designed to meet the every day needs of the men and women serving our 
nation in the fire service.
    We ask far too many of them to risk their lives in our defense 
everyday with insufficient training and inadequate equipment, and we 
have an obligation to provide them the necessary resources to perform 
their jobs as safely and effectively as possible.
    Chairman Boehlert, Members of the Committee, thank you again for 
the opportunity to provide my views on H.R. 4107, and I look forward to 
working with you to ensure passage of this legislation.

                               Discussion

    Chairman Boehlert. Thank you very much for your testimony 
and thank you very much for your leadership. We appreciate it. 
And I understand you have to go to another important 
engagement. Now the Chair will recognize for questioning Mr. 
Moore.
    Mr. Moore. Mister--or Congressman Hoyer, I really do, and I 
mean this, appreciate the bipartisan nature in which this 
committee specifically operates, and I think it is--for the 
51/2 years I have been in Congress, it has always been that way 
and I really appreciate that, and I think the American people 
appreciate that, as well. But sometimes there are legitimate 
issues that come up that are expressed and I want to raise one 
here.
    I did receive a letter from the International Association 
of Fire Fighters, the General President, expressing concern 
about H.R. 4107 and supporting overall the intention of H.R. 
4107 and the intention of this bill. But also about a provision 
that has, he says, ``forced us to oppose the legislation as 
currently drafted.'' And what he says here, and I just want to 
read a portion of this. ``We are especially concerned about the 
provision because it purports to have an innocuous goal; 
insuring that provisional firefighters who choose to volunteer 
in another jurisdiction during their off-duty hours are not 
discriminated against,'' and he says, ``In reality, the 
legislation is a direct assault on the collective bargaining 
rights of Nation's firefighters.'' And in the beginning of his 
letter, he says he represents 265,000 professional 
firefighters.
    My question to you or the other members of the panel is, is 
there a way to resolve this concern consistent with the 
provisions of the bill?
    Mr. Hoyer. This was a provision that was not my provision, 
but it is a provision that I am comfortable with. I want to say 
that. I know that I have differences with Kevin O'Connor, of 
course, my close friend from Maryland, Former President of our 
State Association, leader in Baltimore County, and I have had 
discussions with Mr. Schaitberger, also my very good friend, on 
this issue, and he feels strongly about it. I understand that. 
The answer to your question is there are other ways to mitigate 
that. I would hope that there would be discussions about that.
    This was not, and I underline, not directed at the union. I 
am a very strong, committed, unwavering supporter of collective 
bargaining rights for our firefighters and for others, as well, 
but particularly in this instance for our firefighters. Having 
said that, this is not directed at the union but at 
jurisdictions, as you----
    It just doesn't mention the union. Now I think Mr. 
Schaitberger would say perhaps if he were here that is a 
distinction without a difference to the extent that it impacts 
on union policy. There is a provision in the International 
Association of Fire Fighters' constitution that a paid career 
person in one jurisdiction cannot volunteer in another. I 
understand that provision. Frankly, I--and as I have told Mr. 
Schaitberger, the problem--and Mr. O'Connor, the problem I have 
is that many of the people in my area--I am covered by 
Mechanicsville. That is my volunteer fire department. They keep 
my house safe and they have a rescue squad that is willing--I 
had a very bad accident four or five years ago, and they came 
on scene.
    A number of them have gone to work either in Prince 
George's County or the District of Columbia as career 
firefighters, and they started out as 16 year olds working in 
the Hollywood or the Mechanicsville Volunteer Fire Department, 
and they want to continue that activity. And that is what that 
provision speaks to. But I understand it is controversial. I am 
very sympathetic to the interest of the union obviously taking 
jobs away from fellow union members by volunteering. It is not 
something that can be promoted by the organization.
    In addition, Mr. Schaitberger does raise an issue as it 
relates to jurisdiction, and that is the liability issue, 
Workmen's Compensation, and other insurance issues related to 
an injury as a volunteer impacting on the career benefits that 
may not then be available. I think those are legitimate issues. 
I don't have interest to all of them, but I would answer to the 
gentleman that I am supportive of the bill, as written.
    Mr. Moore. Thank you, Mr. Hoyer, and I do want to say I 
learned a long time ago, there are at least two sides to every 
issue, and sometimes, many more. And so I think it is helpful 
to have this discussion and I appreciate your comments. 
Anybody--any of the other witnesses have a comment there, I 
would just like to hear from you. Yes, sir. Chief?
    Chief Stittleburg. Yes, sir----
    Mr. Smith of Michigan. [Presiding] Chief, before you start, 
Steny, did you want to be excused?
    Mr. Hoyer. Let me just stay for a couple of minutes, and 
then I have to go back to my own--another Committee, then--but 
I thank you very much for that----
    Mr. Smith of Michigan. Okay.
    Mr. Hoyer.--thoughtfulness.
    Mr. Smith of Michigan. Chief.
    Chief Stittleburg. Mr. O'Connor has passionately presented 
the position of his organization, but when asked very 
pointedly, is this a deal-breaker as far as the FIRE Act is 
concerned, his answer was no. Let me assure you that from our 
standpoint, the answer likewise is no. The FIRE Act is much too 
important to be lost over any individual provision. Having said 
that, I can assure you we are as passionate in our position as 
Mr. O'Connor is in his. Congressman Gordon a little earlier 
distinguished this bill from the SAFER Act, which as you know 
has very similar language, and he tried to distinguish it by 
saying that well, the SAFER Act actually is a hiring bill and 
therefore is different from this. And I would suggest to you, 
sir, that to the volunteer fire service, the FIRE Act also very 
much is a hiring bill in the sense that being able to provide 
volunteers and protect the right to volunteer is indeed a 
hiring or a personnel preservation issue with us also.
    Mr. Hoyer. Mr. Chairman, before I leave, and I will leave 
and I thank you for the opportunity to do so, let me say to 
both Mr. Schaitberger, who is not here, but to Mr. O'Connor and 
to Chief Stittleburg of the volunteers, both of these 
organizations have been extraordinary in their willingness to 
work together obviously with differences, but nevertheless, 
with the larger good in mind. Everybody wins under this bill, 
but that does not mean that everybody got what they wanted. We 
understand that. But I want to thank both Harold Schaitberger 
and Chief Stittleburg and the volunteers and everybody else for 
their willingness to sit down at the table and come to 
agreement, realizing that there are--still remain differences, 
but that the overall good, as you point out, is one that we all 
want to attain.
    Thank you very much, sir.
    Chief Stittleburg. Thank you.
    Mr. Smith of Michigan. And Steny, just--I think it should 
be reinforced that the bipartisanship on this FIRE Grant 
legislation and the fact that at our meetings, it was--both 
Republicans and Democrats tried to grasp onto what is the kind 
of legislation that we might move forward. So it seems to me 
that it would be a real shame, not only to have any hard 
feelings between the volunteers and the full-time, but also 
that it--the danger of becoming a partisan issue.
    Mr. Hoyer. Thank you.
    Mr. Smith of Michigan. Mr. Hoyer, thank you very much, and 
we will proceed with questions, Mr. Mitchell, if we can, and 
any question that is asked to you, what we do in most of my 
committees, you are not obligated to answer the question asked, 
but you can say what you want to say to convey to the 
Committee. And with that, I am going to go to Mr. Gutknecht.
    Mr. Gutknecht. Well, thank you, Mr. Chairman, and this has 
been a very interesting discussion, and I want to thank all of 
you for coming.
    I am a Member of the Budget Committee and, you know, we 
could all give lots of stories in our local districts of how 
much good these grants have done, and I have been at a number 
of my fire halls, both those who are managed by full-time 
professionals and those who are run by volunteers, and I have 
to tell you in every case, these have been well received. And I 
think they are going to make a real difference. I will say this 
though, and I am going to vote for this bill, and I understand 
that there are differences on certain policies and so forth 
that are included.
    But I do want to make this point, and that is that on the 
Budget Committee, we are now wrestling with how do you cram, 
you know, $1.9 trillion worth of requests into a $1.7 trillion 
package? And so I hope you won't be, you know, disappointed if 
you don't get the full appropriation that this bill may call 
for, and that is not in any way to say that all of those 
dollars won't be--or wouldn't be well spent. It is just that we 
have an awful lot of requests, and one of them that we are 
dealing with right now is that more and more of our 
shareholders out there are saying that they want us to do a 
better job of balancing the budget. So I appreciate all that 
you do. You--the testimony and the discussion has been 
fascinating. I want to thank you for coming.
    I just want to let you know that it is not because we don't 
believe in this program. It is just that we are--we have got an 
awful lot of competing interests out. We are looking at the 
Federal Budget, and we are going to do the best we can. Thank 
you very much.
    Mr. Smith of Michigan. Mr. Sherman.
    Mr. Sherman. Thank you. I want to join Mr. Moore in his 
concern about the one provision. It seems like a very undue 
imposition by this Congress on the policies of local fire 
departments. If the City of Los Angeles, in conjunction and 
discussion with surrounding communities, decides to have a 
policy that says if you work for our fire department, you 
shouldn't volunteer for another one, who in Washington is 
qualified to come into my county and say that is bad fire 
policy? It may be good in some areas. It may be bad in others.
    But for those defending that provision to tell my county 
what to do, most of whom have never been there and certainly 
have never been there to evaluate our fire protection needs 
seems absurd, and I would hope that anybody who has some 
respect for our federal system will ultimately vote to remove 
that provision. I see that Mr. O'Connor is here, and perhaps 
you can address this controversial provision in what is 
otherwise a pretty non-controversial bill.
    Mr. O'Connor. Well, as I stated in my testimony and I 
believe the question in response to Congressman Smith, we 
really do look at this as a process-type issue. I mean, this is 
clearly in the realm of public debate and it should remain in 
the realm of public debate, and historically, we have addressed 
it in two other pieces of legislation. One authorization, which 
was enacted into law last year, the SAFER Act, which has been 
oft-referenced, and secondly, our collective bargaining bill. 
And clearly, it is an issue in which we have had multiple 
conversations with the National Volunteer Fire Council and 
frankly have addressed some of their concerns in those two 
pieces of legislation.
    Our concern here is that we do think it is treading down a 
very perilous path in the fact that this program was done very, 
very cooperatively over the years, and I--we really do feel it 
was based sorely on need. There are many pressing issues that 
the IAFF would like to take into account in legislation. 
However, we have done this bill, the FIRE Act, the Assistance 
to Firefighters Grant Program as a consensus document. And 
moving down this road to take one singular provision that is 
offensive to any of the stakeholders we really feel opens 
Pandora's Box.
    What is next? Do we come back next year? Do we try to put 
an imposition that departments have to comply with the National 
Fire Protection Association or OSHA? There is a lot of very 
good public policy concerns here and this is certainly one of 
them, and I, you know, understand Chief Stittleburg's passion 
on this issue, as we have our position, but we just don't think 
this is the appropriate vehicle for the reasons you 
articulated.
    Mr. Sherman. I agree with you that this is not the bill for 
us to settle such a controversial issue, and I don't think the 
Federal Government is the right agency to determine how these 
matters would be dealt with on something that really should be 
local. I mean, our colleague, Mr. Hoyer, can describe what goes 
on in Maryland, but even he, with his great interest in this 
issue, knows very little about the L.A. Fire Department. 
Speaking of the L.A. Fire Department, I see that the maximum 
grant is $3 million. The people of Los Angeles represent well 
more than one percent of this country, and yet by that limit 
are limited to no more than 1/3 of one percent of the total 
grants, as I understand it.
    Am I correct in assuming that the most the L.A. Fire 
Department could get, even if we got the full appropriation--
our colleague from the Budget Committee warned us that may not 
happen, and I am sure appropriators would tell us the same. But 
if we had the full--even if we had the full $900 million 
appropriated, is there any--can the City of Los Angeles Fire 
Department apply for more than one grant, or in some other way 
hope to get even one percent of the total money granted under 
this bill?
    Mr. Paulison. The $3 million that is proposed in 
legislation is an increase from $750,000, so----
    Mr. Sherman. Yes. I know the old bill was much worse----
    Mr. Paulison.--And the----
    Mr. Sherman.--for the--and it is a local decision. We could 
have 19 separate fire departments in the City of Los Angeles. 
As a matter of fact, throughout Southern California, we have 
organized ourselves chiefly in fire departments and--we--
chiefly in cities of 100,000 people or less. But some of us in 
Southern California have decided to live in one big city, or in 
my region have been prohibited from succeeding to form their 
own separate city, and from that--so you are just saying that 
this bill isn't as bad as current law on that issue. But my 
city, representing over one percent of the population, will be 
limited to less than 1/3 of one percent of the money.
    Mr. Paulison. You know, part of the issue, as the Budget 
Congressman said earlier is we have a limited amount of money, 
and if we did it by--strictly by population and percentage, 
then New York and L.A. and Houston and Chicago would take all 
the money.
    Mr. Sherman. No. We would take one percent. It is----
    Mr. Paulison. You know, we are trying to spread it as 
evenly as we can across the country because even when New York 
was under attack, it was all the smaller departments that came 
in and ran those calls during that two-month period while the 
New York Fire Department handled that particular incident. So 
we need to make sure that all departments in the country are up 
to speed, whether it is a small volunteer department in--
outside of Ohio, or----
    Mr. Sherman. Those of us who live in cities that represent 
more than 1/2 of one percent of the Nation's population are in 
the minority here in this House, and in the--and may not be 
successful. But to say that on a per capita basis, my city is 
less needy or that on a per-firefighter basis, my firefighters 
are less worthy is simply not true----
    Mr. Smith of Michigan. Mr. Sherman----
    Mr. Sherman.--and I----
    Mr. Smith of Michigan.--would you yield just----
    Mr. Sherman. I will yield.
    Mr. Smith of Michigan.--for a second?
    Mr. Sherman. Yeah.
    Mr. Smith of Michigan. The other thing that might be thrown 
into the hopper on this is the fact that L.A. and these other 
big cities where we are talking about $500 million a year in 
this program, we have now authorized over $6 billion for the 
Homeland Security for first responders, and so the opportunity 
for those larger departments to have some of that money where 
smaller----
    Mr. Sherman. Yes.
    Mr. Smith of Michigan.--departments would----
    Mr. Sherman. No. There are many--this is just one of many 
different proposals. It will be odd to go back to my 
constituency, which includes the City of Burbank and the City 
of Los Angeles, both of whom face very similar Homeland 
Security needs and have big things that could be attacked by 
PR-savvy terrorists, and we are up against PR-savvy terrorists, 
and explain that on a per-capita basis. Burbank is eligible for 
its full share and more and Los Angeles will be limited to less 
than 1/3--but as you point out, this is only one bill.
    Chairman Boehlert. Thank you very much, and----
    Mr. Sherman. Thank you.
    Chairman Boehlert.--the gentleman's time has expired, but 
let me point out that--re-emphasize what Chairman Smith said. 
There are a number of other avenues for my department in New 
York City and for Los Angeles to travel down to get resources 
they desperately need. But I am reminded of that fateful day, 
and I will tell you, volunteers from all over America came to 
New York and did everything humanly possible to contribute to 
the aftermath to do so much for so many.
    So look at--gentlemen, thank you all for being resources 
for this committee. We really appreciate it, and it warms the 
cockles of my heart to see you sitting together at the table, 
all smiling and in general agreement on a very important 
program. We are going to do it. Thank you.
    Mr. O'Connor. Thank you, sir.
    Chairman Boehlert. Adjourned.
    [Whereupon, at 12:07 p.m., the Committee was adjourned.]

                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions
Responses by Andrew T. Mitchell, Deputy Director, Office of Domestic 
        Preparedness, Department of Homeland Security

Questions submitted by Chairman Sherwood L. Boehlert

Q1.  Recently, allegations of fraud in the program have brought into 
question the procedures in place for verifying the accuracy and 
veracity of grant applications. It is my understanding that in the FY 
2003 grant cycle, a number of fire departments submitted boilerplate 
language to describe departmental needs, responsibilities and whether 
adequate funding was available to address them, possibly indicating the 
use of third-party grant writing services. What is the status of the 
DHS Inspector General's investigation into this matter and what steps 
is ODP taking to ensure that something like this doesn't happen again 
this year? Do more program funds need to be allocated to administrative 
costs to better safeguard against such fraud?

A1. ODP is aware of the Inspector General's ongoing investigation into 
the use of boilerplate application language in the FY 2003 grant cycle. 
We are unable to speak for the DHS Office of the Inspector General 
(OIG) on its investigations and appreciate the Committee's 
understanding that it may be inappropriate for ODP, having assumed 
responsibility for the AFG program in FY 2004, to facilitate resolution 
of this question. We request that the Committee direct questions with 
respect to OIG investigations directly to the OIG.
    We maintain that there is nothing wrong with using boilerplate or 
template language in an application, as long as the information 
provided is accurate. We rely heavily on the applicants' certification 
that the application submitted is factual. If we suspect, or if 
allegations are made, that an application is not accurate, we perform 
our own review to assess the application in question. If our review 
warrants it, we do not hesitate to bring a questionable application to 
the attention of the DHS Inspector General.
    During the FY 2003 application review process, review panelists 
noticed that some applicants were using the same technical language--
language we determined was provided by a vendor--in their narratives. 
We queried the automated application database for a phrase that we 
identified as repetitive and pulled applications in which it was used. 
We then convened a special panel to review these specific applications. 
The conduct of this special panel was vetted through FEMA's grants 
management and FEMA's general counsel. This process was used last year 
when similar circumstances arose. Finally, we do not believe that 
additional funding to protect against fraud is needed.

Q2.  Last year, the Department of Homeland Security's Office of 
Inspector General reviewed the Assistance to Firefighters Grant Program 
and made the following recommendations to improve the program:

        1)  Require greater detail to determine a fire department's 
        financial need;

        2)  Require applicants to declare other federal funding sources 
        to avoid potential duplication of assistance;

        3)  Promote mutual aid and regional approaches to enhance 
        inter-operability;

        4)  Improve monitoring of grant recipients to ensure 
        expectations and responsibilities are met;

        5)  Developing performance measures to asses the program's 
        long-term effect;

        6)  Use needs assessment findings as an additional tool to 
        define program priorities and eligibility criteria; and

        7)  Clarify the distinction between the Fire Prevention and 
        Safety program and the Fire Prevention program category of the 
        AFGP.

     What steps is ODP taking to respond to each of these 
recommendations?

A2. ODP has determined that it generally is in agreement with the 
original reply of the U.S. Fire Administration to the FEMA IG.
    With respect to each of the seven points raised--

        1)  The Department will, beginning in FY 2005, require AFG 
        applicants to provide information disclosing sources of funding 
        that may impact financial need; specifically, capital, reserve 
        or trust funds that may generate income or provide capital for 
        major purchases. These sources of funding would not be 
        reflected in detailed operating budgets.

        2)  We had at the time of the IG report already instituted a 
        regiment in our awards process in which we would ask 
        departments to assert that no duplicate funding streams existed 
        for their request. We have since included this question in the 
        application as well. With respect to WMD/terrorism items--
        training or equipment--we have asked state homeland security 
        offices to corroborate the AFG applicant's assertions.

        3)  We ask applicants to indicate in their application whether 
        mutual aid or inter-operability is an aspect of their 
        application, and we instruct peer reviewers to the cost benefit 
        of such aspects to an applicant's request. Technical review 
        addresses issues in which certain items, for example 
        communications equipment, may be outside of state's adopted 
        inter-operability parameters.

        4)  We believe our monitoring efforts are comprehensive and 
        effective. Strategically, we want all of our grantees to 
        understand what is expected of them and what they can expect of 
        the program office staff. All grantees are monitored during the 
        award performance period. This monitoring is accomplished 
        through site visits, performance reporting, requests for funds, 
        and telephone calls to the stations. Regional offices carry out 
        75-80 percent of this effort. Their proximity to the grantees 
        facilitates issue resolution.

        5)  We agree with this effort completely. An agreement has been 
        put into place with the HHS Centers for Disease Control and 
        Prevention to assess the effectiveness of the fire prevention 
        awards. A broader effort to assess the results of the grants 
        within the grantee fire department's capabilities to respond 
        safely and effectively is being implemented.

        6)  We believe that, while the survey tool crafted by the NFPA 
        and USFA provides a useful resource to the effort to set 
        funding priorities and other criteria, the annual, assembly of 
        fire service representatives to identify these is more 
        responsive to emergent requirements and alternative criteria. 
        Thus, while maintaining the survey assessment can contribute to 
        this effort, it should never supplant it.

        7)  In our annual ``Lessons learned'' meeting with the criteria 
        development group, we have addressed this issue, and proposals 
        have been developed, though not finalized. At this point, we 
        believe the best method of achieving this distinction is to 
        separate fire prevention application period, for both Fire 
        Departments and private or public non-profits.

Q3.  Where in the DHS structure is ODP? My understanding is that the 
Administration is in the process of moving the ODP out of the Border, 
Transportation, and Security Directorate and merging it with the Office 
of State and Local Preparedness. If this is accurate, what is the 
status of this move, why was the change made, and what, if any, 
implications will this have for the Assistance to Firefighters Grant 
Program?

A3. As the Secretary recently announced, ODP and the Office for State 
and Local Coordination (OSLGC) have been consolidated to create the 
Office for State and Local Coordination and Preparedness (OSLGCP). The 
consolidated office will be located within the Office of the Secretary, 
and the Assistance to Firefighters Grant Program Office will be a 
distinct program office, whose sole purpose is the management of AFGP. 
Thus, the consolidation will have no effect on the operation of the AFG 
program, which will continue to be managed with the same cycle of 
activities and administrative actions.

Questions submitted by Representative Lynn Woolsey

Q1.  The Department of Homeland Security IG recommends that fire 
departments that apply for Fire Grants be required to provide detailed 
information on their operating budgets for the two years prior to their 
grant application. The IG believes this will permit a more complete 
evaluation of financial need and provide a way to validate that an 
awardee complies with the requirement to maintain its previous level of 
operating expenditures related to the purpose of the grant request. 
What is your view of this recommendation? Do you intend to carry it 
out, and if not, what are the reasons?

A1. We share the concern of the U.S. Fire Administrator about this 
recommendation that we should require applicants ``to provide detailed 
information on their operating budgets from the previous two years.'' 
This recommendation assumes that all of our applicants formulate 
budgets and/or have details of expenditures readily available. The 
reality is that much of the AFG customer-base is using less structured 
budgetary systems. Some volunteer departments rely on their checkbook 
for accounting and control purposes. As the USFA pointed out to the 
IG's office, the ``detailed'' information that could be obtained from 
departments whose financial statements are their checkbook balances is 
clearly limited. As the IG's report points out, we ask each applicant 
to provide us with its operating budget net of personnel costs. It is 
our assertion that technical evaluation panelists, who are familiar 
with fire and fire operations, can take this figure and compare it to 
the number of firefighters in the department, the numbers and types of 
apparatus, the number of stations or facilities, the level of fire and 
rescue activity, the population served, and size of the area protected 
and determine if the fire department can operate effectively or if the 
department has financial needs. We should not and cannot presume these 
same technical evaluation panelists would have the accounting 
experience to be able to interpret an income statement or a balance 
sheet and determine financial need as effectively.

Q2.  The Department of Homeland Security IG suggests that increased 
monitoring is needed for Fire Grants that are awarded and recommends 
that the number of site visits to awardees be increased. At present, 
the IG indicates that site visits are made only four to seven percent 
of grantees on a randomized basis. What is your view of the IG's 
recommendation? Do you intend to carry it out, and if not, what are the 
reasons?

A2. We are continuing to make or monitoring efforts more effective to 
address findings of both the Inspector General and the Office of 
Management and Budget's Program Assessment Rating Tool. Strategically, 
we want all of our grantees to understand what is expected of them and 
what they can expect of the program office staff. All grantees are 
monitored during the award performance period. This monitoring is 
accomplished through site visits, performance reporting, requests for 
funds, and telephone calls to the stations. Regional offices carry out 
75-80 percent of this effort. Their proximity to the grantees 
facilitates issue resolution.
                   Answers to Post-Hearing Questions
Responses by Chief Philip C. Stittleburg, Chairman, National Volunteer 
        Fire Council

Questions submitted by Chairman Sherwood Boehlert

Q1.  Does prohibiting paid firefighters from volunteering lower the 
liability of a municipality? To what extent are volunteer firefighters 
insured through their volunteer departments against injuries or other 
accidents that may result in claims?

A1. Many proponents of anti-volunteer provisions at the municipal level 
cite their concern that families will not be able to collect benefits 
because the firefighters may be injured or killed while volunteering 
outside the jurisdiction of their employer. In reality, almost every 
state in the country provides some combination of workers' compensation 
coverage, life and disability benefits, and educational benefits for 
volunteer firefighters. In addition, many departments have other 
supplemental accident and/or disability insurance through private 
insurance carriers to cover their members.
    In contrast, other strenuous activities and employment often 
undertaken by career firefighters during off-duty hours, such as work 
in the various trades or recreational sports, very rarely provide any 
benefits to firefighters and their families if they are injured or 
killed. Moreover, it would be one thing if a fire department prohibited 
its employees from engaging in any strenuous outside activity. However, 
this is never the case. Volunteer firefighting is singled out as a 
banned activity.
    Finally, our organization is unaware of a situation where 
prohibiting paid firefighters from volunteering would have any effect 
on the liability of a municipality.

                   Answers to Post-Hearing Questions

Responses by Chief Ernest Mitchell, President, International 
        Association of Fire Chiefs

Questions submitted by Chairman Sherwood Boehlert

Q1.  How does the IAFC believe the issue of discrimination against 
volunteers should be resolved?

A1. As I discussed in my testimony, the IAFC believes that this issue 
should be resolved at the local level by individual fire chiefs.
    I share your concern over discrimination against anyone. This is an 
important issue and our position is clear--ordinarily a firefighter 
should be able to volunteer in another jurisdiction when he or she is 
off duty. However, the anti-discrimination provision in H.R. 4107 
appears to be overly broad and has the potential to adversely impact 
local control. There may be times when it would be appropriate to limit 
a firefighter's ability to engage in other employment or volunteer 
activities, namely when those activities are placing a burden upon the 
city or county.
    As a fire chief, I have had the ability to annually review each 
employee's outside employment in order to assess whether or not a 
conflict existed. I believe that option should also exist for 
volunteerism. Local policy recognizes individual rights, but it also 
allows for departmental review. I have not chosen to prevent 
firefighters from volunteering; however, if trends or data developed 
that indicated volunteering or some other activity was creating a 
burden upon the city, then I believe it would be my duty to act in the 
best interest of my employer and move to rectify the hazard. I might 
choose to limit outside activity if I saw a pattern of injury that 
likely did not happen during duty hours, or if the activity were 
adversely affecting the firefighter's attendance record.
    My home state of California has very high worker's compensation 
costs and we need to maintain the right to exercise local authority to 
control those costs. I have personally been involved with one incident 
whereby a career firefighter was responding to his volunteer assignment 
in his personal vehicle and had a very serious automobile accident that 
ended his career. After many surgeries and much rehabilitation and 
therapy, he simply could not return to duty. Subsequently, after much 
litigation, he received a service disability retirement--at the expense 
of the city he was employed by at the time of the accident. That is 
California's worker's compensation law.
    It would be unfortunate if a community could not exert some 
preventive control over this type of situation. The ability to manage 
risk through local control of outside employment and volunteering are 
essential tools when communities are faced with reducing and limiting 
their costs. Doing so should not have the potential to then adversely 
impact those jurisdictions' ability to receive FIRE Act grant funding 
that is needed to better protect that community and its firefighters. 
The IAFC certainly does not support discrimination; however, we are 
compelled to protect the local fire chief's right to manage his/her 
fire department by utilizing sound management principles, including 
risk reduction and management.

Q2.  Does the IAFC have any policies in place to protect members from 
such pressure and harassment or otherwise address this practice?

A2. The IAFC does not have any policies in place. However, our Human 
Relations Committee has begun to focus on the issue, and has joined 
with its counterpart at the International Association of Fire Fighters 
to try to come up with reasonable solutions to the problem of 
discrimination. The IAFC's government relations staff will gladly keep 
you appraised of the committee's progress if you would like.

                   Answers to Post-Hearing Questions

Responses by Kevin B. O'Connor, Assistant to the General President, 
        International Association of Fire Fighters

Questions submitted by Chairman Sherwood Boehlert

Q1.  You noted in your testimony that your union has over 260,000 
firefighters as members. Approximately how many of these also volunteer 
during their off-duty hours?

A1. We do not keep any records on this matter, and have no way of 
knowing for certain. I can safely say it is not uncommon. And while I 
do not have precise numbers, I suspect that the IAFF has more volunteer 
firefighter members than the National Volunteer Fire Council (and 
consequently is more likely to be aware of their views).

Q2.  In your testimony, you argue that the ``Protection of volunteers 
from discrimination'' provision would interfere with collective 
bargaining. How many existing collective bargaining agreements are you 
aware of that bar paid firefighters from volunteering? Would the IAFF 
still oppose the provision if language were inserted into the bill to 
provide for a ``grandfather exemption'' from the provision for 
departments with these agreements?

     You also stated that these agreements ``were not asked for by our 
local union affiliates in those jurisdictions. They were requested by 
management.'' Does this mean that the IAFF national leadership and its 
locals are not pursuing, and do not plan to pursue such language in 
similar collective bargaining negotiations around the country?

A2. We do not know for certain how many of our contracts have such 
clauses. In recent weeks we have been seeking this information, and 
have found a few we were unaware of previously. My best guess is that 
some form of this language may be found in one or two percent of all 
firefighter contracts.
    Additionally, we surmise that some prohibitions against 
volunteering will be found in local ordinances and/or fire department 
rules and regulations, rather than collective bargaining agreements. 
This is because either a local pension system or fire department wishes 
to implement such a policy as a managerial function and not as an item 
to be bargained.
    Grandfathering in existing contracts does not address the 
fundamental issue that the federal grants should not be used to limit 
the scope of bargaining under labor laws. I must reiterate that our 
objection to this provision in the FIRE Act has little to do with the 
specific clauses being discussed. Rather, we do not believe the FIRE 
Act should be used to deny firefighters bargaining rights and we do not 
believe the FIRE Act should dictate local fire department policies.
    I think it is noteworthy that subsequent to the hearing, U.S. Fire 
Administrator Dave Paulison announced his opposition to this language. 
Paulison, who has done an extraordinary job of promoting the volunteer 
fire service in our nation, concurred that the FIRE Act is simply an 
inappropriate vehicle to address these issues.
    Finally, let me assure you that the IAFF national leadership has 
never advocated the inclusion of these clauses in contracts, and we 
have no intention of doing so. Where these clauses have arisen, it has 
been in response to local problems and local threats to public safety. 
We trust our local people and the local fire chief to make this 
determination for them.

Q3.  The IAFC conducted a survey of over 1000 fire departments 
entitled, ``Harassment, Peer Pressure, and Volunteer Firefighters.'' 
The survey found that 269 of them (25 percent) have experienced recent 
pressure or harassment toward firefighters to limit their serving as 
volunteers in other departments. Does the IAFF have any policies in 
place to protect members from such pressure and harassment or otherwise 
address this practice?

A3. I find it very difficult to comment on a survey without knowing 
much more about it. What questions were asked? Who answered them? An 
example of the problems arising from an attempt to speculate can be 
found in the question you are posing. You state that 25 percent of fire 
departments experienced harassment. But who is making this claim? Are 
these the chiefs of paid fire departments claiming harassment is going 
on under their watch? If so, have they received complaints from the 
firefighters or is this just their perception? Or are these volunteer 
chiefs who are reporting on the harassment they believe is occurring in 
nearby paid fire departments?
    Based on my experience with this issue over the past several years, 
I can assure you that these are crucial distinctions. I have found it 
very surprising that volunteer fire chiefs routinely decry the 
harassment that paid firefighters are supposedly enduring on their paid 
jobs, yet we have rarely heard any paid firefighter complain of this 
harassment. Our members are not the least bit shy about expressing 
their displeasure when they disagree with their elected union leaders. 
We hear complaints on a range of issues on a regular basis. This issue 
is simply not among them. In fact, in some jurisdictions we hear the 
opposite complaint: paid firefighters being harassed by volunteers. So, 
without knowing more about who has completed these surveys, I would 
caution against reading too much into them.
    Finally, it is important to keep in mind that personality conflicts 
are inevitable in any workplace setting. The IAFF has chosen to deal 
with such conflicts on a case-by-case basis and not attempt to involve 
Congress in resolving issues that are local in nature.

Q4.  You indicated at the hearing that IAFF discrimination of members 
who serve as volunteer firefighters is not common, stating, ``there has 
never been an IAFF member suspended from the IAFF in the United States 
for volunteering.'' However, the aforementioned survey conducted by the 
IAFC found that in many instances, newly hired career firefighters are 
denied membership in IAFF until they stop volunteering on off-duty 
hours. Is this practice a policy of, or supported by, the IAFF?

A4. The IAFF on a national level has never denied membership to a 
person who serves as a volunteer. While our Constitution states that 
charges MAY be brought against a member who is volunteering on their 
off duty hours, the IAFF does not investigate whether or not 
individuals volunteer, nor do we have an application form that requests 
this information. I do not dispute that there may be instances where 
this has occurred in some localities, but without knowing more about 
the specifics of the case, I cannot comment.
    I do know that some volunteer fire companies have engaged in 
actions that are designed to hinder fire department operations and 
reduce public safety. We have asked our members not to support such 
organizations. But we believe these are not the majority of volunteer 
fire companies, and therefore have not taken any actions on the 
national level.
    But your question raises a very significant issue that was not 
addressed at the hearing. Since this issue arose, we have inquired 
whether the ``discrimination'' referenced in H.R. 4107 included issues 
of IAFF membership. You and other sponsors of this legislation attended 
a meeting earlier this year at which representatives of the National 
Volunteer Fire Council argued strenuously that this language has no 
bearing on IAFF membership at all, and solely affects fire department 
policies and legally enforceable contracts. No one attending the 
meeting disputed this interpretation.
    The fact that you are now raising the issue of IAFF membership 
policies gives us serious pause and opens up a whole other dimension of 
this issue. The idea of using federal funding to coerce a private 
organization to change its internal governance structure is deeply 
troubling. Union governance is already heavily regulated by the Labor 
Management Relations Act which requires us to adhere to the highest 
levels of democracy (demands that are not placed, by the way, on other 
fire service organizations).
    To now utilize federal grants as a way to address union governance 
outside the scope of labor law is an extraordinary expansion of federal 
intervention into the affairs of private organizations.
    We respectfully request that before moving forward with this 
legislation, a legal interpretation be sought as to whether the so-
called ``discrimination'' language in H.R. 4107 pertains only to fire 
department policy or also to union membership rules. The answer to that 
question would have potentially far reaching consequences.
    Let me conclude my answer by clarifying that membership in the IAFF 
is no way connected to an individual's employment status. Even if the 
IAFF were to deny membership to a firefighter--because that individual 
volunteered, or was a member of the Communist party, or refused to 
follow proper parliamentary procedure at meetings (each of which can be 
the basis for an internal charge)--that person's status as a 
firefighter would not be affected, nor would their compensation or 
benefits be impacted. A firefighter could spend their entire career in 
any fire department in the Nation and rise to the very top position 
without ever being an IAFF member. Frankly, this is a non-issue and one 
that certainly should not occupy the time and energy of the United 
States Congress.

Questions submitted by Representative Lynn Woolsey

Q1.  I do not believe we should be using the FIRE Act to address local 
fire department policies. The FIRE Act should be used solely for 
providing Federal assistance to local Fire Departments, not for 
overturning provisions of local collective bargaining agreements. Can 
you explain why a fire department might choose to prohibit its paid 
firefighters from serving as volunteer firefighters in another 
jurisdiction?

A1. First, let me respond by explaining the manner in which the IAFF 
operates in relationship to our local affiliates. Our union empowers 
our affiliates to make a wide range of policy decisions on the local 
level. This policy includes political endorsements, setting union dues, 
establishing membership standards and categories, bargaining contracts, 
and a host of other issues. As a result, in our nearly 3,000 affiliates 
there is a wide array of differences on these issues--much the same as 
State and local laws vary considerably from jurisdiction to 
jurisdiction.
    Since the IAFF is not directly involved in local negotiations, we 
have no first hand knowledge of the history or purpose of these 
provisions. But from what we can ascertain, the issue of prohibiting 
firefighters from volunteering is largely financial in nature. Many 
jurisdictions provide pension benefits based upon certain 
``presumptions.'' Essentially, it is accepted that if a firefighter 
contracts various ailments--heart, lung, infectious or communicable 
diseases, or certain types of cancer--that those illnesses were caused 
by the individual's service as a firefighter. That person is then 
afforded a disability pension, which is significantly more generous 
than a standard or service pension. As a result, jurisdictions want to 
ensure that the individual is not exposed to potential risks outside of 
employment. Clearly, an individual working as a paid firefighter and 
volunteering off-duty has greater exposure to a variety of hazards. To 
avoid that liability, jurisdictions sometimes are inclined to restrict 
volunteering.
    I must add that the ``wellness'' approach is not simply applied to 
volunteering. Many jurisdictions also prohibit firefighters from 
smoking--on- or off-duty--and insist on mandatory fitness standards. 
This is all done to limit liability.

Q2.  Your testimony states that if the volunteer language is retained 
that Congress should also require local fire departments to grant 
collective bargaining rights. Can you explain why you think these 
issues are linked?

A2. Our view is predicated on a simple premise: what Congress had no 
part in establishing they should have no part in eliminating. State or 
local government implemented all of the bargaining ordinances across 
the Nation. We do not feel that Congress should limit the scope of 
bargaining on the local level by threatening to withhold funding for 
vital grant programs.
    For several Congresses, the IAFF has supported the Public Safety 
Employer-Employee Cooperation Act. In this Congress it is designated as 
H.R. 814. Unfortunately, the bill has not moved. The IAFF has worked 
with both parties as well as all components of the fire service to 
craft legislation that is sensitive to many concerns--including the 
issue of volunteering. In fact, if enacted, the bill would specifically 
prohibit unions and management falling under the Act's jurisdiction to 
negotiate contracts that prohibit firefighters from volunteering on 
their off-duty hours.
    There is an important distinction to be drawn. If Congress extends 
a right to a group of public safety employees (collective bargaining), 
it has a right to establish rules, procedures and limitations on the 
process and scope of bargaining. In our view, if Congress doesn't 
extend a right, it ought not attempt to limit rights granted by another 
entity. Since Congress has demurred from acting on this issue, it 
should not, now, insert itself into the bargaining arena to influence 
policy decisions at the local level of government.

Q3.  Your testimony states that the proposed language in the FIRE Act 
is different from similar language that was included in the SAFER law 
passed last year. Can you explain this difference?

A3. Quite simply, the restriction in SAFER was a restriction on the use 
of federal funds. It applied only to the individual hired with federal 
money, and did not limit the policies or practices of the fire 
department. The language in H.R. 4107 is a restriction on the recipient 
of federal funds. It would preclude certain fire departments from 
applying for any type of FIRE grant, whether or not the grant had 
anything to do with personnel issues.
    The distinction between a restriction on the use of federal funding 
and a restriction on the recipient of federal funds is a significant 
one, and has been the source of heated controversial in other programs. 
It is misleading to argue that the language in SAFER and the language 
in H.R. 4107 are comparable.

                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

             U.S. Department of Homeland Security Views on
   H.R. 4107, Assistance to Firefighters Reauthorization Act of 2004

    The following are the Department of Homeland Security's views on 
the House-introduced H.R. 4107, the ``Assistance to Firefighters Grant 
Reauthorization Act of 2004'' (Boehlert)

Item 1:

    Section 2 (Findings), paragraph (22)

    As currently written, the finding that ``an estimated 48 percent of 
the population is protected by fire departments that do not have a 
juvenile fire-setter program'' sounds like children are being trained 
to ``set fires.'' Is this the name of a fire prevention program? If so, 
there should be a statement to that effect.

    We recommend that the bill identify the juvenile fire-setter 
program and add a description of its purpose (e.g., ``. . .that do not 
have a Juvenile Fire-setter Program designed to train children not to 
play with fire:'').

Item 2:

    Section 3 (Amendments), paragraph (1)

    As drafted, H.R. 4107 would reauthorize the Assistance to 
Firefighters Grant (Fire Act grants) Program within the U.S. Fire 
Administration. This is inconsistent with: (a) the action taken by the 
Appropriations Committees of the House and Senate in the DHS FY 2003 
Appropriations Act; (b) Secretary Ridge's January 26, 2004, letter, in 
which he announced the consolidation of ODP and the Office for State 
and Local Government Coordination to form the new Office for State and 
Local Government Coordination and Preparedness; and (c) the President's 
FY 2005 budget request, in which placed the Assistance to Firefighters 
Grant Program (or Fire Act grants) within ODP.

    We recommend placing all authority for the Assistance to 
Firefighters Grant Program under the general authority of the 
Secretary, Department of Homeland Security (DHS). This is appropriate 
given the Secretary's overall responsibility for DHS, its components, 
and programs. Placing authority under the Secretary preserves the 
Secretary's discretion to administer this program consistent with the 
Secretary's and Administration's goals and objectives. Therefore, all 
references in the bill to ``the Administrator'' should be struck and 
replaced with ``the Secretary of the Department of Homeland Security.''
    Notwithstanding the foregoing, if Congress makes the determination 
to keep the FIRE Act grants program in the U.S. Fire Administration 
within FEMA, we believe that this should be done directly with language 
requiring this rather than through the indirect references to the 
Administrator throughout the FIRE Act grants statute.
    Regardless of who is ultimately granted authority to award the 
grants, we believe that technical amendments to the FIRE Act grants 
statute should be made at the same time that technical amendments are 
made to all of the provisions of the Fire Prevention and Control Act.

Item 3:

    Section 3, paragraph (2)

    Currently, the only Emergency Medical Service (EMS) Squads eligible 
under the assistance to firefighters grant program are those that are 
components of a fire department. Section 3(2) would expand the group of 
eligible grant recipients to include ``volunteer emergency medical 
service squads.'' However, DHS believes that eligibility for EMS Squads 
should extend to all EMS Squads, whether career or volunteer, that are 
public or private not-for-profit entities performing a recognized 
public safety function. To that end, we suggest that Section 3(2) be 
amended by striking the word ``volunteer'' and replacing it with the 
term ``public or private not-for-profit.'' This change in the statute 
would afford DHS the flexibility to make the appropriate regulatory 
requirements to implement the intent of this change. Additionally, to 
ensure that the statute references fire departments and EMS squads in a 
parallel fashion, DHS suggests that the terms ``public or private not-
for-profit'' be inserted prior to the words ``fire departments'' in 
Section 3(2).

    Further, the purpose of the grants should mirror this extension. 
Therefore, a new section should be added to Section 3, which reads, 
``in subsection (b)(1)(A), by inserting ``emergency medical service'' 
after ``public.''

Item 4:

    Section 3, paragraph (4)

    Same comment as above under Item Number 3.

Item 5:

    Section 3, paragraph (7)(A)

    Section 3(7)(A) would raise the cap for Assistance to Firefighters 
Grants from the current maximum of $750,000 per jurisdiction to three 
different maximums ($1 million, $2 million, and $3 million) based on 
the population of the jurisdiction that a grant recipient serves. 
However, under the President's FY 2005 budget request, assistance to 
firefighters grant awards to jurisdictions with a population less than 
500,000 are maintained at a maximum of $750,000 and the cap for 
jurisdictions of 500,000 or more is raised to $2 million. The funding 
levels proposed in this section should be consistent with the 
President's budget request. Moreover, if the cap is to be raised, then 
an adjustment of the match requirement should be considered as some 
communities have found it difficult to meet the current requirements at 
the $750,000 levels.

    In addition, section 3(7)(A) would allow grants to be awarded in 
excess of the dollar limits for ``a population close to the relevant 
threshold, upon a showing of sufficient need.'' The ``close to the 
relevant threshold'' standard is vague. Permitting waivers of the 
limits ``in the Secretary's discretion'' may be a less litigation-prone 
standard.

Item 6:

    Section 3, paragraphs (13) and (15)

    Paragraph (13) would provide for an annual meeting of non-federal 
experts to recommend criteria for awarding grants; paragraph (15) would 
provide for peer review. Both of these groups are already established 
in practice and, as such, it is not clear that these provisions are 
necessary. To the extent that this language remains in the bill, DHS 
recommends adding clarifying language that these groups are seeking the 
views and opinions of the participating individuals only and are not 
seeking consensus positions. Such clarifying language would avoid 
raising Federal Advisory Committee Act concerns and maintain 
consistency with current practices.

Item 7:

    GENERAL COMMENT regarding H.R. 4107

    DHS suggests that the proposed language below be added to H.R. 4107 
in view of the fact that a substantial percentage of the American 
public have disabilities (over 40 million by Congress' 1990 estimate, 
with the number climbing as the baby boomers reach retirement age) and 
that such persons may require accommodations in order to use emergency 
services. In addition, that language would remind the firefighting 
community to plan ahead and to integrate planning for people with 
disabilities into their preparedness efforts.

    Proposed language: ``Emergency readiness for persons with 
disabilities could be improved by making grant money available under 
this program for fire departments and first responders that are 
preparing to assist persons with disabilities, either with day to day 
fire and rescue services, or in dealing with an attack or a 
catastrophic emergency.''

</pre></body></html>
